<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2009

                              ----------                              


                       WEDNESDAY, APRIL 16, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 1:58 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Byron L. Dorgan (chairman) 
presiding.
    Present: Senators Dorgan, Feinstein, Reed, Domenici, 
Bennett, Craig, and Allard.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF THE HON. THOMAS P. D'AGOSTINO, 
            ADMINISTRATOR
ACCOMPANIED BY:
        ADMIRAL KIRK DONALD, DEPUTY ADMINISTRATOR FOR NAVAL REACTORS
        MAJOR GENERAL BOB SMOLEN, DEPUTY ADMINISTRATOR FOR DEFENSE 
            PROGRAMS

              OPENING STATEMENT OF SENATOR BYRON L. DORGAN

    Senator Dorgan. We're going to call the hearing to order. 
We appreciate, very much, all of you being here, and especially 
to our witnesses, we're pleased that you've joined us.
    We're starting a couple of minutes early, we will have a 
vote that starts at 2:15 in the Senate, so the committee 
members will leave here probably at 2:20, we'll go vote, and 
come back. So, we will have a brief interruption, for which we 
apologize.
    We are here to take testimony from the National Nuclear 
Security Administration (NNSA) on the fiscal year 2009 budget 
request of three NNSA programs--weapons activities, naval 
reactors and the Office of the Administrator. We'll cover the 
budget request of the Defense Nuclear Nonproliferation Program 
in a separate hearing in 2 weeks' time.
    Today we have two panels. Administrator Tom D'Agostino will 
be our witness on the first panel. He will be joined by Admiral 
Donald--the Deputy Administrator for Naval Reactors, and by 
General Smolen, Deputy Administrator for the Defense Programs, 
to help respond to questions.
    Our second panel will consist of the three National Weapons 
Laboratory Directors--Dr. Mike Anastasio of Los Alamos, Dr. 
George Miller of Lawrence Livermore, and Dr. Tom Hunter of 
Sandia.
    The three Directors play an important role in the 
stewardship and the certification of our nuclear weapons 
stockpile, and I appreciate them being willing to respond to 
our request to come to Washington.
    The total NNSA budget request for fiscal year 2009 is 
nearly $9.1 billion, by far the largest program in the 
Department of Energy, making up about 36 percent of the 
Department of Energy's budget.
    Within that budget request, $6.6 billion is for weapons 
activities, $1.2 billion for nuclear non-proliferation 
programs, $828 million for naval reactors and $404 million for 
the Office of the Administrator.
    The naval reactors budget seeks $47 million above fiscal 
year 2008 enacted level, the primary driver of that is to 
support work in Idaho on naval spent nuclear fuel. The reactors 
program is highly respected, rarely draws much attention from 
the Congress or the public, and in many ways, that's a very 
good thing. And Admiral Donald, I commend you and your 
organization for your work, and appreciate your being here 
today.
    The Weapons Activity Programs stand in contrast to the 
Naval Reactors Program in both size, and also in the sense that 
it does draw a significant amount of attention from the 
Congress, and from the public. Given the program's focus on the 
safety, security and reliability of our nuclear weapons, that's 
a good thing. In fact, I would say Congress and the American 
people should continue to pay an even greater amount of 
attention to issues that surround nuclear weapons.
    The $6.6 billion budget for weapons activities represent 
the single largest program in this Energy and Water bill. It's 
larger than the investments in the Corps of Engineers, for 
example, the Office of Science, or the funding to clean up the 
former nuclear weapons complex.
    The $6.6 billion weapons activities request in the 
President's budget is $321 million above the fiscal year 2008 
enacted level. That is the largest proposed increase, other 
than the Office of Science.
    A small, but telling, illustration is that the Department's 
budget proposes to cut $200 million from the effort to clean up 
the former nuclear weapons complex that created the special 
nuclear material in our current stockpile. That means this 
Department will unfortunately fail to meet regulatory 
milestones to clean up radioactive-contaminated waste. We had a 
hearing about that recently.
    Yet, in the same budget, the administration creates a new 
account to fund $77 million for the NNSA to tear down non-
contaminated buildings. And I can support the efforts to tear 
down unneeded buildings, but it's clear the administration is 
prioritizing that budget by failing to meet its legal 
obligations in the other area, on which we've held a hearing 
just recently.
    I mentioned that the Weapons Activity Program attracts 
public attention. Two areas that I want to mention are the 
Complex Transformation and the Reliable Replacement Warhead 
(RRW). NNSA currently has its Complex Transformation-preferred 
alternative out for public comment. I commend NNSA for holding 
numerous public meetings on the plan, and for extending the 
written comment period. That makes a lot of sense to me.
    Two basic comments I hear from people are that the Complex 
Transformation-preferred alternative fails to close any site-
through consolidation, and that significant investment in 
infrastructure are being proposed that may or may not be 
needed. I hope we can explore some of those areas in 
questioning today.
    The other NNSA issue that draws considerable attention is 
the proposed Reliable Replacement Warhead. The premise behind 
RRW is that we can produce a new nuclear weapon that is, in 
many cases, smaller, safer, reliable, and less costly than the 
current stockpile. I understand that premise, but I do have 
some significant concerns about a program that is not set in a 
construct of an overall strategic defense policy, analyzing the 
impact of such a program on our international nuclear non-
proliferation efforts.
    Last year, the Armed Services Committee, through the 
leadership of Congresswoman Tauser, in the House, created the 
Congressional Commission on Strategic Posture of the United 
States. This is a congressionally appointed panel to review the 
role of nuclear weapons in our national strategic defense.
    This subcommittee supported that effort, and also called on 
the administration to submit a comprehensive nuclear weapons 
strategy for the 21st century. The idea behind both of these 
directives is that we need to understand the role nuclear 
weapons will play in our country's future, and develop a 
national policy that is reflective of that understanding.
    The RRW, I believe, skips that step. If the RRW is pursued 
without such a broad policy review, it will have the de facto 
effect of creating that national policy.
    For that reason, I supported, ultimately, in conference, 
zeroing out the funding request for the RRW in fiscal year 
2008. Furthermore, it's not my intention to fund the 
administration's $10 million request for RRW in the fiscal year 
2009. I believe we must wait for the work of the 
congressionally appointed panel and the next administration's 
Nuclear Posture Review before we move forward with a program 
that has such significant national and international policy 
implications.
    Having said that, I want to make another comment, as well. 
In addition to recommending that we not fund, in my chairman's 
mark, the $10 million, I believe very strongly that we need to 
retain our critical skills at our national laboratories. They 
are a national treasure for a lot of reasons, but especially 
those that are engaged in programs dealing with safeguarding 
our--and making certain that--our stockpile is certifiable and 
reliable. It's very important that we retain the key personnel 
and not have our national laboratories losing the kind of 
strength--intellectual strength--that I fear would happen if we 
don't adequately fund them. The question isn't whether we 
should fund them; I believe I would join my colleague from New 
Mexico in feeling very strongly that we want to have a strong 
funding base for our national laboratories. But, I exclude from 
that, at this point, the specific funding for a program called 
RRW until other conditions are met. And they may or may not be 
met in the future.
    I want to make one additional comment, and that is, Senator 
Domenici has served on this panel for a long, long, long time, 
as chairman and ranking member, and he has been tireless in his 
efforts to promote a good number of public policies that have 
become law and have advanced the interests of this country. We 
agree on many things, disagree on a few things here and there, 
but it's been a pleasure to work with him, and this will be his 
last spring--I was going to say spring cleaning, but that 
wouldn't be the case----
    Senator Dorgan. This will be his last set of spring 
hearings that we hold for the agencies under our jurisdiction. 
And I did want to take the opportunity to say to Senator 
Domenici how much I appreciate working with him, and let me 
call on him for an opening statement.

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Thank you very much, Mr. Chairman. As the 
time grows near for this terminating date, I find that there is 
more and more business that I see out--that we haven't 
finished. But I have kind of concluded that that's the way it's 
going to be any time in my life, so this is as good a time as 
any to leave it to somebody else after January or February of 
this coming year. However, there are a number of things we 
ought to try to get done.
    I'm sorry that we don't agree on the RRW, because it seems 
to me that we've made this too complicated. The truth of the 
matter is you look out in the world and, you know, in Europe, 
England, Russia, the United States--we're the countries with 
big nuclear arsenals. And all of them, except us, have already 
done their RRW, or are heavily engaged in it. They have new 
weapons, new structures, new weapons, new weapons systems. Many 
of them are already being done for 30 and 40 year out--that 
they'll be good for 30 or 40 years--meaning, to me, that they 
have already have accomplished what we might have accomplished 
with an early-on RRW.
    But, we'll get there, and in due course, the things that 
were included in it that we were going to try to do, we've got 
to hope, very much, that they will get done. Because, what we 
were talking about was not more weapons, but less. We weren't 
talking about bigger weapons, but rather smaller ones, we were 
talking about weapons that are safer, in all respects. That's 
what RRW would have done had it proceeded. That's why I say, it 
will get done, whether it's RRW or another way, let's hope, but 
within the next 3 or 4 years, we'll see our way clear to do 
that.
    Senator, I very much appreciated your opening remarks. I 
think you're going to be--this subcommittee is kind of one that 
most people didn't pay attention to for a long time. I think 
the fact that we will get you as chairman, coming from outside 
of the domain of the laboratories, I think you will bring some 
Senators into the web of trying to listen and understand the 
importance of this subcommittee. I felt, many times, that too 
few Senators cared very much about what was going on in this 
subcommittee.
    I recall, for the lab directors, when we started--now it 
seems like it should just be yesterday, but it was a long time 
ago--when we started Science-based Stockpile Stewardship. I 
told you all in New Mexico many times that I regretted that, 
when we made the change and started moving in that direction 
rapidly, and funding it, and doing the things we ought to do, 
that I found myself on the floor of the Senate with, literally, 
no one paying attention, nobody challenging the work we had 
done, and no votes occurring. We produced the bill, many times, 
without a single vote on the floor, Senator. And it was Harry 
Reid and I, and we'd go down there, and sometimes Harry would 
have to go somewhere, and I'd be alone, and we'd pass the bill. 
And we're now finding that the issues are very important 
issues, and a lot more people ought to be involved one way or 
another. I hope you can get them involved, because that will 
make for it being better for everybody.
    The past 15 years we have accomplished quite a bit in 
adapting to the 21st century security demands, and making much 
scientific investments in the laboratories. Critics of the 
weapons program have claimed that nothing has changed, that we 
have not moved beyond the cold war. It couldn't be more wrong.
    From my vantage point, a lot has changed. In 1992, the Bush 
administration initiated a moratorium on nuclear testing, after 
Congress voted, the administration implemented it, and it still 
holds today. In response, Congress and the Clinton 
administration worked in a bipartisan manner to establish a 
Science-based Stockpile Stewardship I just alluded to it. I'm 
proud to say that we accomplished our goals, and in the 
process, made the United States the world leader in high-
performance computing--just an incidental item--but it was 
caused by Science-based Stockpile Stewardship's requirements, 
which drove and made demands upon the industry, and they 
produced.
    In terms of weapons policy, there's been a considerable 
shift. In 2004, President Bush set a goal of cutting nuclear 
stockpile in half by 2012. With support from Congress in 
dismantling efforts, that goal was met in 2007, 5 years early. 
Having reached that target, the President ordered an additional 
15 percent cut.
    Today we have the smallest deployed stockpile since the 
Eisenhower administration, and we are on-schedule to meet the 
arms reduction laid out by the Moscow Treaty in 2002, by the 
Bush administration.
    Recognizing that the cold war is over, the administration 
has also reduced the role of nuclear weapons in our strategic 
defense, consistent with the Nuclear Posture Review of 2001. I 
support the premise that we can make even further reductions in 
our stockpile, by maintaining our scientific expertise, with 
the right production capabilities to reverse course, if 
necessary. We did not need to keep a large number of warheads--
we don't need to keep a large number in reserve.
    I also believe that so long as we must maintain our 
stockpile, we must make every effort to deploy the safest, most 
secure technology possible. In terms of production and 
handling, we should also work to eliminate hazardous material 
that possesses significant threats to our workers and to our 
environment.
    Nobody can predict how long we will need a stockpile. So 
long as we have nuclear weapons, we must manage them and the 
weapons complex responsibly. We must continue to look for ways 
to do things better, to stop doing things so we--make us 
irresponsible.
    Mr. Chairman, this budget provides a modest amount of 
funding--$10 million--for the RRW design. I've stated most of 
what I would want to say, and you have most of what you would 
say. The requested funds would pay for an analysis, not weapons 
production. I support completion of the study as soon as 
possible, to provide policy makers with the facts needed to 
make an informed decision regarding our nuclear deterrent, but 
I understand your position, and I have not yet decided whether 
I would challenge you with a vote on the floor. Perhaps after 
you have done it, we'll talk a little, and maybe I wouldn't do 
that. But at this point I feel rather strongly about it, and 
sorry that we could not reach agreement.
    As I said, France, Russia, the United Kingdom., and China--
I didn't say before--are all in continual process of replacing 
and updating their weapons, investing in new infrastructure, 
and facilities that will operate through the middle of the 
century--I indicated that a while ago--even as our U.S. 
stockpile continues to decrease.
    I'd like to close with a comment from the--on the NNSA 
complex, the transformation effort. I have sent formal comments 
to NNSA regarding their transformation proposal. While I will 
spare the subcommittee any full review, I believe the proposal 
misses the mark on science investment for the laboratories, and 
lack of investment in high-performance computing at Sandia 
National Laboratories. This is a capability that cannot be 
taken for granted.
    I'm extraordinarily proud of what the labs and their staff 
have done in support of the United States national security 
mission, beginning with the Manhattan Project, the cold war, 
the international threat and the reduction efforts, the 
Science-based Stockpile Stewardship Program--the labs have 
always provided answers to the toughest questions facing our 
Nation, and will continue.
    In my final year, I will push NNSA to better define its 
scientific mission, and develop a strategy for investment in 
scientific excellence. Science and engineering is the lifeblood 
of the laboratories, and serves as our best recruiting tool to 
attract world-class scientists to support our national security 
needs.
    Mr. Chairman, I appreciate your providing the laboratory 
directors this opportunity. It's a rare occasion that we would 
have all three before us, and I thank you for making it happen.
    Thank you.
    Senator Dorgan. Senator Domenici, thank you very much.
    Senator Craig has agreed to waive his opening statement, 
Senator, I appreciate that very much. A vote will start 
momentarily, and we will have to recess in about 10 minutes.
    So, what I would like to do, is ask Administrator 
D'Agostino to make his statement, and then we will see whether 
we get to questions. We'll have a brief recess and come back 
and finish the hearing.
    Administrator D'Agostino, let me say that we appreciate 
your work, we know you've assumed the reins in a very 
challenging time, we appreciate the work of Admiral Donald and 
General Smolen, and appreciate your being here. You may 
proceed.

                 STATEMENT OF HON. THOMAS P. D'AGOSTINO

    Mr. D'Agostino. Thank you, Mr. Chairman. I appreciate being 
here, Senator Domenici, Senator Craig, as well. I appreciate 
the opportunity to discuss the President's fiscal year 2009 
budget request for the NNSA and your active commitment and 
engagement in our program itself.
    We have a number of fundamental national security 
responsibilities for the United States, and I'm here to discuss 
the NNSA overall mission. I'm pleased to have with me, as 
you've noted, Deputy Administrator Admiral Kirk Donald, and 
Major General Bob Smolen for Defense Programs, and particularly 
pleased that the lab directors are here. As you know, it's been 
many years since they've had an opportunity to testify, and I 
think having the lab directors--provide them an opportunity to 
talk about something so important as our stockpile, is an 
opportunity that Members of Congress ought to get firsthand. 
So, I appreciate, sir, you calling them here.
    NNSA is examining how to proceed, which addresses evolving 
national security needs in a manner that anticipates 
significant changes in the future, in how we manage our 
national security programs, our physical assets, and our 
people. The fiscal year 2009 request will go a long way towards 
making significant progress in many areas of focus, including 
those that we have embarked upon already in 2008.
    We anticipate that our request of $9.1 billion will enable 
us to accomplish the following: First, begin the process of 
changing from a cold war nuclear weapons complex, to a 21st 
century national security enterprise, which includes shrinking 
the size of the nuclear weapons complex, and consolidating 
special nuclear materials at fewer sites, increasing funding 
for critical facilities that are needed to support a nuclear 
deterrent, including funding for a chemistry and metallurgy 
research replacement facility, increasing funding for cyber-
security by 22 percent over the amount provided in 2008, 
improving cost savings associated with supply chain 
management--building upon the already $5 million of savings 
we've documented in 2007, we anticipate having those savings 
multiply to about $30 million in 2008, and envision taking cost 
savings even further in 2009.
    Second, this program will further advance nuclear non-
proliferation and radiological terrorism and activities to 
counter nuclear terrorism, including continuing our planned 
increases in budget requests for non-proliferation activities, 
which build upon the doubling of spending for these efforts, 
since September 11, 2001; increased funding for nuclear 
counterterrorism activities by 40 percent over the amount 
provided in 2008; increasing spending by 14 percent to secure 
highly-enriched uranium and other radiological materials, as 
part of a global threat reduction initiative; and, continue and 
completing activities under Bratislava Agreement with the 
Government of Russia.
    Third, this program will secure and maintain an aging 
stockpile, including continuing our defense programs ``Getting 
the Job Done'' initiative, by staying focused on deliverables 
to the Defense Department; increasing the number of weapons 
dismantlements by 26 percent over the number of dismantlements 
in 2007; and, addressing current and anticipated challenges 
associated with certifying the stockpile, without requiring 
underground testing.
    Fourth, ensuring the safety and reliability of the 103 
operating naval nuclear propulsion plants, and continuing 
development work on nuclear propulsion technology to support 
required capabilities, as well as meeting future threats to 
U.S. security.
    And finally, expanding our technical excellence, while 
developing the next generation of national security scientific 
and engineering talent. This effort is especially important to 
our weapons laboratories, and will require us to make important 
decisions to invest in certain programs and capabilities, and 
ensure our labs are run efficiently.
    We seek to reduce the overall size of the nuclear weapons 
complex, and we believe it will allow for an increased focus in 
the areas of non-proliferation, nuclear counterterrorism, 
nuclear forensics, and support to the intelligence community.
    Before concluding and taking your questions, I want to 
briefly mention a few items. As you know, nuclear weapons 
remain a cornerstone of our Nation's strategic defense posture, 
even as we continue to reduce the size of the stockpile. I'm 
pleased to acknowledge that, a few weeks ago, the Defense 
Department and Department of Energy submitted to Congress a 
classified white paper on the future of the nuclear weapons 
stockpile. While our current stockpile remains safe, secure and 
reliable, the supporting infrastructure has aged, with many of 
our facilities well over 50 years old. Maintaining the current 
infrastructure is not an option--it is too old, it is too 
expensive, it is too big, and it does not address all of our 
national security needs. Addressing these issues is possible, 
and can be accomplished with relatively flat budgets over the 
next 10 to 15 years.
    In addition, this administration is driven by the Defense 
Department and the combatant commanders belief that the effort 
to study replacement concepts is important to the long-term 
assurance of the stockpile. We believe this is a key ingredient 
towards reducing the size of the stockpile beyond already the 
50 percent reduction we have accomplished since 2001, and the 
further 15 percent reduction ordered by the President, 
President Bush, in December of last year.
    Finally, our ability to effectively dispose of plutonium 
metals and materials coming out of our increased dismantling 
programs, and our work to consolidate materials, is critical to 
the effort to reduce the worldwide nuclear danger. This is 
viewed by the administration as a critical national security 
non-proliferation program. Just as the global threat reduction 
program seeks to repatriate secure, highly-enriched uranium 
from around the world and convert that material into beneficial 
energy use, so does the plutonium disposition program seek to 
eliminate excess plutonium with the added benefit of energy 
production.
    We're working to comply with the direction given in the 
Fiscal Year 2008 Consolidated Appropriations Act, while 
preserving our vital national security mission focus.

                           PREPARED STATEMENT

    Thank you, Mr. Chairman, I look forward to working with you 
and members of the committee on these programs, and answering 
your questions.
    [The statement follows:]

            Prepared Statement of Hon. Thomas P. D'Agostino

    Thank you for the opportunity to discuss the President's fiscal 
year 2009 Budget Request for the National Nuclear Security 
Administration (NNSA). I want to thank all of the members for their 
strong support for our vital national security missions.
    In the 8th year of this administration, with the support of 
Congress, NNSA has achieved a level of stability that is required for 
accomplishing our long-term missions. Our fundamental national security 
responsibilities for the United States include:
  --assuring the safety, security and reliability of the U.S. nuclear 
        weapons stockpile while at the same time considering options 
        for transforming the stockpile and the complex infrastructure 
        that supports it;
  --reducing the threat posed by proliferation of nuclear weapons, 
        material and expertise; and
  --providing reliable and safe nuclear reactor propulsion systems for 
        the U.S. Navy.
    NNSA is examining how to proceed into the future to address 
evolving national security needs in a manner that anticipates 
significant changes in how we manage our national security programs, 
our assets and our people. To that end, the fiscal year 2009 budget 
request for $9.1 billion, a decrease of $35 million from the fiscal 
year 2008 Consolidated Appropriations Act, supports NNSA's crucial 
national security mission.
    The fiscal year 2009 request will go a long way toward making 
significant progress in many areas of focus, including those that we 
have embarked upon in fiscal year 2008. NNSA anticipates that this 
request will enable the accomplishment of the following results:
  --moving from a nuclear weapons complex to an integrated national 
        security enterprise, including:
    --making decisions regarding transformation of the nuclear weapons 
            complex based on the analyses in the Complex Transformation 
            Supplemental Programmatic Environmental Impact Statement 
            this year;
    --shrinking the size of the nuclear weapons complex and 
            consolidating special nuclear material at fewer sites;
    --increasing funding for critical facilities, including an increase 
            in funding for the preliminary design of the Uranium 
            Processing Facility and Chemistry and Metallurgy Research 
            Replacement facility over the amount provided in fiscal 
            year 2007;
    --increasing funding for cyber security by 22 percent over the 
            amount provided in fiscal year 2007; and
    --improving cost-savings associated with supply chain management, 
            building upon nearly $5 million in savings in fiscal year 
            2007.
  --advancing nuclear nonproliferation and countering nuclear and 
        radiological terrorism, including:
    --increasing the amount of funds provided directly to NNSA 
            nonproliferation activities by 7 percent over the funding 
            amount provided in fiscal year 2007 (not including the 
            Mixed Oxide (MOX) Fuel Fabrication Facility);
    --increasing funding provided to nuclear counter terrorism 
            activities by 40 percent over the amount provided in fiscal 
            year 2007;
    --increasing the rate at which Highly Enriched Uranium and other 
            radiological and source materials are secured as part of 
            the Global Threat Reduction Initiative (GTRI) program by 14 
            percent; and
    --and continuing and completing activities under the Bratislava 
            agreement with the Government of Russia.
  --securing and maintaining an aging stockpile, including:
    --continuing our Defense Program's ``Getting the Job Done'' 
            initiative by staying focused on delivering products to 
            Department of Defense in a timely and cost-efficient 
            manner;
    --increasing the number of weapon dismantlements by 26 percent over 
            the number of weapons dismantled in fiscal year 2007; and
    --addressing current and anticipated challenges associated with 
            certifying the stockpile without requiring underground 
            testing.
  ----expanding our technical excellence while developing the next 
        generation of national security scientific, engineering and 
        program management talent, including:
    --developing an expanded vision of the future role of our national 
            laboratories in supporting NNSA's national security 
            mission; and
    ----expanding NNSA's efforts in nuclear nonproliferation, 
            counterterrorism, forensics, and support to the 
            intelligence community.
    Our testimony today will focus on the Weapons Activities, Naval 
Reactors, and Office of the Administrator accounts.

                      WEAPONS ACTIVITIES OVERVIEW

    Nuclear weapons remain a cornerstone of our Nation's strategic 
defense posture and will likely remain so throughout this century, even 
as we continue to reduce the size of our stockpile. Our nuclear 
deterrent stockpile remains safe, secure and reliable. The supporting 
infrastructure, however, is aged--many of our critical facilities are 
over 50 years old. Stockpile Stewardship is working and has been 
successful to date at finding and remedying the technical challenges 
facing our aging stockpile. Additionally, we continue to reduce the 
size of the stockpile to meet the President's mandate to have the 
smallest nuclear stockpile consistent with our national security 
objectives. As a result, today the stockpile is half of what it was in 
2001, and by 2012, the United States will have the smallest stockpile 
since the 1950s. Additional reductions in the stockpile are possible, 
but these reductions will require changes to the weapons complex and 
the composition of the stockpile.
    Our national security enterprise is a national asset and our 
weapons laboratories remain unrivaled as the pinnacle of American 
scientific, engineering and technical expertise. Development and 
maintenance of our nuclear deterrent force has made possible American 
leadership in nuclear nonproliferation, nuclear counterterrorism, 
advanced computing, and high-energy density physics. None of these 
programs would be possible at its current level without technical 
advances made by the weapons program. As we continue transforming the 
infrastructure and maintaining our nuclear deterrent force into the 
21st century, our goal is to do so without jeopardizing the 
advancements in other vital NNSA national security programs made 
possible by our investment in weapon activities.
    Let there be no doubt: today's nuclear weapons stockpile is safe, 
secure and reliable and has not required post-deployment nuclear 
testing to date, nor is nuclear testing anticipated or planned. 
However, while today's stockpile remains safe, secure and reliable, the 
weapons laboratories, the Department of Defense and the NNSA are 
concerned about our future ability to maintain the stockpile in the 
future. The Stockpile Stewardship Program has worked well, so far, to 
discover and resolve problems that in the past would have required 
nuclear testing. However, the collective judgment of the Directors of 
our national weapons laboratories is that maintaining certification of 
the finely-tuned designs of the aging cold war stockpile through Life 
Extension Programs (LEPs) only, absent nuclear testing, necessarily 
entails increasing risk overtime. Although recent studies have placed 
the life of our plutonium pits at 85 to 100 years, other exotic 
materials used in our warheads degrade at different rates and many of 
their aging properties are still not well understood. The metallurgical 
and chemical issues we face with our aging warheads continue to be a 
technical challenge for our best scientists and the risk of 
catastrophic technical failure occurring as our warheads age cannot be 
ruled out absolutely. The one certainty we do know is that warhead 
certification in the absence of testing will become more difficult, 
especially as life extensions and component aging move the warhead 
further away from originally-tested designs.
    After 9/11 we realized that the security threat to our nuclear 
warheads had fundamentally changed. The security features in today's 
stockpile are commensurate with technologies that were available during 
the cold war and designed for with the threats anticipated at that 
time. Major enhancements in security are not easily available via 
retrofits in the life extension programs.
    To understand the challenges facing our stockpile, an analogy is in 
order. Today's Mustang remains a high-performance automobile, has about 
the same dimensions and weighs only a few hundred pounds more than the 
first Mustangs, and has all the modern safety and security features we 
expect today--air bags, anti-lock brakes, GPS navigation, satellite 
radio, theft deterrent and alarm systems. The 1965 version had none of 
these features, not even seat belts! We deploy warheads today that have 
1970-1980's safety, security and anti-terrorism features. It does not 
mean that these warheads are not safe and secure, but we can do better 
and we should do better. Based on our initial assessments, I believe 
that the reliable replacement warhead concepts provide opportunities to 
incorporate the latest technological advances for precluding 
unauthorized use in a post-9/11 threat environment.
    To address these challenges, the administration has proposed two 
efforts to maintain the viability of the deterrent well into the 21st 
century. The first of these is Complex Transformation. Our goal is to 
transform the large, costly and inefficient cold war nuclear weapons 
complex that cannot meet the full production requirements of our 
customer into an integrated, modern and cost effective nuclear security 
enterprise. Complex Transformation involves more than just transforming 
an aging physical infrastructure; it seeks to transform our contracting 
and procurement processes and overall management of the enterprise to 
embrace the best in business and human capital practices. Complex 
Transformation also must be accomplished in a way that continues to 
leverage our core competencies in nuclear weapons design and 
maintenance to advance the Nation's leadership in counterterrorism, 
nonproliferation, physical and cyber security, and to support the 
intelligence community. Our Complex Transformation strategy relies on 
four pillars:
  --Transform the nuclear stockpile through the Stockpile Stewardship 
        Program in partnership with the Department of Defense;
  --Transform to a modernized, cost-effective nuclear weapons complex 
        to support needed capabilities in our physical infrastructure;
  --Create an integrated, interdependent enterprise that employs best 
        business practices to maximize efficiency and minimize costs; 
        and
  --Advance the science and technology base that is the cornerstone of 
        our nuclear deterrent forces and remains essential for long-
        term national security.
    Infrastructure transformation is a major part of Complex 
Transformation. Some major facilities date back to the Manhattan 
Project and cannot cost effectively meet today's safety and security 
requirements. In other cases, new facilities are needed to restore 
capabilities that have been put in standby since the end of the cold 
war but may be needed to support future life extension programs. With 
the support of Congress, we produced tritium in 2007 for the first time 
in 18 years and the Tritium Extraction Facility (TEF) at Savannah River 
is now on-line. Similarly, construction of the Highly Enriched Uranium 
Materials Facility (HEUMF) at the Y-12 National Security Complex in Oak 
Ridge will allow us to consolidate uranium storage and improve security 
with a significantly-reduced security footprint. And at Los Alamos 
National Laboratory, the Chemistry and Metallurgy Research Replacement 
(CMRR) project will allow us to continue the plutonium pit surveillance 
and actinide research vital to maintaining the stockpile and the 
Nation's nuclear deterrent. These three projects are representative of 
a Complex Transformation that has already commenced.
    Our plan for Complex Transformation, detailed in the draft 
Supplemental Programmatic Environmental Impact Statement (SPEIS), seeks 
to consolidate special nuclear material at fewer sites and locations 
within the nuclear weapons complex, close or transfer hundreds of 
buildings that are no longer required for the NNSA mission, and reduce 
NNSA's overall footprint by as much as a third over the next 10 years. 
By eliminating multi-site redundancies and consolidating both missions 
and capabilities at our sites, we expect to dramatically improve our 
efficiency and cost effectiveness.
    The second effort we believe is necessary to maintain the viability 
of the nuclear deterrent well into the 21st century involves continued 
study of reliable replacement concepts. We believe continued work on 
these concepts is necessary in order to allow the next administration 
and Congress to make informed decisions regarding the future 
composition of the stockpile. Continued study of reliable replacement 
concepts has been identified by U.S. Strategic Command, the Navy and 
the Air Force as essential to long-term maintenance of an effective 
nuclear deterrent force. These concepts, coupled with a responsive 
nuclear infrastructure, offers promise for further reductions in 
reserve warheads maintained as a hedge against technical failure. These 
concepts are specifically envisioned to address long term reliability 
issues that can affect our existing stockpile resulting from component 
aging, and refurbishment of aging components, that move us further from 
the original designs validated by underground nuclear testing. In 
short, we believe these concepts could provide a means to mitigate the 
technical risks inherent in a life extension-only approach. Moreover, 
reliable replacement concepts would not add new military capabilities 
to the stockpile, and would introduce safety, surety and antiterrorism 
features that cannot easily be retrofitted into the current stockpile.
    In our efforts to advance Complex Transformation and examine the 
potential promise of reliable replacement concepts, we have not lost 
focus on meeting our day-to-day commitments to the Department of 
Defense (DOD). Last year, we reconstituted a limited plutonium pit 
manufacturing capability and produced new pits for the W88 warhead, and 
maintained on-time delivery of the LEP B61 weapons to the Air Force. In 
fiscal year 2008, the Department will continue to manufacture W88 pits, 
maintain a limited pit manufacturing capability of six pits per year.
    Meeting the needs of DOD, maintaining the safety, security and 
reliability of the stockpile, and commencing Complex Transformation 
would not be possible without the support of our dedicated Federal and 
contractor workforce of 37,000 employees. Retaining our current 
workforce and attracting the next generation of national security 
scientific and engineering talent is challenging because the number of 
qualified university graduates continues to decrease each year.
    The scientific capabilities and infrastructure developed for the 
nuclear weapons mission are utilized by DOD, the Department of Homeland 
Security, and the intelligence community, are recognized as essential 
to fulfilling their responsibilities. NNSA laboratories have been 
participating jointly with other Government agencies in addressing a 
wide range of national security challenges--all of which leverage the 
core mission of nuclear weapons development and sustainability. Recent 
examples include:
  --Supporting war fighter needs in Iraq with improvised explosive 
        device (IED) modeling and analysis;
  --Supporting DOD and the Federal Bureau of Investigation in nuclear 
        weapons emergency render-safe and post-event technical 
        forensics;
  --Providing solutions to the intelligence community in their nuclear 
        counterterrorism and nonproliferation efforts by drawing upon 
        our nuclear weapons expertise;
  --Developing and deploying integrated systems for countering 
        aerosolized bioterrorist releases and bio-decontamination 
        technologies; and
  --Developing and deploying portal detector technology to prevent 
        smuggling of special nuclear material.
    Basic research at our national security laboratories has provided 
technology for airborne detection of toxic chemicals, critical 
infrastructure modeling for disaster response, and modeling of response 
strategies for potential influenza pandemics.
    It is important to recognize that certain major capabilities are 
needed at each of our national security laboratories if they are to 
continue to effectively contribute to national security. By leveraging 
the science that gave us the atomic bomb that helped win World War II 
and the technical innovations that helped win the cold war, today's 
national security labs are tackling tomorrow's national security 
challenges. Maintaining a core scientific and technical base at our 
labs will continue to attract outstanding talent to meet our future 
national security challenges.
    Weapons Activities also provides tangible support to nuclear 
nonproliferation objectives. A major priority within Defense Programs 
has been weapons dismantlement. The United States remains committed to 
its obligations under the Nuclear Nonproliferation Treaty (NPT). In 
2004, the President directed a 50 percent reduction in the size of the 
stockpile, and, in December 2007, he ordered an additional 15 percent 
cut. The result will be a nuclear stockpile one quarter the size it was 
at the end of the cold war and the smallest since the Eisenhower 
administration. During fiscal year 2007, DOE achieved a 146 percent 
increase in the rate of nuclear weapon dismantlement over the fiscal 
year 2006 rate, almost tripling our goal of a 49 percent rate increase.

                        NAVAL REACTORS OVERVIEW

    Also contributing to the Department's national security mission is 
the Naval Reactors Program, whose mission is to provide the U.S. Navy 
with safe, militarily effective nuclear propulsion plants and ensure 
their continued safe, reliable and long-lived operation. Nuclear 
propulsion enhances our warship capabilities by providing the ability 
to sprint where needed and arrive on station, ready to conduct 
sustained combat operations when America's interests are threatened. 
Nuclear propulsion plays a vital role in ensuring the Navy's forward 
presence and its ability to project power anywhere in the world.
    The Naval Reactors Program has a broad mandate, maintaining 
responsibility for nuclear propulsion from cradle to grave. Over 40 
percent of the Navy's major combatants are nuclear-powered, including 
aircraft carriers, attack submarines, guided missile submarines, and 
strategic submarines, which provide the Nation's most survivable 
deterrent force.

          FISCAL YEAR 2009 BUDGET REQUEST PROGRAMMATIC DETAIL

    The President's fiscal year 2009 budget request for NNSA totals 
$9.1 billion, a decrease of $35.0 million or 0.4 percent less than the 
fiscal year 2008 consolidated appropriations level. We are managing our 
program activities within a disciplined 5-year budget and planning 
envelope, and are successfully balancing the administration's high 
priority initiatives to reduce global nuclear danger as well as future 
planning for the Nation's nuclear weapons complex within an overall 
modest growth rate.
    The NNSA budget justification contains information for 5 years as 
required by section 3253 of Public Law 106-065, the National Defense 
Authorization Act for Fiscal Year 2000. This section, entitled Future-
Years Nuclear Security Program, requires the Administrator to submit to 
Congress each year the estimated expenditures necessary to support the 
programs, projects and activities of the NNSA for a 5-year fiscal 
period, in a level of detail comparable to that contained in the 
budget.
    The fiscal year 2009-2013 Future Years Nuclear Security Program--
FYNSP--projects $47.7 billion for NNSA programs though 2013. This is a 
decrease of about $2.3 billion over last year's projections. The fiscal 
year 2009 request is slightly smaller than last year's projection; 
however, the out-years increase starting in fiscal year 2010.

Weapons Activities
            Defense Programs
    The fiscal year 2009 budget request for the programs funded within 
the Weapons Activities Appropriation is $6.62 billion, an approximately 
5.1 percent increase over the fiscal year 2008 Consolidated 
Appropriations level. It is allocated to adequately provide for the 
safety, security, and reliability of the nuclear weapons stockpile and 
supporting facilities and capabilities.
    Directed Stockpile Work (DSW) activities ensure the operational 
readiness of the nuclear weapons in the Nation's stockpile through 
maintenance, evaluation, refurbishment, reliability assessment, weapon 
dismantlement and disposal, research, development, and certification 
activities. The fiscal year 2009 request is organized by Life Extension 
Programs, Stockpile Systems, Reliable Replacement Warhead, Weapons 
Dismantlement and Disposition, and Stockpile Services. The request 
places a high priority on accomplishing the near-term workload and 
supporting technologies for the stockpile along with longterm science 
and technology investments to ensure the capability and capacity to 
support ongoing missions.
    The fiscal year 2008 Consolidated Appropriations Act did not 
contain funding for the Reliable Replacement Warhead (RRW). The 
administration believes that the characteristic features of the RRW are 
the right ones for ensuring the future of our Nation's nuclear 
deterrent force. The fiscal year 2009 request includes $10 million to 
continue the design definition and cost study. The request also 
continues efforts called out in the Explanatory Statement referenced in 
section 4 of Public Law 110-161 to address issues raised in the recent 
JASON's summer study of the feasibility of certifying RRW designs 
without nuclear testing.
    Campaigns are focused on scientific and technical efforts essential 
for the certification, maintenance and life extension of the stockpile. 
The Stockpile Stewardship Program has allowed NNSA to maintain the 
moratorium on underground testing and move to ``science-based'' 
certification and assessments for stewardship by relying on 
experiments, modeling, simulation, surveillance and historical 
underground nuclear testing experience. The Science and Engineering 
Campaigns are focused to provide the basic scientific understanding and 
the technologies required for the directed stockpile workload and the 
completion of new scientific and experimental facilities. In the 
Inertial Confinement Fusion Ignition and High Yield Campaign, the 
National Ignition Facility (NIF) will focus on completing the first 
experiment on NIF with a credible chance of demonstrating laboratory-
scale ignition in 2010. The Advanced Simulation and Computing Campaign 
will continue to improve capabilities through development of faster 
computational platforms in partnership with private industry, and with 
state of the art techniques for calculations, modeling and simulation, 
and analysis of highly complex weapons physics information. The 
Readiness Campaign consists of technology-based efforts to reestablish 
and enhance manufacturing and other capabilities needed to meet planned 
weapon component production.
    The fiscal year 2009 request makes several changes in the location 
of programs within Weapons Activities. The Pit Manufacturing and 
Certification Campaign recently concluded with the successful 
manufacturing and certification of the W88 pit. Pit manufacturing 
related activities are moved to the Direct Stockpile Work Stockpile 
Services program and pit certification activities are transferred to 
the Science Campaign. In addition, in the Science Campaign, the 
Advanced Certification program will continue efforts begun in fiscal 
year 2008 at the direction of the Congress to review, evaluate and 
implement key recommendations from the JASON's RRW study regarding 
approaches to establishing an accredited warhead certification plan 
without nuclear testing. Work being performed to understand potential 
improvised nuclear device designs and responses is being transferred to 
the nuclear weapons incident response account.
            Secure Transportation Asset
    The Secure Transportation Asset's fiscal year 2009 budget request 
is an increase of $9.5 million to $221.1 million. This funding request 
supports the increase to transportation capacity necessary for the 
dismantlement of nuclear weapons, departmental initiatives to 
consolidate and disposition nuclear material, and the implementation of 
the current operational doctrine to protect nuclear weapons and 
material in transport.
            Readiness in Technical Base and Facilities (RTBF) and 
                    Facilities and Infrastructure Recapitalization 
                    Program (FIRP)
    In fiscal year 2009, we are requesting $1.89 billion for the 
maintenance and operation of existing facilities, remediation and 
disposition of excess facilities, and construction of new facilities. 
Of this amount, $1.72 billion is requested for RTBF, an increase of 
$83.1 million from fiscal year 2008 operating levels, with $1.41 
billion reserved for Operations and Maintenance. The Operations and 
Maintenance portion also includes the Institutional Site Support 
program which supports facility transition and capability 
consolidation. The request includes $308.0 million for RTBF 
Construction.
    This request also includes $169.5 million for the Facilities and 
Infrastructure Recapitalization Program (FIRP), a separate and distinct 
program that is complementary to the ongoing RTBF efforts. The FIRP 
mission, which we expect to be completed in fiscal year 2013, is to 
restore, rebuild and revitalize the physical infrastructure of the 
nuclear weapons complex, in partnership with RTBF. This program assures 
that facilities and infrastructure are restored to an appropriate 
condition to support the mission, and to institutionalize responsible 
and accountable facility management practices. The Integrated 
Prioritized Project List (IPPL) is the vehicle that FIRP will rely on 
to prioritize and fund out-year projects to reduce legacy deferred 
maintenance. These projects significantly reduce the deferred 
maintenance backlog to acceptable levels and support the Stockpile 
Stewardship mission and transformation of the complex.
    This request also includes $77.4 million for the newly established 
Transformation Disposition (TD) Program. TD is NNSA's facility and 
infrastructure (F&I) retirement program for old, cold war-era 
structures. The NNSA owns over 35 million gross square feet of 
footprint and over 25 percent of the footprint may become excess as a 
result of complex transformation. TD is established with the goal of 
reducing non-process and contaminated excess F&I. This includes 
facilities that are excess to current and future NNSA mission 
requirements, including those contaminated structures which are not 
currently the responsibility of the Office of Environmental Management. 
This program supports the performance measure of reducing the total 
square feet, improves management of the NNSA facilities and 
infrastructure portfolio, and reduces long-term costs and risks. The TD 
Program will set the groundwork for a smaller complex.
    All of these activities are critical for the development of a more 
responsive infrastructure and will be guided by decisions based on the 
Complex Transformation Supplemental Programmatic Environmental Impact 
Statement (SPEIS) and other factors such as funding and national 
security requirements. Since a significant fraction of our production 
capability resides in World War II era facilities, infrastructure 
modernization, consolidation, and sizing consistent with future needs 
is essential for an economically sustainable Complex. Facilities 
designed according to modern manufacturing, safety, and security 
principles will be more cost-effective and responsive to future 
requirements. For example, a facility could be designed to support a 
low baseline capacity and preserve the option, with a limited amount of 
contingency space to augment capacity, if authorized and needed, to 
respond to future needs.
    Having a reliable plutonium capability is a major objective of NNSA 
planning and is a key requirement if the Nation is to maintain an 
effective deterrent, regardless of the composition of the stockpile. 
Options for plutonium research, surveillance, and pit production are 
being evaluated as part of the Complex Transformation NEPA process, 
with a decision anticipated in 2008. The preferred alternative in the 
draft Complex Transformation SPEIS proposes that Los Alamos National 
Laboratory facilities at Technical Area 55 (TA-55) provide plutonium 
research, surveillance and pit production capabilities. This 
alternative includes the proposed Chemistry and Metallurgy Research 
Replacement--Nuclear Facility (CMRR-NF) to achieve the objectives of 
(1) closing the aging existing Chemistry and Metallurgy Research (CMR) 
facility, (2) replacing essential plutonium surveillance and research 
capabilities currently at Lawrence Livermore National Laboratory and 
those being conducted in Plutonium Facility 4 (PF-4) in TA-55, and (3) 
achieving a net manufacturing capacity of 50-80 pits per year by 
allowing surveillance activities now occurring in PF-4 to be conducted 
in CMRR.
    Completion of the Highly Enriched Uranium Materials Facility 
(HEUMF) would allow a reduction of the overall size of the high 
security area at the Y-12 National Security Complex. If NNSA ultimately 
decides to build a Uranium Processing Facility (UPF) at Y-12, then Y-
12's high security area would be reduced from 150 acres to 15 acres. 
This reduction combined with the engineered security features of the 
HEUMF and UPF, would allow NNSA to meet the Design Basis Threat (DBT) 
at significantly reduced costs, to lower non-security costs, and to 
provide a responsive highly enriched uranium manufacturing capability.
            Environmental Projects and Operations
    The Environmental Projects and Operations/Long-Term Stewardship 
Program is requested at $40.6 million in fiscal year 2009. This program 
serves to reduce the risks to human health and the environment at NNSA 
sites and adjacent areas by: operating and maintaining environmental 
clean-up systems; performing long-term environmental monitoring 
activities; and integrating a responsible environmental stewardship 
program with the NNSA mission activities. The increase in this program 
is necessary to continue compliance with statutory requirements and to 
provide Long-Term Stewardship activities for two additional NNSA sites.
            Nuclear Weapons Incident Response
    The Nuclear Weapons Incident Response (NWIR) Program serves as the 
United States' primary capability for responding to and mitigating 
nuclear and radiological incidents worldwide. The fiscal year 2009 
request for these activities is $221.9 million, of which $31.7 million 
is dedicated to the continued implementation of two national security 
initiatives that will strengthen the Nation's emergency response 
capabilities--the National Technical Nuclear Forensics (NTNF) and the 
Stabilization Implementation programs.
    The NTNF program will continue the development of capabilities to 
support pre- and post-detonation activities and enhance technical 
nuclear forensics capabilities. The continued development of this 
capability will facilitate the thorough analysis and characterization 
of pre- and post-detonation radiological and nuclear materials and 
devices, including devices used in nuclear detonations as well as 
interdicted devices. Developing forensic capabilities of this nature is 
crucial to the overall objective of identifying the origin and pathways 
of interdicted nuclear materials, warheads and improvised nuclear 
devices.
    Stabilization is a capability aimed at using advanced technologies 
to enhance the U.S. Government's ability to interdict, delay and/or 
prevent operation of a terrorist's radiological or nuclear device until 
national assets arrive on the scene to conduct traditional ``render 
safe'' procedures. NNSA has actively sponsored new research in this 
area and, additionally, continues to leverage emerging technologies 
that have been demonstrated successfully by the DOD in support of the 
global war on terrorism. In the implementation phase, NNSA will 
transfer these matured projects into operational testing to selected 
teams across the country, potentially followed by their transition into 
the collection of tools available to Federal response teams.
            Physical and Cyber Security
    The fiscal year 2009 budget request for Defense Nuclear Security is 
$737.3 million, a 7.7 percent decrease from the fiscal year 2008 
appropriation. The fiscal year 2009 request supports the base program 
and the program's focus on sustaining the NNSA sites 2003 Design Basis 
Threat baseline operations and implementing the 2005 DBT Policy 
upgrades with the Nevada Test Site reaching compliance in fiscal year 
2009. Starting in fiscal year 2009, there is no longer an offset in 
this account or in the departmental administration account for the 
security charges associated with reimbursable work. These activities 
will be fully funded by the programs with direct appropriations.
    During fiscal year 2009, the program will focus on eliminating or 
mitigating identified vulnerabilities across the weapons complex. 
Measures will include additional protective force training, acquiring 
updated weapons and support equipment, improving physical barrier 
systems and standoff distances, and reducing the number of locations 
with ``targets of interest.'' Physical security systems will be 
upgraded and deployed to enhance detection and assessment, add delay 
and denial capabilities, and to improve perimeter defenses at several 
key sites. There are no new construction starts.
    The fiscal year 2009 budget request for Cyber Security is $122.5 
million, an 11 percent increase from the fiscal year 2008 
appropriation. The fiscal year 2009 budget request is focused on 
sustaining the NNSA infrastructure and upgrading elements designed to 
counter cyber threats and vulnerabilities from external and internal 
attacks. This funding level will support cyber security revitalization, 
enhancements in assets and configuration management, and identify 
emerging issues, including research needs related to computer security, 
privacy, and cryptography.
    Additionally, the Cyber Security funding will provide for 
enhancement, certification, and accreditation of unclassified and 
classified computer systems to ensure the proper documentation of risks 
and justification of associated operations for systems at all sites. 
The funding within this request will also be applied to foster greater 
cyber security awareness among Federal and contractor personnel. NNSA 
will sponsor a wide range of educational initiatives to ensure that our 
workforce possesses the ever-expanding cyber security skills critical 
to safeguarding our national security information. Funding provided to 
NNSA sites will be conditioned upon their implementation of a risk-
based approach to cyber security management and policy.
Naval Reactors
    The Naval Reactors fiscal year 2009 budget request of $828 million 
is an increase of $20 million from the fiscal year 2008 request. Naval 
Reactor's development work ensures that nuclear propulsion technology 
provides options for maintaining and upgrading current capabilities, as 
well as for meeting future threats to U.S. security.
    The majority of funding supports Naval Reactor's number-one 
priority of ensuring the safety and reliability of the 102 operating 
naval nuclear propulsion plants. This work involves continual testing, 
analysis, and monitoring of plant and core performance, which becomes 
more critical as the reactor plants age. The nature of this business 
demands a careful, measured approach to developing and verifying 
nuclear technology, designing needed components, systems, and 
processes, and implementing them in existing and future plant designs. 
Most of this work is accomplished at Naval Reactors' DOE laboratories. 
These laboratories have made significant advancements in extending core 
lifetime, developing robust materials and components, and creating an 
array of predictive capabilities.
    Long-term program goals have been to increase core energy, to 
achieve life-of-the-ship cores, and to eliminate the need to refuel 
nuclear-powered ships. Efforts associated with this objective have 
resulted in planned core lives that are sufficient for the 30-plus year 
submarine (based on past usage rates) and an extended core life planned 
for CVN 21 (the next generation aircraft carrier). The need for nuclear 
propulsion will only increase over time as the uncertainty of fossil 
fuel cost and availability grows.
    Naval Reactors' Operations and Maintenance budget request is 
categorized into six areas: Reactor Technology and Analysis; Plant 
Technology; Materials Development and Verification; Evaluation and 
Servicing; Advanced Test Reactor (ATR) Operations and Test Support; and 
Facility Operations.
    The $204 million requested for Reactor Technology and Analysis will 
support work that ensures the operational safety and reliability of 
reactor plants in U.S. warships and extends the operational life of 
Navy nuclear propulsion plants. This work includes continued 
development of the Reactor System Protection Analysis for the next 
generation aircraft carrier, CVN 21. These efforts also support 
continued work on core design concepts for submarines.
    The increasing average age of our Navy's existing reactor plants, 
along with future extended service lives, a higher pace of operation 
and reduced maintenance periods, place a greater emphasis on our work 
in thermal-hydraulics, structural mechanics, fluid mechanics, and 
vibration analysis. These factors, along with longer-life cores, mean 
that for years to come, these reactors will be operating beyond our 
previously-proven experience base.
    The $104 million requested for Plant Technology provides funding to 
develop, test, and analyze components and systems that transfer, 
convert, control, and measure reactor power in a ship's power plant. 
Naval Reactors is developing components to address known limitations 
and to improve reliability of instrumentation and power distribution 
equipment to replace aging, technologically obsolete equipment. 
Development and application of new analytical methods, predictive 
tests, and design tools are required to identify potential concerns 
before they become actual problems. This enables preemptive actions to 
ensure the continued safe operation of reactor plants and the 
minimization of maintenance costs over the life of the ship. Additional 
technology development in the areas of chemistry, energy conversion, 
instrumentation and control, plant arrangement, and component design 
will continue to support the Navy's operational requirements.
    The $106 million requested for Materials Development and 
Verification supports material analyses and testing to provide the 
high-performance materials necessary to ensure that naval nuclear 
propulsion plants meet Navy goals for extended warship operation and 
greater power capability. These funds support the test assemblies for 
use in ATR, post irradiation examination of the materials tested at 
ATR, and destructive and non-destructive examinations of spent navy 
nuclear fuel and reactor component materials.
    The $264 million requested for Evaluation and Servicing sustains 
the operation, maintenance, and servicing of Naval Reactors' operating 
prototype reactor plants. Reactor core and reactor plant materials, 
components, and systems in these plants provide important research and 
development data and experience under actual operating conditions. 
These data aid in predicting and subsequently preventing problems that 
could develop in fleet reactors. With proper maintenance, upgrades, and 
servicing, the two prototype plants will continue to meet testing needs 
for at least the next decade.
    Evaluation and Servicing funds also support the implementation of 
the dry spent fuel storage production lines that will put naval spent 
fuel currently stored in water pools at the Idaho Nuclear Technology 
and Engineering Center (INTEC) on the Idaho National Laboratory (INL) 
and at the Expended Core Facility (ECF) on the Naval Reactors facility 
in Idaho into dry storage. Additionally, these funds support ongoing 
decontamination and decommissioning of inactive nuclear facilities at 
all Naval Reactors sites to address their ``cradle to grave'' 
stewardship responsibility for these legacies and minimize the 
potential for any environmental releases.
    The $60 million requested for Advanced Test Reactor Operations and 
Test Support sustains the ongoing activities of the INL ATR facility, 
owned and operated by the Office of Nuclear Energy (NE), Science and 
Technology.
    In addition to the budget request for the important technical work 
discussed above, facilities funding is required for continued support 
of Naval Reactor's operations and infrastructure. The $32 million 
requested for facilities operations will maintain and modernize the 
program's facilities, including the Bettis and Knolls laboratories as 
well as ECF and Kesselring Site Operations (KSO), through capital 
equipment purchases and general plant projects.
    The $22 million requested for construction funds will be used to 
support the project engineering and design of KAPL infrastructure 
upgrades and ECF M290 receiving and discharge station, to support the 
design and construction of production support complex at NRF, and to 
support the construction of a materials research technology complex.
Office of the Administrator
    This account provides for all Federal NNSA staff in Headquarters 
and field locations except those supporting Naval Reactors and the 
Office of Secure Transportation couriers. The fiscal year 2009 budget 
request is $404.1 million, essentially level with the fiscal year 2008 
appropriation reflecting a leveling of staffing growth.
    This budget request is consistent with the funding needed for 
personnel support in an account that is comprised of over 70 percent 
salaries and benefits. Staffing is projected to increase by 95 to a 
total of 1,942 FTE in fiscal year 2009, in support of new hires brought 
on-board at the end of fiscal year 2008 and beginning of fiscal year 
2009 to meet increased requirements in Defense Nuclear Nonproliferation 
and Emergency Operations program goals as well as address NNSA 
workforce planning skill mix issues. Information Technology (IT) for 
the Federal staff is also included in this account, and the fiscal year 
2009 request is level with 2008.
    The out-year budget for this account projects a 3.7 percent 
increase in fiscal year 2010, followed by about 4 percent annually in 
the ensuing years. There remain significant challenges in managing this 
account due to the essentially uncontrollable impacts of escalation on 
payroll and benefits for NNSA staff that consume such a high percentage 
of this account.
            Historically Black Colleges and Universities (HBCU) Support
    A research and education partnership program with the HBCUs and the 
Massie Chairs of Excellence was initiated by the Congress through 
Congressionally directed projects in the Office of the Administrator 
appropriation in fiscal year 2005. The NNSA has established an 
effective program to target national security research opportunities 
for these institutions to increase their participation in national 
security-related research and to train and recruit HBCU graduates for 
employment within the NNSA. The NNSA goal is a stable $10 million 
annual effort. However, the fiscal year 2008 Consolidated 
Appropriations Act (Public Law 110-161), included $22.1 million in 
congressionally directed projects in support of the HBCU programs 
within the Office of the Administrator account, for both new and 
existing projects. In fiscal year 2009, the Office of the Administrator 
appropriation will provide funding of $3.6 million in continuing 
support for HBCU activities for institutions not yet ready to engage in 
direct NNSA mission support. The Weapons Activities appropriation will 
provide up to $6 million; the Defense Nuclear Nonproliferation 
appropriation will provide up to $3 million; and the Naval Reactors 
program will fund up to $1 million of HBCU efforts in fiscal year 2009 
in multiple research partnerships directly supporting mission program 
activities.
  appropriation and program summary tables and out-year appropriation 
                summary tables--fiscal year 2009 budget

                               NATIONAL NUCLEAR SECURITY ADMINISTRATION--OVERVIEW
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                            Fiscal Year    Fiscal Year   Fiscal Year   Fiscal Year   Fiscal Year
                                           2007 Current   2008 Original      2008      2008 Current      2009
                                          Appropriations  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
National Nuclear Security
 Administration:
    Office of the Administrator.........        358,291        405,987        -3,850       402,137       404,081
    Weapons Activities..................      6,258,583      6,355,633       -58,167     6,297,466     6,618,079
    Defense Nuclear Nonproliferation....      1,824,202      1,673,275       -15,279     1,657,996     1,247,048
    Naval Reactors......................        781,800        781,800        -7,114       774,686       828,054
                                         -----------------------------------------------------------------------
      Total, NNSA.......................      9,222,876      9,216,695       -84,410     9,132,285     9,097,262
    Rescission of Prior Year Balances...  ..............      -322,000   ...........      -322,000   ...........
                                         -----------------------------------------------------------------------
      Total, NNSA (OMB Scoring).........      9,222,876      8,894,695       -84,410     8,810,285     9,097,262
----------------------------------------------------------------------------------------------------------------


               OUT-YEAR APPROPRIATION SUMMARY--NNSA FUTURE-YEARS NUCLEAR SECURITY PROGRAM (FYNSP)
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                             Fiscal     Fiscal     Fiscal     Fiscal     Fiscal
                                                           Year 2009  Year 2010  Year 2011  Year 2012  Year 2013
----------------------------------------------------------------------------------------------------------------
NNSA:
    Office of the Administrator..........................    404,081    419,848    436,266    451,771    469,173
    Weapons Activities...................................  6,618,079  6,985,695  7,197,844  7,286,912  7,460,318
    Defense Nuclear Nonproliferation.....................  1,247,048  1,082,680  1,076,578  1,111,337  1,133,982
    Naval Reactors.......................................    828,054    848,641    869,755    880,418    899,838
                                                          ------------------------------------------------------
      Total, NNSA........................................  9,097,262  9,336,864  9,580,443  9,730,438  9,963,311
----------------------------------------------------------------------------------------------------------------


                     OFFICE OF THE ADMINISTRATOR--OVERVIEW APPROPRIATION SUMMARY BY PROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                 Fiscal Year    Fiscal Year   Fiscal Year   Fiscal Year   Fiscal Year
                                 2007 Current  2008 Original      2008      2008 Current      2009       Change
                                Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Office of the Administrator...   \1\ 358,291        383,487        -3,490       379,997       404,081    +24,084
Congressional Directed          .............        22,500          -360        22,140   ...........    -22,140
 Projects.....................
                               ---------------------------------------------------------------------------------
      Total, Office of the           358,291        405,987    \2\ -3,850       402,137       404,081     +1,944
       Administrator..........
----------------------------------------------------------------------------------------------------------------
\1\ Reflects the Congressionally approved appropriation transfer of $17,000,000 (07-D-04) from a source within
  the Weapons Activities appropriation and $1,000,000 from the fiscal year 2007 supplemental in support of the
  Defense Nuclear Nonproliferation program.
\2\ Reflects a rescission of $3,850,000 as cited in the Fiscal Year 2008 Consolidated Appropriations Act (Public
  Law 110-161).
Public Law Authorization: Fiscal Year 2008 Consolidated Appropriations Act (Public Law 110-161) and National
  Nuclear Security Administration Act, (Public Law 106-65), as amended.


                                         OUT-YEAR APPROPRIATION SUMMARY
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2010         2011         2012         2013
----------------------------------------------------------------------------------------------------------------
Office of the Administrator.................................      419,848      436,266      451,771      469,173
----------------------------------------------------------------------------------------------------------------


                                WEAPONS ACTIVITIES--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                            Fiscal Year    Fiscal Year   Fiscal Year   Fiscal Year   Fiscal Year
                                            2007 Current  2008 Original      2008      2008 Current      2009
                                           Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Directed Stockpile Work..................     1,430,192      1,413,879       -12,627     1,401,252     1,675,715
Science Campaign.........................       267,758        290,216        -2,592       287,624       323,070
Engineering Campaign.....................       161,736        171,075        -1,527       169,548       142,742
Inertial Confinement Fusion Ignition and        489,706        474,442        -4,236       470,206       421,242
 High Yield Campaign.....................
Advanced Simulation and Computing               611,253        579,714        -5,177       574,537       561,742
 Campaign................................
Pit Manufacturing and Certification             242,392        215,758        -1,927       213,831   ...........
 Campaign................................
Readiness Campaign.......................       201,713        159,512        -1,424       158,088       183,037
Readiness in Technical Base and               1,613,241      1,652,132       -14,751     1,637,381     1,720,523
 Facilities..............................
Secure Transportation Asset..............       209,537        213,428        -1,905       211,523       221,072
Nuclear Weapons Incident Response........       133,514        160,084        -1,429       158,655       221,936
Facilities and Infrastructure                   169,383        181,613        -1,622       179,991       169,549
 Recapitalization Program................
Environmental Projects and Operations....  .............         8,669           -77         8,592        40,587
Transformation Disposition...............  .............  .............  ...........  .............       77,391
Defense Nuclear Security.................       656,653        806,434        -7,201       799,233       737,328
Cyber Security...........................       104,505        101,191          -904       100,287       122,511
Congressionally Directed Projects........  .............        48,000          -768        47,232   ...........
                                          ----------------------------------------------------------------------
      Subtotal, Weapons Activities.......     6,291,583      6,476,147       -58,167     6,417,980     6,618,445
Security Charge for Reimbursable Work....       -33,000        -34,000   ...........       -34,000   ...........
Use of Prior Year Balances...............  .............       -86,514   ...........       -86,514          -366
                                          ----------------------------------------------------------------------
      Total, Weapons Activities..........     6,258,583      6,355,633       -58,167     6,297,466     6,618,079
----------------------------------------------------------------------------------------------------------------
Public Law Authorization: Fiscal Year 2008 Consolidated Appropriations Act (Public Law 110-161) and National
  Nuclear Security Administration Act, (Public Law 106-65), as amended.


                 OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                        [In thousands of dollars]
------------------------------------------------------------------------
                                Fiscal     Fiscal     Fiscal     Fiscal
                              Year 2010  Year 2011  Year 2012  Year 2013
------------------------------------------------------------------------
Weapons Activities:
    Directed Stockpile Work.  1,762,079  1,789,979  1,760,218  1,776,388
    Science Campaign........    309,091    295,192    296,662    299,902
    Engineering Campaign....    148,863    146,565    150,475    153,907
    Inertial Confinement        434,007    381,173    373,005    377,762
     Fusion Ignition and
     High Yield Campaign....
    Advanced Simulation and     526,373    510,808    514,405    520,645
     Computing Campaign.....
    Pit Manufacturing and     .........  .........  .........  .........
     Certification Campaign.
    Readiness Campaign......    170,003    161,139    161,130    164,295
    Readiness in Technical    1,904,398  2,153,557  2,275,909  2,372,916
     Base and Facilities....
    Secure Transportation       249,555    261,543    268,134    269,325
     Asset..................
    Nuclear Weapons Incident    229,661    235,211    242,425    250,947
     Response...............
    Facilities and              192,945    196,379    195,096    194,779
     Infrastructure
     Recapitalization
     Program................
    Environmental Projects       37,288     39,026     37,468     36,040
     and Operations.........
    Transformation               89,457     88,589     88,008     87,863
     Disposition............
    Defense Nuclear Security    818,285    817,809    793,856    814,928
    Cyber Security..........    113,690    120,874    130,121    140,621
                             -------------------------------------------
      Total, Weapons          6,985,695  7,197,844  7,286,912  7,460,318
       Activities...........
------------------------------------------------------------------------


                                  NAVAL REACTORS--FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                            Fiscal Year    Fiscal Year   Fiscal Year   Fiscal Year   Fiscal Year
                                            2007 Current  2008 Original      2008      2008 Current      2009
                                           Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Naval Reactors Development:
    Operations and Maintenance (O&M).....       747,648        739,100        -6,726       732,374       771,600
    Program Direction....................        31,380         32,700          -297        32,403        34,454
    Construction.........................         2,772         10,000           -91         9,909        22,000
                                          ----------------------------------------------------------------------
      Total, Naval Reactors Development..       781,800        781,800        -7,114       774,686       828,054
----------------------------------------------------------------------------------------------------------------
Public Law Authorizations: Public Law 83-703, ``Atomic Energy Act of 1954'';``Executive Order 12344 (42 U.S.C.
  7158), ``Naval Nuclear Propulsion Program''; Public Law 107-107, ``National Defense Authorizations Act of
  2002'', title 32, ``National Nuclear Security Administration''; John Warner National Defense Authorization Act
  for Fiscal Year 2007, (Public Law 109-364); Fiscal Year 2008 Consolidated Appropriations Act (Public Law 110-
  161); National Nuclear Security Administration Act, (Public Law 106-65), as amended.


                                     OUT-YEAR FUNDING PROFILE BY SUBPROGRAM
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal Year  Fiscal Year  Fiscal Year  Fiscal Year
                                                                  2010         2011         2012         2013
----------------------------------------------------------------------------------------------------------------
Naval Reactors Development:
    Operations and Maintenance..............................      782,087      811,651      827,164      831,084
    Program Direction.......................................       35,754       37,054       38,354       39,754
    Construction............................................       30,800       21,050       14,900       29,000
                                                             ---------------------------------------------------
      Total, Naval Reactors Development.....................      848,641      869,755      880,418      899,838
----------------------------------------------------------------------------------------------------------------

    Senator Dorgan. Administrator D'Agostino, thank you very 
much. There are about 8 minutes remaining on this vote, I think 
what we will do is recess the subcommittee for about 10 
minutes, and we will reconvene.
    We'll call the subcommittee back to order.

              COMPLEX TRANSFORMATION PREFERRED ALTERNATIVE

    Mr. D'Agostino, again, thank you for your testimony. I will 
ask a couple of questions and then call on my colleague, 
Senator Domenici who will be here momentarily.
    Your Complex Transformation Preferred Alternative, Mr. 
D'Agostino, calls for keeping all 8 nuclear weapons complex 
facilities. Some, including myself, are surprised that there's 
not a recommended closure of at least one site, or even one 
site.
    As I understand it, OMB had the Cost Analysis Improvement 
Group do an assessment of the NNSA's Complex Modernization 
Programs, and one of the findings said that there were 
potential economic benefits from the relocation of the uranium 
operations from Y-12 to another site. The assessment 
highlighted the vulnerability of Y-12 and the fact that other 
than the HEUMF plant, virtually all other Y-12 buildings will 
require replacement.
    I understand the final decision has not been made, but I 
believe you do specify Y-12 as the uranium center for the 
weapons complex.
    Mr. D'Agostino. Right.
    Senator Dorgan. So, can you tell us--how did you come to 
this decision to retain the NNSA mission at Y-12?
    Mr. D'Agostino. Absolutely.
    Senator Dorgan. As opposed to moving it?
    Mr. D'Agostino. Yes, sir, Mr. Chairman, I'd like to do 
that.
    We did commission the Cost Analysis Improvement Group as 
well as an additional independent group--we had two independent 
teams--look at our preferred alternative, particularly from a 
cost standpoint.
    The one thing I will start off with is, most of these 
studies typically do not take into account the value of the 
workforce that's needed to operate and deal with special 
materials, and uranium and the other materials, the work that 
happens at the Tennessee area, clearly there's a set of 
material there that requires a special workforce.
    And, we actually have very good evidence, when we moved 
material out of Rocky Flats, on how difficult it is to re-
establish a capability dealing with special materials. It took 
us much longer than expected, and cost a lot more money than we 
ever expected it to cost. I'm talking, in particular, in this 
case, about the plutonium issue.
    But, in the case of Y-12, the evidence was clear that the 
CAIG said there was no clear winner on the decision whether to 
move those capabilities out, or not. In fact, it was neck-in-
neck, dead even. And one of the things that came out of that 
was our desire to do what we're calling a ``Phase II Cost 
Study'', which is part of the Preferred Alternative process.
    We put out a draft Preferred Alternative, and during the 
time when we're gathering public comment and input, we were 
also doing a Phase II Cost Study, to further evaluate these 
other factors, such as moving people, moving equipment, moving 
the material.
    And, from my standpoint, it was very clear to me that 
because things were even from the CAIG report, the Cost 
Analysis Improvement Group, that to err on the side of the 
people on the draft alternative, and then go evaluate, and do 
this additional study, before we get to a final position on a 
preferred alternative.
    So, we are doing those Phase II cost studies for these 
materials.
    Senator Dorgan. Are you going to keep us informed of those 
results?
    Mr. D'Agostino. Absolutely, sir.
    Senator Dorgan. Let me ask you, as well, about the Kansas 
City plant. You have already decided to build a newer and more 
efficient facility there, and you're deciding to keep the new 
facility in Kansas City, as opposed perhaps to, considering 
moving it to other existing NNSA sites. Some have said Pantex 
at Sandia might be mentioned as alternatives.
    My understanding is that the Kansas City site has done good 
work, has good people there, and I don't, with my question, 
mean to take anything away from them, but----
    Mr. D'Agostino. Right.
    Senator Dorgan [continuing]. Let me ask, how have you come 
to a decision to retain the mission in Kansas City, when you 
could build the new plant at another site, when you weigh all 
of the alternatives, can you explain that to us?
    Mr. D'Agostino. Absolutely.
    Senator Dorgan. And I understand, let me also say, you're 
seeking to have the General Services Administration (GSA) 
construct the new Kansas City plant, and then the NNSA will 
lease the facility. That means this subcommittee will never 
approve construction funds, because we won't be required to. 
Why did you pursue the GSA route for the new facility--do you 
use GSA in this manner for other large facilities as well, and 
do you have a cost analysis that would tell us whether it is 
cheaper to lease than for the NNSA to own?
    Mr. D'Agostino. Certainly. Regarding the Kansas City plant, 
one thing was clear, that we were in 3 million square feet in 
Kansas City, and we were spending $100 million more a year than 
we really needed to. So, the important thing is to deliver 
products to the Defense Department--and you're right, sir, the 
Honeywell organization out there has a tremendous reputation, 
they have a 99.99 percent quality and delivery record over many 
years.
    But what was clear is that we needed to get out of that 
World War II facility. It was just costing too much. It's 
consistent with the theme of too old, too big, too expensive, 
and we needed to right-size that facility.
    So, we're going to shrink that footprint by over 60 
percent, and save about $100 million a year.
    Senator Dorgan. I'm not questioning whether you should do 
it, I was questioning the location, and also the decision to go 
through----
    Mr. D'Agostino. Right. Through the GSA.
    Senator Dorgan [continuing]. GSA, which really bypasses our 
committee, in terms of construction funding.
    Mr. D'Agostino. So, from the standpoint of the location, 
since it's clear that I needed to get out of that current 
facility, I had the option of looking around, and you know, 
whether to put it at Pantex, at Kansas City, or at--I'm sorry, 
at Sandia--or any other site across the complex.
    And given Honeywell's--and that plant, in general's, high 
level of performance, given the quality of the workforce, I did 
not feel it was worth trying to move people--based on our 
experience of closing down Rocky Flats and closing down the 
Mound Plant--to satisfy that same mission.
    And we decided, sir, to look at ways to acquire the 
project, if you will, and the GSA does do this for the Federal 
Government, and we felt that the lease approach made the most 
sense, it delivered the product, it had the lowest life cycle 
costs for the Government, plus it allowed--in the long term--as 
we expect missions to change over the number of years, it gives 
us an opportunity to be a bit more flexible--us, the Federal 
Government--to be a bit more flexible on how we satisfy the 
requirements.
    Senator Dorgan. I'm just trying to understand where the 
approval is for doing this, if it doesn't go through an 
Appropriations subcommittee. Is there carte blanche authority 
for you to go to GSA----
    Mr. D'Agostino. No, sir.
    Senator Dorgan [continuing]. And say, ``I want to build a 
building?''
    Mr. D'Agostino. Absolutely not. We go through OMB first to 
get the facility appropriately scored, then it comes into the 
Environment and Public Works Committee, here in Congress, as 
part of a GSA package to get approval by Congress.
    Senator Dorgan. The authorizing committee has signed off on 
this? Is that correct?
    Mr. D'Agostino. I don't know if it's considered an 
authorizing committee----
    Senator Dorgan. It would be.
    All right, thank you for that answer. I have other 
questions I want to submit to you in writing.
    Mr. D'Agostino. Sure.

                         NAVAL REACTORS PROGRAM

    Senator Dorgan. Admiral Donald, there's been some 
discussion about new nuclear-powered Navy ships beyond aircraft 
carriers and submarines, most of it has been on a new class of 
cruisers. Could you comment on that, and what resources the 
Naval reactors program would need if the decision was made to 
build new nuclear-powered ships?
    Admiral Donald. Yes, sir. Thank you for the question. The 
Navy right now is in the process of what's called an Analysis 
of Alternatives for the new ship, which is the cruiser that 
would replace the Aegis-class cruisers currently in service. 
We've completed the part of the Analysis of Alternatives that 
applies to the propulsion plant. The remaining part really is 
about defining the specific mission and capabilities that the 
ship needs from a combat system and a radar system perspective.
    Once that's done, then a decision would be made as to 
whether or not that ship would be nuclear-powered, or not. And, 
again, that's under review right now by the Secretary of the 
Navy, and the Chief of Naval Operations.
    Should we--should it be chosen to be a nuclear-powered 
ship, we would--our plan would be to use existing components of 
existing designs to the greatest extent possible to help in 
cost, and get the most capability you can for the cost. But 
what it would really involve for us, was, in addition to the 
specific components that you have to buy, the reactor plant 
that you'd buy, itself, you'd also have to do some amount of 
redesign to fit those components into the ship, whatever type 
of ship they chose to buy.
    So, in addition to component purchases, and the specifics 
of the plan itself, some re-design work would have to go into 
it, and likely some facilitization of existing manufacturing 
capabilities, that would have to be considered as well, sir.
    Senator Dorgan. Admiral, thank you very much.
    Senator Domenici?

                   MATERIALS, MISSIONS, AND MANPOWER

    Senator Domenici. I was wondering if I might--you go ahead.
    Administrator D'Agostino, your testimony makes a thorough 
case of the consolidation of materials, missions and manpower. 
However, in 13 pages of written testimony, I find only--find 
that only the reference to science and a handful of examples, 
primarily focused on past scientific achievements. There's 
absolutely no mention of scientific path forward, or a strategy 
to sustain the scientific excellence of the labs.
    Could you please explain to us what this budget provides in 
terms of long-term planning to sustain science capabilities at 
the laboratory?
    Mr. D'Agostino. Certainly. We have an item in our budget--
it's not a big item, it's about $5 million--to work on 
upgrading the accelerator at Los Alamos. But, more importantly, 
we have a number of facilities----
    Senator Domenici. What is that for, again?
    Mr. D'Agostino. For the, upgrading the accelerator, the 
LANSCE Accelerator, however, it's clearly not enough to do any 
significant work in fiscal year 2009. In order to really do 
that work, it will likely cost well over $100 million to 
upgrade that accelerator--that's done a tremendous job over the 
past decades, in getting the scientific information that we 
need.
    Our focus----
    Senator Domenici. So, you're saying--you're telling this 
committee you need LANSCE in order to round out the scientific 
capability of the lab, and all you could get out of this year 
was $5 million?
    Is that----
    Mr. D'Agostino. Well, I think there's more than that, 
Senator. I was going to add to that, if I could.
    Senator Domenici. Go ahead.
    Mr. D'Agostino. For one thing, we--with the support of this 
subcommittee--we have now finished the DARHT project. I think 
in about 2 days, or so, we will actually be signing, doing the 
formal completion of the DARHT project at Los Alamos, which as 
you know, is a tremendous technical achievement.
    We're in the mode now, sir, of actually operating all of 
these tools that have been appropriated over the last number of 
years, the NIF facility is in its final stages of construction. 
As you know, sir, the MESA Project was completed 3 years early, 
and is now an active part of supporting our stockpile, 
particularly the work on the W76, and so, the concern I have is 
consistent with what you've described, what is the long-term 
science for Los Alamos, and what's our long-term strategy 
across the complex?
    Our near-term strategy, sir, is to utilize the tools that 
we've built up over the last decade during Stockpile 
Stewardship, and there was a lot of utilization that we do need 
that is so important to do.
    The concern that we have, and Director Anastasio may get a 
chance to talk about this, is what is that particular 
capability for Los Alamos? We haven't answered that question 
yet, but we're in the process of working with the Office of 
Science to lay out that right path for the laboratory. I think 
MESA and NIF will do that Livermore and Sandia, quite well.
    Senator Domenici. Now, Administrator, we're approaching the 
2-year anniversary of the new management team's take-over of 
Los Alamos. It appears to me that things are on the right 
track, with several of the deliverabilities met in pit 
manufacturing, super computing and improved site security. What 
is your impression of the operation at LANL?
    Mr. D'Agostino. Senator, I would say, I'm very impressed 
with what has happened over the last 2 years. A lot of people 
will point to maybe one incident or two, I look at the overall 
trend, and when I look at the overall trend, I see good 
indication--from security, for example, the laboratory has 
actively reduced its amount of classified removable media from 
over 80,000 pieces, now it's less than 5,000 pieces.
    It has consolidated its vaults--we used to have 142, or 143 
vault-type rooms. We're already down to 114, and I think the 
Director is trying to get that number down to the 20 to 40 
range of vault-type rooms. We've centralized our classified 
document storage, and the accident rate has decreased by 35 
percent at the laboratory.
    From a project management standpoint, the laboratory is 
delivering on over 90 percent of its project deliverables on 
these milestones that we track in our systems--these are 
tremendous accomplishments--they've improved facility 
management by 11 percent, and all of this within a very 
difficult financial situation.
    So, Los Alamos has done this on the basis of hard 
management, and my hat's off to the Director for putting that 
through.
    We actually have similar types of changes going on at some 
of our other laboratories, and in addition to the programmatic 
accomplishments that you just described, a lot of times what 
gets ignored is the hard management part of the laboratory.
    Senator Domenici. I didn't mean to isolate this one out, 
and thereby indicate that you weren't making advances on all of 
them, I just chose Los Alamos, because it had received so much 
adverse criticism----
    Mr. D'Agostino. Right.
    Senator Domenici [continuing]. Two and three years ago, and 
had some security problems. It was bantered around up here as a 
laboratory that couldn't get things done, and I just wanted 
your observations for the first--it's only been 2 years for the 
new management, and you've told the committee what you think.
    Mr. D'Agostino. Yes, sir, thank you. I do think we have a 
bit more to go, but we're heading in the right direction, and 
I'm very encouraged by it, but conscious, as well.
    Senator Domenici. I have a lot more, but I want to yield 
after one last question.
    The budget provides $10 million advance for feasibility 
work on the RRW. You've been present when we've had an exchange 
between the chairman and myself, regarding whether or not we 
should fund that, and his view that we should not, my view that 
we should.
    Ten million--but that's not enough to complete the 
research. It is my understanding that an additional $55 million 
is needed to complete this phase of the study. Can you tell me 
what will be gained if Congress provides the full $65 million 
needed to complete the feasibility study? What would, then, be 
the next steps? And back up and tell me why we need the $10 
million, which we're going to have an argument about--somebody 
out there ought to be defending it--are you one who defends the 
$10 million?
    Mr. D'Agostino. I'm in defense of the $10 million, sir. I 
do think--I want to emphasize, I think it's important to 
emphasize--that this is a study, this is not about building a 
warhead.
    From my view, the gain and the understanding is to help 
inform future administrations of an approach to better manage 
our nuclear weapons stockpile. I'm very concerned that if we 
continue down the path of rebuilding our cold war stockpile 
exactly the way we built it in the past, that we will lock in 
very difficult materials that we have had to deal with in the 
past, that are causing us so much problems now.
    So, from that standpoint, what we would gain, in my view, 
is an opportunity for future administrations to actually 
understand what an RRW concept can actually deliver, in terms 
of driving the size of the stockpile down, and adding safety 
and security--additional safety and security--into our nuclear 
weapons stockpile. I think this is a matter of making sure 
everyone's fully informed, and making sure that it's clear, 
this is not a decision to build a warhead.
    Your last part of the question was, why the $10 million, 
sir? It was clear in the very early days of January of this 
year that we hadn't achieved a consensus, and you know, we 
needed an opportunity to make sure that we had to drive home 
what this Reliable Replacement concept was all about. The $10 
million in the budget request is there to make sure that all of 
the work that has happened over the last 2 years on this 
topic--and there has been some excellent work--did not get lost 
just because we immediately cut off funding on day one.
    We take the views of congressional appropriations 
seriously, when we got the bill, Deputy Administrator Smolen 
issued a note out to the complex saying, ``Stop work on RRW.'' 
And that literally means, stop work. And, you know, there's no 
way to really tie a ribbon around the information that you have 
appropriately, but we want to be able to close off that work 
appropriately, and at least put together some information for 
future administrations.
    Senator Domenici. Thank you very much.
    Senator Dorgan. If I might--I'm going to call on Senator 
Craig, and use the early bird rule back and forth, Senator 
Craig, Senator Reed then Senator Bennett.
    My understanding is last year the administration was 
already beginning to put some amount of money in the Air Force 
budget--going beyond the Navy piece, with respect to RRW. That 
presumes, of course, that that program was going to be a 
continuum. And I, I mean, I--we have a disagreement about these 
issues----
    Mr. D'Agostino. Right, right.
    Senator Dorgan. But, I think it's very important that we 
understand, how this fits in a much broader context of nuclear 
weapons policy. I appreciate the comments of Senator Domenici.
    Senator Craig?

                    STATEMENT OF SENATOR LARRY CRAIG

    Senator Craig. Mr. Chairman, thank you.
    Gentlemen, thank you.
    And Administrator D'Agostino, before I come to you with a 
question, I want to first thank the Admiral for the work we've 
done together at the lab. As you know, Idaho's lab was not a 
nuclear--a weapons lab. However, NNSA does work at the INL, 
mainly through the Navy nuclear program, and its use of the 
Advanced Test Reactor (ATR).
    In 1967, the ATR was commissioned to support the Navy 
Nuclear Propulsion Program, tackling nuclear fuels reliability 
and material testing issues. And, of course, we know that 
history--probably one of the more successful ones, if not the 
most successful in the extension of life of our Navy's--our 
national nuclear fleet.
    Last April, DOE designated the Advanced Test Reactor, the 
ATR, as a National Scientific User Facility, and that's where 
the cooperation of the Navy came in, and this would not have 
happened without the support that you've given us, and I want 
to thank you for that.
    Today, the ATR, the National User Facility, is open for 
businesses and universities from all over the Nation, and 
they're able to use the facility for research and educational 
purposes. The INL also works on certain NNSA waste, such as 
sodium debris from Sandia National, and we also have some 
highly-enriched uranium weapons-grade materials for non-weapons 
research purposes.
    Now, my question of you, Administrator. I want to talk to 
you about Building 651, and Building 691. As you know, 
infrastructure at most of our labs continues to be a problem, 
and a top priority, it is true at the Idaho lab. Our scientists 
and engineers perform research and development in facilities 
that oftentimes back-date into the 1950s.
    These are facilities at the lab that were constructed in 
the 1990s to recycle the Navy's spent nuclear fuel. These two 
building have never been used, they're basically brand new, and 
sitting there. And I understand that for a relatively small 
investment, these facilities could be upgraded and used.
    Your office looked at these facilities in the past to find 
alternative uses, funds have been made available in 2006, and 
in the Omnibus bill last year for the required upgrades, 
however, no work has begun, or is expected to begin any time 
soon. It's my understanding, understanding is that even 
Congress has provided the funds, there is a disagreement over 
the right mission, and who will be responsible for the 
facilities. So, my question is a relatively simple one--can you 
tell me what happened to the $5 million that was appropriated 
in 2006?

                           FUNDING OVERSIGHT

    Mr. D'Agostino. As to the specifics, I can't tell you at 
this point exactly what would happen. What I can talk about are 
the two buildings and how we looked at it from a Departmental 
view----
    Senator Craig. Yes.
    Mr. D'Agostino [continuing]. If I could, Senator.
    Senator Craig. Please.
    Mr. D'Agostino. Okay.
    Those buildings, we looked at originally, a couple of years 
ago, as potential areas to store plutonium while we were trying 
to de-inventory the plutonium we have at Hanford, as a--what I 
would call--an interim storage location.
    Senator Craig. Those are the right words for Idaho, thank 
you.
    Mr. D'Agostino. Yes, thank you.
    Well, the idea was getting the material out of Washington 
State, ultimately our plan was to disposition that material 
through the mixed oxide facility in South Carolina.
    At the time, Savannah River was not in a position to accept 
plutonium in South Carolina, and we had a deep desire to try to 
reduce our security costs in Hanford, because we don't want to 
declare it a permanent site. And these buildings looked 
attractive to be studied, and in fact, they were studied.
    The end result of that study was that in order to upgrade 
one of the buildings--and I believe it was Building 651--it 
would cost in excess of $300 million just to finish the 
building and put the security features in place.
    Senator Craig. For the purpose you were looking at it for?
    Mr. D'Agostino. For the original purpose, that's right, 
sir. And we felt that that was a lot of--well, it just didn't 
make financial sense to move plutonium twice, spend $300 
million just for an interim site. It made more sense to move it 
once.
    Since that time, of course, we've started construction on a 
mixed oxide facility, and now we're in the position of shipping 
material directly to South Carolina, which is a safer and more 
secure way of doing it, and ultimately not resulting in 
material that potentially accumulates, and the emission 
associated with it. The MOX construction is underway, from that 
standpoint.
    So, when we looked, it didn't make sense to use Idaho as a 
way-station, if you will----
    Senator Craig. Right.
    Mr. D'Agostino. For plutonium. And ultimately that's what 
ended up happening. I can provide to your staff, sir, the 
analysis that was done in that case, if that makes sense.
    Senator Craig. It does. And I appreciate that, also, 
answer, and I don't mean to sound as direct, as it might--
answer the question.
    Mr. D'Agostino. Right, the $5 million?
    Senator Craig. What happened to the 2006 appropriation of 
$5 million that was re-established in the 2007 budget, and 
somehow nothing has materialized? Because this was a general 
upgrading of the buildings for future use?
    Mr. D'Agostino. Right.
    Senator Craig. Okay, if you would do that, I would 
appreciate it.
    Mr. D'Agostino. Absolutely.
    Senator Craig. Because it's the anomaly that it's in--it 
was put in over in the House, it's in your budget in buildings 
that aren't in your responsibility, as I understand it.
    Mr. D'Agostino. That's right. And----
    Senator Craig. Thank you. So, I'm--we're just searching for 
some money.
    Mr. D'Agostino. That's right. And I think ultimately, 
because we had--there's, of course as you're probably aware, 
$14 million that was appropriated for this activity in the 2008 
Omnibus, as well. And what we want to do--you mentioned earlier 
in your question about sodium debris bed material from Los 
Alamos----
    Senator Craig. Right.
    Mr. D'Agostino. So, some of that money we would use for 
that purpose. But it would not require all of that money.
    Senator Craig. Okay.
    Mr. D'Agostino. So, we'll be coming back, ultimately, with 
a re-programming request.
    Senator Dorgan. Administrator----
    Senator Craig. Thank you.
    Senator Dorgan [continuing]. He wants to know where the $5 
million is, if you'd let us know, we'd appreciate that.
    Mr. D'Agostino. Absolutely.
    Senator Dorgan. Thank you.
    Senator Craig. Thank you.
    Senator Dorgan. Senator Reed.
    Senator Craig. Thank you, Mr. Chairman.
    Senator Dorgan. Thank you, Senator Craig.

                      RELIABLE REPLACEMENT WARHEAD

    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. D'Agostino, can you tell us what the scope of work is 
in the NNSA budget for 2009 for the RRW concept? I ask that, 
because last year there was a specific RRW design line, 
attributed specifically to RRW, but then there was engineering 
and science work throughout the budget that was also attributed 
to the concept of RRW. Can you focus on what the scope of work 
is in this budget?
    Mr. D'Agostino. This budget has $10 million specifically in 
the RRW line, and the purpose of that money is to close on the 
cost and schedule and put--essentially tie the ribbon around, 
and gather in one spot, all the work that has gone into RRW.
    What you're, I believe, referring to, from previous years, 
is the fact that there is very similar elements of our program, 
for example, in the Surety Campaign, for example, that 
Campaign's responsibility is to develop Surety technologies 
that could be applied to any future system or existing nuclear 
weapons system that we have. It's not focused on RRW.
    The RRW line was focused on a particular design put forth 
by Lawrence Livermore National Laboratory, the ultimate lab 
design that was chosen.
    Senator Reed. But this work such as a Surety function, is 
that being coordinated with RRW, in the sense of, they're 
explicitly considering the possibility of moving forward with 
RRW development?
    Mr. D'Agostino. No, it's not--the Surety line is to develop 
a generic suite of Surety tools to be used, whether in RRW or 
not. But ultimately, what would have to happen, is once it's 
been decided that a Surety technology that was developed in 
this campaign was going to be used in RRW, we would have to 
stop work in that campaign, move it over to that Surety line. I 
think it's important for our laboratories to have the 
flexibility to continue to develop Surety technologies, because 
this effort is part of activities that bolster the skills that 
are so important to maintain.
    Not just to maintain the stockpile--and particularly to 
modify it as it changes and ages--but also to hone the exact 
skills that we use to understand and defeat nuclear terrorism. 
If we happen to come across an Improvised Nuclear Device, these 
are the exact same people that will be deciding which wire to 
cut--the green wire or the red wire. And they only do that 
based on developing these generic skills.
    Senator Reed. Let me continue in another aspect of this, 
for many, many years, but certainly the last 15 or so--there's 
been an investment in facilities, to improve existing 
facilities and capabilities for the Stockpile Stewardship 
Program to maintain nuclear weapons without testing. And, in 
fact, about 15 years ago, the daunting technical problems 
associated with RRW would never have been considered.
    But nevertheless, because we've been investing in the 
complex, we are now considering an RRW, and yet we're told now 
that there has to be more new investment in the complex for 
RRW. Can you talk about--comment upon that?
    Mr. D'Agostino. Absolutely, in fact, I will be very 
straightforward--we would need new investment, more new 
investment, to maintain our existing stockpile. We do not have 
the infrastructure to maintain our stockpile now. But the 
investment we need, just to maintain a nuclear deterrent 
whether it's a RRW-type future or life extension future--
they're two different avenues.
    What we're doing right now, is making the investments that 
would not preclude, essentially, going down either track. So, 
we're making the investments that cover both options.
    A quick example would be plutonium infrastructure. My view 
is, we don't need two plutonium infrastructures in this 
country, we only need one, and so we have to look at 
maintaining one, smaller, safer, plutonium infrastructure. I 
think that plutonium infrastructure could be at Los Alamos. 
Same thing with uranium, and the like.
    So, if we said RRW is not in our future--if the Congress 
says that, I understand how those decisions get made--that 
would drive the Administrator, myself or whoever follows me, to 
say, ``Well, we absolutely need to make investments in 
facilities that we have decided to hold off making investments 
in.''
    Beryllium oxide, and beryllium metal work, for example, is 
one area that we decided 4 years ago--beryllium is bad, bad 
stuff, we don't want to work with it, we're not going to spend 
$300 million in Tennessee to reconstitute a capability we'd 
prefer never to have again in our stockpile.
    That is still an open question--if we stayed with the 
existing legacy stockpile, at some point--and it won't be this 
year--but some future Administrator will be here, in front of 
this committee saying, ``I need to build a beryllium oxide 
capability, and a beryllium metal capability.'' And it's just a 
fact of life, because our current stockpile relies upon 
beryllium.
    Senator Reed. Just a quick follow-up, but if you go the 
other pathway will a future Administrator be here saying they 
have to build some specific facilities unique to RRW?
    Mr. D'Agostino. No, because I believe, for example, one of 
the elements of RRW will simplify work on plutonium. Right now, 
we think we can simplify it and do it in a much smaller space. 
If we have to reconstitute a capability to work with plutonium, 
for the cold war stockpile, we would need much more space than 
we currently are planning for right now.
    So, RRW takes a lot of materials off of the table that 
we'll never have to use again. And that's my main focus, is to 
get rid of as much of the hazardous material as I can. Physics 
doesn't allow us to get rid of uranium and plutonium at this 
point, but about everything else, we can do.
    Senator Reed. Thank you.
    Mr. D'Agostino. Yes, sir.
    Senator Dorgan. Senator Bennett.

                       SUBTERRANEAN NUCLEAR TESTS

    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. D'Agostino, I want to thank you for the wonderful trip 
that you arranged for me to visit Sandia, Los Alamos and 
Livermore, I learned a great deal, and I'm grateful to you and 
all of those who acted as host for that. I look forward to 
learning more. All I really learned was that, I don't know very 
much and sometimes that's the beginning of wisdom.
    I'm impressed by all of the work you've done, and by your 
computer capability, and I want to just ask, for the record, do 
you foresee the need to resume underground nuclear testing at a 
time in the future--at a time in the foreseeable future?
    Mr. D'Agostino. Of course, if I could predict that far 
ahead, I probably wouldn't be in this business, but we think we 
have a handle in the near term on knowing what issues we have 
in our current stockpile. And, as you probably were aware, 
there are concerns that we have--the stockpile remain safe and 
reliable right now, but these are very complicated devices, 
they're not static, I think General Chilton called it a 
``chemistry project in motion.'' You've got very hazardous 
materials, and radiation and exotic materials together for long 
periods of time. So, they're very complicated.
    I can't give you a definitive answer on that, but what I 
can say is we are very confident now that the tools that we 
have, and that the country's invested in over the last decade, 
can deal with most issues.
    I know I'm not giving you a direct yes or no answer, sir--
--
    Senator Bennett. Yes, yes.
    Mr. D'Agostino. Because I can't give you one.
    Senator Bennett. Well, I left you an out, and let me repeat 
it again, with the same out--and I understand, by the way, that 
no Administrator, no one sitting in your position representing 
any administration would ever say ``never.''
    Mr. D'Agostino. Right.
    Senator Bennett. But, with the understanding--do you have 
any idea in the foreseeable future, that you might have to 
renew underground testing?
    Mr. D'Agostino. No.
    Senator Bennett. Okay.
    It's important that we have that on the record----
    Mr. D'Agostino. Yes.
    Senator Bennett [continuing]. I got it from your 
predecessor, I need it for the people in Utah, to understand 
that we keep asking that question.
    Mr. D'Agostino. Right.
    Senator Bennett. Now, I was pleased that you requested an 
increase of 22 percent over fiscal year 2008, with respect to 
cyber-security.
    Mr. D'Agostino. Right.

                             CYBER-SECURITY

    Senator Bennett. As I mentioned to you, this is an issue 
I've been interested in now for a number of years. It may be 
difficult in this setting--which is not classified--but could 
you discuss the threat that NNSA and the other labs face from 
cyber attacks?
    Mr. D'Agostino. Absolutely. I'll discuss it in broad terms, 
if I could, and that is the laboratories and the Federal 
infrastructure that we have are literally bombarded with tens 
of thousands of attacks on a regular basis. Now, that doesn't 
mean all of them get through, because the people we have at our 
laboratories are very good at this. But, we are noticing a very 
significant increase in the amount of cyber-attacks.
    Quite frankly, we put forth a 22 percent increase in the 
cyber-security investment area in this budget request. In all 
likelihood, we're going to have to continue that kind of ramp-
up into the future, in order to develop the tools necessary to 
counter this threat.
    A lot of the times, the security focus always is on 
physical--guns, guards, gates--because most of us can see that 
and understand that. In this case, there is the sense that the 
information that's possessed is extremely valuable, and we have 
to ramp-up on the cyber side.
    So, we've got a long road ahead of us, and we have a lot 
more to do in this area. From a detail standpoint, I don't know 
if I want to get into too much detail.
    Senator Bennett. No, I have further questions, but I don't 
think this setting is the appropriate place to ask them. I 
think we can ask--have there, has there been a significant 
increase in, say, 12 months or 18 months? Or has it been just a 
steady kind of attack?
    Mr. D'Agostino. I see an ever-increasing rate, so the 
acceleration rate is increasing----
    Senator Bennett. It's logarithmic rather than arithmetic?
    Mr. D'Agostino. Yes, sir.
    Senator Bennett. I see, okay.
    Thank you very much.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Bennett, thank you very much.
    Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman.
    And welcome, gentlemen, particularly you, Mr. D'Agostino, 
and I want to thank you, you know, we've talked on the RRW and 
other things, and as I've said to you privately, I'll say to 
you publicly--you have always been a straight shooter, and I 
very much appreciate that. And so you have very high 
credibility with me.
    I want you to understand that I support the chairman in his 
mark, if he does remove the $10 million for the RRW. And that's 
really based on the fact that we need to have this 
congressionally appointed bipartisan commission examine United 
States strategic posture and nuclear weapons policy. And it's 
due to report its findings and recommendations to Congress and 
the President by December 1, of this year. And the Defense 
Authorization bill also required the next President to conduct 
a nuclear posture review, and report by December 1, 2009.
    I really think the Congress--before it goes ahead with 
what, in my view, is a new nuclear warhead, should have these 
two things under its belt--should understand what's going to 
happen, how the strategic triad will or will not be changed, 
what our nuclear posture will be. And then, I think, it's 
easier to make this decision.

                   LAWRENCE LIVERMORE FINACIAL ISSUES

    You also called me about Lawrence Livermore, and I'd like 
to ask you a couple of questions about it. You indicated to me 
that there were going to be 250 voluntary retirements, and 
about 500 involuntary retirements made. And the lab, because of 
the fact that it was an LLC, a limited liability corporation, 
the costs were higher.
    And as I began to think about that--you know, the corporate 
management was supposed to make the lab more economically 
competitive, in addition to bringing good management. I 
understand the lab has lost its tax-exempt non-profit status? 
Is that correct? It is. And that the new management has 
underestimated retirement and health benefit costs? Is that 
correct?
    Mr. D'Agostino. I don't know if that's--mis-estimated might 
be a reflection of the times, on these costs, are increasingly 
going up.
    Senator Feinstein. And, has the yearly management fee 
increased from $8 million to $46 million?
    Mr. D'Agostino. Yes, ma'am, consistent with the terms of 
the contract.
    Senator Feinstein. Who receives those fees?
    Mr. D'Agostino. The limited liability corporation, which is 
composed of the University of California, Beditel, and a few 
other contractors, Washington Group.
    I think there's one other fact----
    Senator Feinstein. I didn't know that when I talked to you, 
I've learned it since then, and it does cause me some concern. 
And so, let me ask you, what do you think about this management 
team?
    Mr. D'Agostino. Actually, I think very highly of the 
management team, and I'll say why.
    First of all, we've got 2 years under our belt using a 
limited liability approach at a similar laboratory, Los Alamos.
    And we've seen significant changes and improvements in 
management and efficiency at Los Alamos--I don't want to repeat 
an answer, but there are a series of improvements--11 percent 
improvement in maintenance of facilities, for example, at Los 
Alamos, significant reduction in the amount of security 
material that is around the laboratory, improvement in worker 
safety and worker health at the laboratory. As you may know, 
there's a term called ``days away reportable,'' and total 
reportable cases at Los Alamos, we're now heading in the right 
direction, and we're starting to see, right now at Livermore, 
the same types of trends--a shift, an improvement in the safety 
of the workforce.
    So, I have strong faith in the management team at that 
laboratory, and this approach of governance, which is a big 
difference from what it was before.
    I now have a Board of Governors at Lawrence Livermore, for 
example. Norm Patis is the chairman, and I can go to him and 
express my concerns as a shareholder--I represent all of the 
shareholders in the country that have invested in that 
laboratory. And he, as the chairman, has the ability to act to 
provide corporate resources to help the laboratory.
    We've seen it work at Los Alamos, and I'm actually excited 
about the opportunity to see it at Lawrence Livermore, as well.
    There were three main reasons why we're in the situation of 
having to do an involuntary separation.
    Senator Feinstein. Let me be clear on this. My concern is 
that the fees go up at the time you lay off people. This is a 
very hard time to lay off people. And, it's a very hard time to 
lay off these people, because I don't know what available jobs 
there are for physicists and very highly skilled personnel, if 
these are whom you are going to involuntarily lay off. And at 
the same time, the management part of it is collecting 
increased fees. I'm not sure that's the right thing.
    Mr. D'Agostino. I will admit, Senator, that it sends a very 
strange signal. My job, and ultimately the job of the lab 
director is to put the lab in the best competitive situation. 
Right now, the costs of doing work at Lawrence Livermore are 
too high. The customers that come to Dr. Miller tell him this 
is an expensive lab to work at.
    The lab has a tremendous future. It's has a future that's 
anchored by the National Ignition Facility, but also by its 
assets in intelligence, and in nuclear counterterrorism work, 
which I think are going to be very important to the country, 
whether we have a small stockpile or a large one--nuclear 
counterterrorism work is incredibly important, and we need to 
get those resources and that work into the laboratory.
    It's an incredibly difficult decision, it's one that I do 
not take lightly, I can assure you, in this whole process. But 
I will admit, it looks strange when you look at fees going up 
at the same time workforce is having to be reduced.
    Senator Feinstein. Well, I really question this. In the 
interest of full disclosure, Mr. Chairman, my husband is 
chairman of the Board of Regents of the University of 
California. And, you know, my responsibility is a little 
different. And I would really question--and I would ask you to 
look into--why the fees would go up at a time when you have to 
lay off 500 people involuntarily, let alone 250 voluntarily. It 
doesn't seem right.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Feinstein, thank you very much.
    I'm going to submit some additional questions to all three 
witnesses.
    Senator Domenici wishes to make a final comment, and then 
I'm going to call the second panel to the witness table.
    Senator Domenici?

                      RELIABLE REPLACEMENT WARHEAD

    Senator Domenici. Thank you very much, Mr. Chairman.
    Let me say first, General, I'm sorry we didn't have any 
questions for you, but I think we'll have some, we'll submit 
them.
    I do want to say, however, that your presence and your rank 
and the fact that you are involved in very serious issues that 
confront us with reference to stockpile of the future and RTW--
you're involved heavily in that, and you have long-term 
experience and that kind of makes me wonder what we need a 
brand-new group of people appointed by some--by the Congress to 
do the study work on this $10 million program and the future of 
it, when people like you are doing that work, in a formal way, 
and are very, very well-prepared, and prepared to tell us the 
answer to most of the questions, and we won't be using you for 
awhile, until we get that report, I guess.
    But I want you to clarify for me, Mr. Administrator, I 
think I'm confused now as to what the $10 million would be used 
for?
    Mr. D'Agostino. What it would be used for?
    Senator Domenici. Yes.
    Mr. D'Agostino. The $10 million would be used to make sure 
that past work has been adequately captured. So the money that 
we've invested over the last couple of years on this activity 
doesn't get lost.
    Additionally, the money would be used to help answer the 
questions that were asked, and put forth in the fiscal year 
2008 Omnibus Appropriations Act on advanced certification. One 
of the topics in the advanced certification omnibus line, 
talked about establishing this activity in order to address the 
JASON Report concerns about Reliable Replacement Warhead.
    In order to address those concerns, we need to further 
develop and mature, one or two aspects of the design on RRW, so 
we can do that work to answer that question posed by Congress. 
We could have put that money in the advanced certification 
line, but I think what we wanted to do is make it crystal clear 
that we weren't trying to play games. These are activities that 
are associated with maturing some of the design elements to 
answer the advanced certification questions.
    Senator Domenici. All right. So, General, you're fully 
aware with this, are you not?
    General Smolen. Yes, sir, I am. And answering some of the 
JASON questions was as part of this, but there is a 
distinction. The RRW piece does refine the data that remains, 
but it's not really incurred yet.
    Senator Domenici. Yes. Well, I'm having--now that you 
talked today with me, I'm even having more difficulty 
understanding why we wouldn't be doing it. I don't want to 
argue now with the chairman, we'll argue later, but what you 
tell me it's for, it's much--it seems to me to be almost common 
sense when you're stopping this program, and you don't know how 
long before you start it up again that, some of the things 
you've described we're going to do, we ought to do.
    It has nothing to do with pushing the program ahead, it has 
to do with just tying a ribbon around it, and making sure we 
don't lose what we've done. And I don't understand the Jason 
answers as well as that, they may very well be what is 
concerning some people about this.
    But I'd like you to help me later on, on that--I don't want 
to go out on a limb in fighting with the chairman on the floor, 
or anywhere else, if I don't understand that second part. But 
if that second part is as simple as the first part, and has so 
little to do with the future of an RRW, the program, than I 
feel like, number one, is it worth taking on? If it is worth 
taking on, it's rather easy to explain.
    And I thank you both for that, and I want to repeat for the 
record, for you, Mr. Administrator, I had a lot to do with 
forming NNSA.
    Mr. D'Agostino. Yes, sir.
    Senator Domenici. I worked closely with those who tried 
hard for a number of years to find somebody who could run the 
program. And I'm very, very disturbed that those who are 
looking for somebody to run the program--including this Senator 
who is helping--had you right in the backyard while we looked 
all over the Army, the military, the security network, and we 
put people in that didn't know how to do anything. In fact, 
they had NNSA going backward. And we found you.
    And I've got to tell you, I don't only agree with the 
Senator from California about your integrity, you've got that, 
but you're doing a terrific job with a very complex 
relationship, because these three labs are complex with 
relationship of the work you do, because they're nuclear 
deterrent laboratories.
    But we want you to pay attention to their future, too.
    Mr. D'Agostino. Yes, sir.
    Senator Domenici. Because they must be around, and we want 
you to particularly be concerned about science in these 
laboratories. That's what they're for.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Dorgan. Well, Senator Domenici, you and I share a 
self-described common trait--we both lack understanding on 
this. I'm trying to understand it, as well, and you indicate 
you are.
    Senator Domenici. That's right.
    Senator Dorgan. And I would only observe, with respect to 
the RRW program, that there are a couple of things at work 
here. One is, what do we do, if anything? And number two is, 
when do we do it? And the only point I have made is there are 
larger and significant international issues that relate to our 
question about a nuclear weapons policy.
    So, we will nonetheless have a longer discussion----
    Senator Domenici. Right.
    Senator Dorgan [continuing]. Perhaps in private, perhaps in 
the subcommittee and maybe on the floor.
    Senator Domenici. And we will know what we're talking about 
before then.
    Senator Dorgan. Well, maybe not.
    But we'll enjoy it nonetheless.
    Senator Domenici. We'll try.
    Senator Dorgan. But, you know, these issues are very 
serious--very serious--and have substantial consequences, and I 
appreciate what you have said, I appreciate what Senator 
Feinstein has said, and our subcommittee will work through 
this.
    Let me thank the subcommittee--had we asked General Smolen 
a lot of questions, I know he would have answered them very 
well, he spent part of his career in Minot, North Dakota.
    General Smolen. Yes, sir.
    Senator Dorgan. So, he was fully prepared.
    We do intend to submit questions to the three of you, and 
we appreciate you being here, and ask that you would respond to 
written questions, and thank you very much.
    Mr. D'Agostino. Yes, sir.
    Senator Dorgan. I'm going to call the next panel forward--
this is a time when we have, for the first time in a long 
time--asked the directors of the three laboratories involved in 
weapons programs to come and testify before the Senate 
subcommittee.
    I want to say that I--we have done that for a very specific 
reason. I think it is important to, for us to hear directly 
from the directors of the laboratories involved in this 
important work.
    Dr. Mike Anastasio of Los Alamos is with us, Dr. George 
Miller of Lawrence Livermore is with us, and Dr. Tom Hunter of 
Sandia.
    We have invited them all and are appreciative that they've 
taken time to come to Washington, DC to present testimony. The 
entire testimony in your submitted testimony will be made a 
part of the permanent record, I would ask the three of you to 
summarize your testimony, if you will, and we will begin with 
Dr. Anastasio.
    Dr. Anastasio, why don't you proceed with your testimony 
followed by Dr. Miller, and followed by Dr. Hunter?
    You may proceed.

STATEMENT OF DR. MICHAEL R. ANASTASIO, DIRECTOR, LOS 
            ALAMOS NATIONAL LABORATORY, LOS ALAMOS, NEW 
            MEXICO
    Dr. Anastasio. Chairman Dorgan, Ranking Member Domenici, 
and other distinguished members of the subcommittee, thank you 
for the opportunity to testify about the Stockpile Stewardship 
Program. I am Michael Anastasio, the Director of the Los Alamos 
National Laboratory, and I'd like to personally thank the 
subcommittee for its strong support over very many years for 
this program that's so important to the country.
    As I look to the future, until there's a policy change, I 
must assume the Nation will continue to have a nuclear 
deterrent. And consequently, our role is to do everything we 
can to ensure that we remain confident in that deterrent for 
our national security.
    The Stockpile Stewardship Program that the country has been 
following has been the right approach. To remain confident 
while minimizing the need to ever do nuclear testing again.
    We knew this would be a hard, because the science needed 
requires advances that are well beyond anything we'd ever done 
before. And that meant new tools--experiment and computational, 
and the people who can use them.
    We've been making excellent overall progress over the last 
12 years, with many examples of remarkable accomplishments, 
even though not all of these new tools are yet in place.
    And to try to illustrate this, I thought I would just tell 
one little story as an example to illustrate. And imagine 
you're trying to understand what's going on inside a nuclear--
or a mock--nuclear weapon. And you need to take a three-
dimensional movie picture using x-rays.
    But unlike a medical x-ray, the object you're exploring is 
exploding in front of your eyes, and the length of the movie 
you're trying to take is only a millionth of a second long. And 
to make sure you can stop the action that you're watching, the 
exposure time of this image can only last for a few ten-
billionths of a second. That's DARHT, the new facility we're 
bringing online at Los Alamos, where we have just recently 
demonstrated that we can meet all, in fact, exceed, the 
technical requirements to accomplish the job I just described.
    But that's not all. Once you have this image, or this 
movie, now you have to say, well, what implications does that 
have for the overall nuclear performance of this device? And 
for that we need to be able to use computer simulations to 
predict the nuclear performance instead of doing a test.
    In the summer, the roadrunner computer that we've been 
developing with IBM, we anticipate will be the first computer 
in the world to ever achieve sustained performance of the 
petaflop, that's quadrillion calculations per second. I like a 
million billion better than quadrillion, maybe that speaks 
better. But we need a computer of that kind of horsepower.
    Senator Dorgan. Doctor, is that the same as 1,000 trillion?
    Dr. Anastasio. That is 1,000 trillion, yes sir.
    Senator Feinstein. Good for you.
    Senator Dorgan. That's much simpler.
    Dr. Anastasio. Okay, thank you.
    But whatever it is, it's that level of computational power 
that we need to try to, to try to answer that predictive 
question, what nuclear performance will we get.
    So that gives a little, I think, example of what we're 
trying to do. And there are many other accomplishments of 
outstanding science, that I describe at Los Alamos or the other 
three labs--or the other two labs.
    I think that just as a momentary sideline, I think it's 
also important to understand that this very same science, the 
tools and the people, that's being used to meet other national 
challenges, from countering proliferation and terrorism to 
global climate modeling, and alternate energy sources, the 
Stockpile Stewardship Program is the program that's putting 
that science in place.
    And if I think about the progress we've made, I think the 
most important thing, on progress in Stockpile Stewardship is 
that we now understand the status of the current stockpile, and 
the technical issues that control performance, better than we 
ever have. And that's reflected in the annual assessment 
letters that each of the three laboratory directors--and our 
predecessors--have sent in over the last 12 years.
    So, with all of this, I have confidence in the stockpile 
today. But, I am concerned about the risks to success for the 
future. And let me describe two concerns--two areas of risk.
    First, the risk to the long-term vitality of science at Los 
Alamos, to support our broad national security missions. The 
confluence of an aging infrastructure, demanding increasing 
standards for safety, security and the environment, a recent 
focus on near-term deliverables, and declining operation 
budget--operating budgets--are squeezing out science at the 
laboratory.
    My second long-term concern is the continuing accumulation 
of change to the stockpile, and these changes will increase 
performance uncertainties, and pose increasing risk in a low 
margin, legacy cold war weapons stockpile. And by following a 
remanufacturing approach in a life extension program, we 
require a cold war production complex using the technologies 
and processes which are increasingly expensive, not fully 
functional, and do not provide an agile response.
    To manage these growing stockpile risks, we should be doing 
more science, by increasing the use of our advanced tools, and 
further developing them. With a constrained NNSA budget, and 
the growing infrastructure costs, we are actually doing less 
science. The basic tenants of the Stockpile Stewardship Program 
are at risk.
    The good news is that the progress we've made in 
understanding opens up alternative paths that we could go 
forward with, rather than a life-extension program. Such a path 
could include a transformed stockpile, with increased 
performance margins, hence reducing risks.
    By also eliminating difficult materials, it could remit a 
transformed complex, further transformed than the NNSA plan is 
already outlining, and further reducing infrastructure costs.

                           PREPARED STATEMENT

    So, in conclusion, it's my view that it's time for the 
Nation to set a path for the future, and provide a commensurate 
budget that will reduce and take on addressing these risks that 
I've outlined. Los Alamos remains committed to do all we can in 
our role as a national security science laboratory.
    As so with that, I thank you for the opportunity to testify 
today, and I'd be happy to answer any questions.
    [The statement follows:]

             Prepared Statement of Dr. Michael R. Anastasio

    Chairman Dorgan, Ranking Member Domenici, and distinguished members 
of the subcommittee, thank you for the opportunity to provide a 
statement on the status and future of the Stockpile Stewardship 
Program. Today, the three directors of the national security 
laboratories are testifying before Congress about the Stockpile 
Stewardship Program for the first time since 2002 and much has happened 
in the interim.
    The Los Alamos National Laboratory remains committed to sustaining 
confidence in the United States' nuclear weapons stockpile through a 
more fundamental science-based understanding of weapons performance, 
safety, and security. I am keenly aware of the daunting technical 
challenges demanded by this mission, requiring the best science, 
engineering, and technology that we can muster. I am responsible for 
providing this set of capabilities and skills for today and, equally 
important, ensuring that they are sustainable over the long term.
    The three Department of Energy/National Nuclear Security 
Administration laboratories and their employees, working with the 
National Nuclear Security Administration production complex, are the 
basis and key driver for the successes of the Stockpile Stewardship 
Program. I personally appreciate the strong, vital support this 
subcommittee has provided over the years to enable us to execute our 
responsibilities.
    Los Alamos National Laboratory in particular has been at the 
forefront of both nuclear weapons development and the Stockpile 
Stewardship Program. As you know, beginning with its designation as 
Site Y of the Manhattan Project, Los Alamos National Laboratory's core 
mission has been to conceive, develop, and sustain the U.S. nuclear 
deterrent. Currently, 61 percent of the Laboratory's fiscal year 2008 
budget is allocated to carrying out our stockpile stewardship 
responsibilities (and associated security activities) and this mission 
is our highest priority. As a national security science laboratory, Los 
Alamos also applies this same science and engineering expertise to 
reducing threats from the proliferation of weapons of mass destruction 
and terrorism, and to provide for the Nation's energy security.
    Today, I will focus my comments on our core mission and will shape 
my remarks around three main themes:
  --A perspective on the evolution and content of the Stockpile 
        Stewardship Program;
  --An evaluation of the success of the Stockpile Stewardship Program 
        over its 12-year evolution; and
  --An assessment of the critical challenges and risks posed to 
        retaining confidence in the Nation's nuclear stockpile as we 
        look to the future.

            DEVELOPMENT OF THE STOCKPILE STEWARDSHIP PROGRAM

    My first key theme is that the Stockpile Stewardship Program has 
been the correct program for the United States, even though it presents 
extreme technical challenges.
    With the end of the cold war, the Nation was at a crossroads with 
regard to our nuclear deterrent. Was the nuclear stockpile still 
required for the national defense? How long could the nuclear test 
moratorium, which began with a decision in 1992 by the United States to 
voluntarily cease underground tests of nuclear weapons, continue?
    In 1995, the United States embarked on an ambitious effort to 
sustain the nuclear weapons stockpile without nuclear testing, an 
effort for which we could not guarantee success. Many felt that 
maintenance of adequate confidence in the stockpile required following 
the scientific method with the ability to continue at least partial 
yield nuclear tests to address the inevitable issues that would arise. 
As one of the participants, I can tell you it was a very dynamic 
period, with much expert debate within the scientific and defense 
communities that considered a range of possible options. The policy 
decision was made for a moratorium on nuclear testing coupled with 
implementation of a science-based Stockpile Stewardship Program. This 
decision was a very significant policy shift because the scientific and 
engineering capabilities needed to confidently execute this program did 
not then exist.
    Congress, the White House, the relevant executive branch agencies, 
and the national laboratories outlined a core set of requirements that 
would be needed to take on this challenge. All involved understood that 
it would take at least a decade to bring together all the complicated 
elements of the new Stockpile Stewardship Program. It was also 
understood that success was in no way guaranteed because of the 
unprecedented scale of cutting edge science needed to accomplish this 
mission.
    The approach relies upon developing, and validating through inter-
laboratory peer review, a more fundamental scientific and engineering 
understanding of the performance, safety, and security of weapon 
operations. This fundamental approach is based on a much more extensive 
range of non-nuclear above-ground testing and a vastly improved 
simulation capability--calculations with high resolution both in 
spatial description and in physical models. These calculations are 
necessary for addressing issues requiring extrapolation beyond tested 
regimes. The existing nuclear test database is used as a crucial 
resource for challenging the validity of these improved simulations. 
Ultimately, expert judgment and rigorous peer review assures that 
critical conclusions are drawn from the best available data, 
appropriate high-resolution simulation outputs, and results from the 
suite of evolving testing capabilities. Sound science is always at the 
core of our confidence.
    In addition, enhancements to our weapon surveillance tools to 
accurately characterize the status of the weapons and the continued 
support of the production complex to extend the life of aging weapons 
were critical. The Stockpile Stewardship Program was described not as 
something with a fixed end-point, but as a new way of maintaining the 
Nation's nuclear weapons deterrent into the future.
Tools of Science-Based Stockpile Stewardship
    With the loss of the ability to test the integrated operation of a 
weapon, more technically sophisticated and more frequent non-nuclear 
above-ground tests were essential. We judged at the time that these 
tests should include at a minimum:
  --subcritical experiments to elucidate the dynamic behavior of 
        plutonium driven by high explosives (now proceeding at the U1a 
        facility at the Nevada Test Site);
  --advanced radiographic experiments with multiple images and enhanced 
        spatial resolution to provide multiple sequential views of 
        high-explosive implosion dynamics with very fine detail (e.g., 
        Dual Axis Radiographic Hydrotest Facility);
  --ignition experiments to explore the fusion process crucial to the 
        operation of modern warheads (e.g., National Ignition 
        Facility); and
  --enhanced surveillance tools for destructive and nondestructive 
        testing and analysis to characterize the status of the 
        stockpile.
    At the same time, we judged that our computer simulations would 
need to be enhanced at least 1 million times in order to incorporate 
the known physics and scientific resolution. We judged that this 
computational requirement was the minimum necessary to model subsystem 
behavior and predict integrated weapons safety, reliability and 
performance without underground testing.
    All of these capabilities were first-of-a-kind, requiring technical 
advances beyond the existing state of the art at the time. Because of 
technical challenges and funding limitations, all of these needed 
capabilities are still not yet fully in place 13 years later.
Production Complex and Life Extension Programs
    Hand in hand with all the above capabilities was the need to have a 
production complex, working together with the laboratories, which could 
respond to any potential issues discovered through the weapons systems 
surveillance process. In addition, weapons would be returned for 
remanufacture to their original specifications in order to extend their 
life into the future so that they would regain their original 
characteristics. This requires the full suite of cold war production 
capabilities.
    I am convinced that the Stockpile Stewardship Program has been the 
right program for the United States. What the Nation committed to over 
a decade ago is a very challenging set of integrated scientific 
capabilities that provide a means to validate the reliability of our 
strategic deterrent. For success, a balanced funding profile, between 
near-term actions and long-term capability investment was needed. A 
compromise of any one of the Stockpile Stewardship components will have 
significant consequences on the overall program. We have been able to 
sustain confidence in the nuclear deterrent through a program whose 
elements were beyond the state of the art at the program's inception--a 
remarkable testament to the people throughout the National Nuclear 
Security Administration complex.

          THE STOCKPILE STEWARDSHIP PROGRAM HAS BEEN A SUCCESS

    My second key theme is that the Stockpile Stewardship Program has 
been extremely successful since its inception.
Annual Assessment
    President Clinton stated on August 11, 1995, ``In this regard, I 
consider the maintenance of a safe and reliable nuclear stockpile to be 
a supreme national interest of the United States. I am assured by the 
Secretary of Energy and directors of our nuclear labs that we can meet 
the challenge of maintaining our nuclear deterrent under a CTB through 
a science-based stockpile stewardship program without nuclear 
testing.''
    For the 12th consecutive year in September 2007, the Laboratory 
Directors each signed their annual assessment letter reporting that 
there was no requirement for nuclear testing at this time to maintain 
the certification. I have had the honor to be involved each of these 12 
years, personally signing a letter on five occasions. Today, these 
letters also include the additional assessments required by section 
3141 of the Fiscal Year 2003 National Defense Authorization Act.
    My 2007 assessment was based on the following comprehensive data 
set analysis:
  --The details contained in the joint Los Alamos National Laboratory--
        Sandia National Laboratories 2007 annual assessment report 
        based on the ongoing theoretical, analytical, experimental, and 
        computational activities throughout the year.
  --Assessments by applicable Los Alamos National Laboratory technical 
        experts and managers on the adequacy of science-based tools and 
        methods, tools and methods employed by the manufacturing 
        infrastructure, and nuclear test readiness.
  --An evaluation of the health of the stockpile by my Director's Red 
        Team for annual assessment, an independent group of technical 
        experts from Los Alamos National Laboratory, Lawrence Livermore 
        National Laboratory, and Sandia National Laboratories.
  --The extensive and detailed technical reviews that I personally 
        conducted of each warhead with technical experts on the Los 
        Alamos National Laboratory warhead design and engineering 
        teams.
    Equally important, I assessed the current status of each weapon's 
nuclear package, the health of the overall Stockpile Stewardship 
Program, and the areas of significant risk.

Life Extension Programs
    For most stockpile issues, the application of the Stockpile 
Stewardship Program tools has allowed the laboratories to resolve 
anomalous conditions with no impact to safety, reliability, or 
performance. For other issues that cannot be resolved in a timely 
manner through the Stockpile Stewardship Program, the following options 
are available:
  --exceptions, limitations, or changes to the Military Characteristics 
        or Stockpile to Target Sequence;
  --component replacement or warhead refurbishment;
  --introduction of more robust components that sustain the reliability 
        of the stockpile;
  --selective retirement of individual warheads or a warhead type;
  --decertification; or
  --nuclear testing.
    In the past, all of these options have been employed. Today, we 
routinely use all options except decertification or nuclear testing to 
maintain the certification of warheads in the stockpile. In particular, 
we have completed the W87 Life Extension Program (LEP), achieved first 
production units on Alt 357 for the B61-7 and B61-11, as well as 
numerous smaller changes to gas transfer systems and non-nuclear 
components or subsystems to allow us to extend the life of these 
systems where possible. The first production unit for the W76-1 was not 
achieved on schedule as a result of a difficult materials production 
issue. Los Alamos National Laboratory is providing significant on-site 
technical assistance and coordination between the plant and Laboratory 
materials experts. The Laboratory also is working with the National 
Nuclear Security Administration to develop a recovery plan consistent 
with Department of Defense needs.

Reestablishing Pit Capacity
    In 2007, Los Alamos National Laboratory produced the first war 
reserve pit manufactured in the United States since the Rocky Flats 
Plant was closed in 1989. By the end of fiscal year 2007, the 
Laboratory had manufactured 11 W88 pits (one more than required) and 
delivered 6 pits to the Pantex Plant for use in stockpile warheads. One 
of these has been assembled into a war reserve W88 warhead with the new 
4T Terrazzo gas transfer system. The 4T was delivered for use and 
certified over 1 year ahead of schedule, a remarkable achievement that 
reflected excellent coordination among all sites in the nuclear weapons 
complex. As W88 warheads with Los Alamos National Laboratory 
manufactured pits enter the stockpile, warheads returned for 
surveillance will be available for disassembly and inspection, 
correcting a long-standing weakness in the W88 surveillance program.

Advanced Simulation and Computing (ACS)
    Of all of the elements of the original Stockpile Stewardship 
Program this area has shown the most progress. Los Alamos, Lawrence 
Livermore, and Sandia National Laboratories have led the way in 
developing the world's fastest supercomputers and then harnessing that 
power into tools needed to simulate our baseline weapons performance. 
This capability allows us to integrate our component level 
understanding into overall system performance. We have already enhanced 
our computing speed by more than a factor of one million with the ASC 
Purple machine at Livermore. The return on investment in this area has 
been high for the United States. For example, we are now able to 
confront the most challenging weapons physics questions that have 
plagued us for decades.
    Los Alamos National Laboratory, in a partnership with IBM, has 
completed the installation of the first phase of the Roadrunner 
supercomputer for computations in support of national security science. 
Roadrunner is expected to become the world's first system to achieve a 
sustained performance level of a petaflop--a quadrillion calculations 
per second--early this summer. All three National Nuclear Security 
Administration laboratories will use Roadrunner for advanced physics 
simulations and predictive simulations of complex scientific processes.

Advanced Radiographic Experiments
    Beginning in December 1999, warhead designers were able to see the 
clearest views ever made of the inside of an imploding, mock-weapon, 
test object with the successful operation of the first axis of the Dual 
Axis Radiographic Hydrotest Facility (DARHT). The images helped to 
validate new descriptions of high-explosive driven physics used in 
computer simulations of weapons performance.
    With the advent of the Stockpile Stewardship Program, the decision 
was made to enhance the capability of the DARHT second axis to a 4-
pulse machine. This enhancement required a completely new accelerator 
design that went far beyond what had ever been attempted before. Now in 
2008, DARHT has met, and in many cases far exceeded, all of its 
technical requirements and expectations. We expect that this month it 
will officially become ``dual'' with the formal completion of the 
project for the second axis, adding both new capability and higher 
energy to this unique accelerator facility. The first use of this full 
capability in an implosion test of a mock weapon will take place later 
this year. The ability to produce multiple pulses with varied 
intensities in a preset time sequence allows warhead designers to 
specify what they want to see and DARHT will be able to deliver.

Ignition Experiments
    The National Ignition Facility (NIF) is a critical piece of the 
Stockpile Stewardship Program and, arguably, is the most complicated 
and complex part. Developing a more detailed understanding of the 
fusion reactions that take place inside a weapon system remains one of 
the great challenges in the field of weapons science. Until the 
National Ignition Facility becomes operational, significant 
uncertainties will remain. I understand how difficult this project has 
been and am also acutely aware of the immense contributions that the 
full capacity of NIF will make to the overall Stockpile Stewardship 
Program. My conversations with Director Miller lead me to believe that 
this project is tantalizingly close to fruition.

Stockpile Surveillance
    The weapons in the stockpile are not static. The chemical and 
radiation processes inside the nuclear physics package induce material 
changes that limit weapon lifetimes. We are seeing significant changes 
that are discussed in detail in my Annual Assessment letter.
    The improvement in efficiency at Pantex helped us understand the 
present state of the stockpile and has greatly reduced our disassembly 
backlogs. This improvement allows us to get up-to-date technical 
information on the condition of weapon materials. We use the 
stewardship tools to evaluate the changes that continue within the 
stockpile. Using more detailed data from enhanced surveillance tools, 
we now have a better understanding of the major sources of stockpile 
issues:
  --Birth Defects.--Flaws introduced into the warhead resulting from 
        the manner in which it was produced, manufactured, or 
        assembled;
  --Design Limitations.--Warhead design decisions that were made that 
        limit conditions under which a warhead can reliably operate 
        because of incomplete scientific understanding of physics 
        performance; and
  --Aging Effects.--Changes in the stockpile that constantly take place 
        and reduce the operating ranges or reliability of the 
        warheads--effects that will continue to grow as the stockpile 
        ages.
    Los Alamos and the nuclear complex continue to make great strides 
in being able to both discover and correct these problems through 
advanced surveillance and nondestructive testing. As potential concerns 
are discovered, commonly referred to as SFIs or significant finding 
investigations, we are now able to use our new tools to rapidly assess, 
simulate, and model potential effects. At Los Alamos, we have 
dramatically reduced the number of open, unresolved SFIs over the last 
few years. Further, we are using our increased understanding to reduce 
the sampling rate for surveillance, while focusing on the important 
aspects for each warhead system.

Other National Security Applications of Stockpile Stewardship Tools
    Additional important national benefits derive from these 
capabilities. Los Alamos applies this same science and engineering 
expertise to reduce threats from the proliferation of weapons of mass 
destruction and terrorism, and to provide for the Nation's energy 
security. The Laboratory works on the front lines and behind the scenes 
to prevent the use of nuclear or radiological materials as threats to 
national or international security. The Nuclear Nonproliferation 
Program and its predecessors originated nuclear safeguards and created 
most of the technology used to monitor and measure nuclear materials to 
assure their use in legitimate, peaceful purposes.

Recent Los Alamos Threat Reduction Accomplishments
  --We delivered the fully integrated Cibola Flight Experiment space 
        vehicle for launch with an orbiting computer capable of 
        performing more than 1 trillion operations per second. This 
        matches the performance of the best supercomputers from a 
        decade ago, yet weighs only 40 pounds and requires only 80 
        watts of power.
  --We rapidly and effectively supported the national response to the 
        North Korean nuclear test. We provided the sole technical 
        support from the Department of Energy at the Six-Party talks in 
        Beijing on implementation of the North Korean denuclearization 
        commitments.
  --We recovered more than 1,750 U.S.-origin radiological sources in 
        fiscal year 2007, including the first-ever disposal of Radium-
        226 sealed sources.

Recent Los Alamos Science and Energy Security Accomplishments
  --We garnered over 102 major science awards from major external 
        organizations.
  --We developed the first high-resolution climate model for ocean 
        circulation that allows us to better understand climate effects 
        like El Nino and La Nina.
  --We completed the 100th genetic sequence for the Joint Genome 
        Institute.
    These accomplishments represent a different application of the 
science underlying our core nuclear weapons mission. For example, many 
of the same people who would help us deal with potential nuclear 
terrorism incidents are our experts from the nuclear weapons program. 
Our global climate change expertise developed out of our need for 
knowledge on nuclear winter effects tied to the nuclear weapons 
program, and our supercomputer expertise was developed to simulate 
nuclear explosions. The dual-use aspects of our scientific capabilities 
allow for greater national return on investments, discovering other 
important applications for the stockpile stewardship tools. This 
broader use can often enhance their application for our core mission.
    Even though all the elements of the Stockpile Stewardship Program 
are not yet in place and there are certain science processes that we do 
not understand yet, it is clear that there have been and continues to 
be significant accomplishments emanating from the scientists and tools 
of this program. This program has allowed us to sustain the necessary 
level of confidence in the stockpile. At the same time, we have much 
greater insight into the risks we face for the future.

  INCREASING RISKS TO THE FUTURE SUCCESS OF THE STOCKPILE STEWARDSHIP 
                                PROGRAM

    Today I have confidence in the United States nuclear deterrent and 
believe that within the next few years we will put in place the 
essential tools we envisioned at the outset of the Stockpile 
Stewardship Program. But I have increasing concerns as I look to the 
future. The stockpile continues to change because of aging and the 
necessity to remanufacture cold war weapons through the Life Extension 
Program approach. The accumulation of these changes, whose combined 
effects are difficult to quantify, will increase our uncertainties and 
pose increasing risk.
    At the same time, there are ever-increasing standards imposed by 
environmental management, safety, and security requirements driving up 
the costs of the overall infrastructure. When coupled with a very 
constrained budget, the overall effect is exacerbated, restricting and, 
in some cases eliminating, our use of experimental tools across the 
complex. This puts at risk the fundamental premise of Stockpile 
Stewardship. At a time when our uncertainties are increasing, we should 
have a more vigorous program of non-nuclear, above-ground testing 
development and use, capabilities that allow us to validate and augment 
our developing predictive simulation tools. Regrettably, we are moving 
in the opposite direction.

         TOUGH CHALLENGES AHEAD--LOS ALAMOS NATIONAL LABORATORY

    I will first address specific challenges at Los Alamos National 
Laboratory. The risks at Los Alamos are similar to those that we face 
nationally.

Commitment to Science
    Although available science-based tools and methods, both the large-
scale facilities discussed above and the laboratory-scale capabilities 
that are the workhorse of our programs, have been adequate to address 
current issues in the stockpile, use of these tools is particularly at 
risk.
    Los Alamos is one of the oldest sites in the nuclear complex whose 
facilities are difficult to maintain. Several of our aging facilities 
are nuclear facilities with extremely demanding standards for the 
environment, safety, and security. At the same time, the National 
Nuclear Security Administration's preferred alternative for complex 
transformation designates Los Alamos as the national center for 
plutonium R&D and production, further concentrating nuclear operations 
on our site. This increased responsibility for nuclear facilities and 
operations must be viewed in the context of a reduction in purchasing 
power of approximately half a billion dollars over the last 5 years 
Moreover, from our preliminary planning discussions with the National 
Nuclear Security Administration, we anticipate further erosion of our 
purchasing power by about $400 million over the next 5 years, assuming 
inflation and a flat level of appropriated dollars.
    The growing costs of our infrastructure in this declining budget 
environment puts science at risk, especially our ability to execute and 
develop large-scale and laboratory-scale experiments. As the questions 
arise from a stockpile that inevitably continues to undergo change, we 
will be increasingly constrained in our ability to gather the data 
essential to assess those changes and to assure the efficacy of the 
recommended actions that must be made.
    There are equally important consequences for the long term as well. 
All of the above near-term pressures constrain our ability to renew our 
aging infrastructure, which becomes more expensive to maintain the 
longer this renewal takes. Nationally, the program has become more 
focused on implementing near-term solutions at the expense of longer-
term investments. The overall risks in the Stockpile Stewardship 
Program will be growing in the future. A balance of long-term 
investments in science and engineering with near-term actions will best 
serve the success of the program.

Commitment to the Scientists
    Key to the ability of Los Alamos to respond to national needs over 
the long term is maintaining our technical skills--our people make us a 
premier national security science laboratory. We must be able to 
recruit and retain the best and brightest scientific talent. Los 
Alamos, like all the other national laboratories, draws and retains 
scientists because of the unique capabilities and opportunities we 
offer.
    Part of what attracts people to a science laboratory such as Los 
Alamos, are the unique capabilities that are hard to find elsewhere. 
LANSCE, our neutron accelerator, has been a prime example of such a 
capability. Part of the future that we see for this facility is to 
transform it into the world's premier materials science and test 
capability, Matter-Radiation Interaction in Extremes (MaRIE). MaRIE 
will be designed to create and exploit extreme radiation fluxes and 
probe matter to achieve transformational materials performance through 
predictive multi-scale understanding. This facility would draw 
scientists to Los Alamos because it would represent a one-of-a-kind 
user facility whose scientific and practical applications could not be 
duplicated, and it would also be a key facet to the weapons program. 
When coupled with modern facilities and equipment and our role as a 
high-performance computing center (Roadrunner is the latest example), 
this facility would help ensure our access to the best scientific 
talent well into the future.
    Because there is no advanced training program for nuclear weapons 
physics and engineering at our colleges and universities, the National 
Nuclear Security Administration laboratories need the right tools to 
attract scientists and engineers from the traditional disciplines and 
then teach them the true art of what we do. Without the continuing 
commitment to exceptional science, Los Alamos National Laboratory will 
not be able to provide the incredible diversity and depth of talent we 
require.

Commitment to Modern Facilities
    Los Alamos is one of the oldest sites in the nuclear complex. With 
many old, high-consequence mission facilities, our Laboratory is very 
expensive to maintain. The Laboratory's main focus for infrastructure 
reinvestment priorities is replacing the Chemistry and Metallurgy 
Research building (CMR) and refurbishing our LANSCE accelerator 
facility. The CMR building was built in the late 1940s and early 1950s 
to support scientific research of plutonium and other actinide 
elements. But after more than 50 years of service, it will be very 
difficult for the CMR to continue to meet modern safety, security, and 
operational requirements. Several sections have been closed to help 
manage risk, and the remaining laboratory space is harder and more 
expensive to use. As part of the National Nuclear Security 
Administration's preferred alternative for complex transformation, the 
CMR would be replaced by a new facility called the Chemistry and 
Metallurgy Research-Replacement (CMR-R) project.
    The CMR-R project will include two buildings, one a light lab and 
administration building and the other a high-security R&D and storage 
building. Together these two structures will have a smaller footprint 
then the old CMR facility, and will be safer and more secure. The first 
phase of the CMR-R project, currently under construction, is the 
Radiological Laboratory Utility Office Building (RLUOB), a modern 
laboratory facility that will include 19,000 square feet of laboratory 
space, offices for 350 people, and a training facility. The second 
phase of the CMR-R project is the Nuclear Facility and construction 
will begin in the first quarter of 2010. The Nuclear Facility is being 
designed to provide 22,000 square feet of laboratory space, mostly 
dedicated to plutonium research, and will include a vault capable of 
storing 6 metric tons (6,000 kilograms) of plutonium. Neither the RLUOB 
nor the Nuclear Facility will manufacture pits. Regardless of whether 
the Nation elects to sustain the existing stockpile or transform it to 
a different configuration, congressional support of the CMR-R will be 
essential to conduct the fundamental research that supports the use of 
actinides in weapons and in other critical applications.
    As I mentioned earlier in my statement, the Laboratory has 
developed a plan to sustain our long-term scientific capability in 
materials science through the experimental facility MaRIE. This plan 
could realistically take about a decade to reach full completion. A 
critical first step in evolving LANSCE, a fully functional but aging 
facility, into the MaRIE capability would be to start refurbishing the 
base accelerator within the next year with the help of Congress. 
LANSCE-R, as we refer to the refurbishment project, is an immediate 
critical step if Los Alamos is to continue using this facility for our 
classified weapons research activities. LANSCE is the only facility of 
its type in the country that can support both classified weapons 
research and unclassified scientific experiments. The weapons program 
relies heavily on capabilities derived from LANSCE, such as proton 
radiography, to interrogate fundamental physics cross-sections, the 
properties of various classified subsystems, and materials under 
extreme conditions.

Controlling Costs while Maintaining Mission Capability
    I believe it is incumbent on my management team to focus on 
aligning overall costs with the mission requirements while at the same 
time finding efficiencies for more effective use of overall 
programmatic funding. At Los Alamos, we are actively working to reduce 
our physical footprint by roughly 2 million square feet (over one-
quarter of the reduction has been completed in the last year and a 
half). We have internally absorbed the higher operating costs 
associated with the new contract structure. At the same time, we are 
providing significant leadership in the National Nuclear Security 
Administration's effort to achieve complex integration. Los Alamos is 
also working with the National Nuclear Security Administration and the 
Department of Energy in developing a third-party financing proposal to 
build a new science complex to help further consolidate our overall 
facilities footprint. This proposed new facility would eliminate over 
450,000 square feet of existing substandard scientific space and house 
over a 1,500 scientific staff in the main Technical Area of the 
Laboratory.
    The Laboratory has also had to make tough decisions and significant 
reductions in overall staffing levels. Since the beginning of fiscal 
year 2006, the Laboratory's total headcount has been reduced by over 
2,100 individuals, about 46 percent of whom were part of the technical 
workforce. Matching the Laboratory's workforce to the size of our 
budget is my responsibility, but I am deeply concerned that with the 
loss of mission experienced scientists and engineers and the current 
budget outlook Los Alamos' ability to execute our mission is at risk 
for the future.
    In summary, it is my view that it is in the national interest that 
we continue to develop and nurture the Laboratory's scientific talent 
and to invest in and rebuild our infrastructure in order to preserve 
Los Alamos National Laboratory as a premiere scientific institution. To 
achieve these critical outcomes, we need the help of Congress to ensure 
a stable, forward-looking, balanced budget profile to plan for the 
future.

   CRITICAL CROSSROADS FOR THE NATIONAL STOCKPILE STEWARDSHIP PROGRAM

    Since the moratorium on nuclear testing began in 1992, the 
Stockpile Stewardship Program has successfully maintained the nuclear 
weapons stockpile; however, it has become increasingly difficult and 
costly to sustain our legacy stockpile, manufactured in the 1960s, 
1970s, and 1980s through refurbishment projects. The full cold war 
infrastructure required to support the older technologies and processes 
embodied in weapons developed during the cold war is expensive, not 
fully functional, and does not provide an agile response to evolving 
needs. The overall cost of the weapons complex is dominated by growing 
infrastructure costs, relatively independent of the number of weapons 
in the stockpile.
    The continuing accumulation of small changes from stockpile fixes, 
life extension activities, and aging--with combined effects that are 
difficult to quantify--will result in larger performance uncertainties 
and pose increasing risk to the certification of low-margin legacy 
warheads.
    With growing costs of the full cold war infrastructure and the 
prospects for a declining budget, it is becoming more difficult to 
maintain, use, or enhance the Stockpile Stewardship tools we have put 
in place. At the same time, there is a continued decline in the number 
of people in the complex who have direct experience with the design, 
manufacture, and testing of an actual weapon. Yet with the increasing 
risk to certification noted above, we should be moving in the opposite 
direction. To assess the impact of larger performance uncertainties 
with low-margin warheads we need a more detailed technical 
understanding of key, fundamental, technical issues to manage these 
uncertainties. This requires the more frequent use and further 
development of advanced laboratory-scale and large-scale capabilities 
and the simulation tools that can predict these results. The 
combinations of these factors cause me to conclude that the basic 
tenets of the Stockpile Stewardship Program are at risk.
    With increasing risks to certification, I urge us to implement a 
more comprehensive inter-laboratory peer review process as part of 
Annual Assessment. Only one design laboratory would have certification 
responsibility for each nuclear package, but all the information for 
each would be readily available to both design laboratories. This would 
include, for example, the original nuclear test data, and all current 
data from surveillance and non-nuclear testing. Each would then execute 
a comprehensive assessment of the current nuclear package status and 
share that with the certification responsible design laboratory that 
would inform their final assessment. This approach is a near-term step 
that could mitigate the increasing certification risks and also provide 
more opportunities to build workforce expertise at both laboratories. 
In the past 2 years, Lawrence Livermore and Los Alamos have taken a 
step in this direction where the two directors are jointly briefed on 
the status of all the nuclear packages.
    The Stockpile Stewardship Program has provided a much better 
understanding of both the stockpile status and the key technical issues 
that control performance and reliability. This insight has opened up 
the possibility of alternate paths forward beyond the current Life 
Extension Program approach. Such a path could include a transformed 
stockpile with increased performance margins, reducing risk. By also 
eliminating difficult materials it could permit a transformed complex, 
reducing infrastructure costs. It is clear to me that it is time to 
start making decisions about how to best accomplish this 
transformation.
    Los Alamos fully supports the National Nuclear Security 
Administration in the development of a more cost-effective, lower-risk, 
and more responsive nuclear weapons complex infrastructure. A 
replacement warhead strategy, such as the Reliable Replacement Warhead 
concept, would have greater margin against performance uncertainties 
and would use design options with materials and components that would 
be less complex, safer, more secure, and easier to manufacture and 
maintain. Additionally, if the Department of Defense can have greater 
confidence in the National Nuclear Security Administration complex and 
its products, then that could lead to even further reductions in the 
stockpile.

                           CONCLUDING REMARKS

    Los Alamos National Laboratory is committed to providing our 
technical expertise as part of the national effort to sustain 
confidence in a viable nuclear deterrent, while minimizing the risk for 
a return to nuclear testing, with the smallest number of weapons 
consistent with national policy goals.
    The Stockpile Stewardship Program has been the right approach for 
the United States. We knew at the outset that it would be a very 
challenging program as the required scientific capabilities 
necessitated advances beyond the existing state of the art. There was 
no guarantee of ultimate success.
    Over the last decade, there has been excellent overall progress 
with many examples of remarkable accomplishment. Among them is a much 
better understanding of the status of the current stockpile.
    I am concerned about the risks to success for the future. First, 
the long-term vitality of science at Los Alamos to support our national 
security missions is at risk. Second, the continuing accumulation of 
changes to the stockpile will increase performance uncertainties and 
pose increasing risk in low-margin legacy cold war designs.
    It is time for the Nation to set a path for the future that will 
address these risks.
    Thank you for this opportunity to testify. I would be pleased to 
answer any questions you may have.

    Senator Dorgan. Director Anastasio, thank you very much.
    Next, Director Miller?

STATEMENT OF DR. GEORGE H. MILLER, DIRECTOR, LAWRENCE 
            LIVERMORE NATIONAL LABORATORY, LIVERMORE, 
            CALIFORNIA
    Dr. Miller. Thank you very much, Chairman Dorgan, for 
inviting me here and giving me the opportunity to give you my 
perspective of the health of the Nation's nuclear weapons 
program. I'd especially like to thank Senator Domenici, and 
personally thank him for his many years of leadership and 
service to this Nation, and importantly, for his extensive and 
exceptional stewardship of this country's science and 
technology and nuclear affairs, broadly.
    I'm also very pleased that Senator Feinstein is here, and I 
thank her very much for her continuing support of the 
laboratories broad mission.
    I'd like to summarize just a couple of points from my 
written testimony. Through Stockpile Stewardship, this Nation 
has been able to maintain an increasingly small nuclear 
deterrent, without nuclear testing. But the job's not done.
    I'm concerned that the investments that have brought us to 
this point are at risk. As you and several members of the panel 
have pointed out, the country needs to make a series of 
decisions about the overall structure of the nuclear weapons 
program, and the policies associated with it. It is my view 
that--independent of the policy that we move forward--the 
science and technology embedded in the Science-based Stockpile 
Stewardship is necessary to succeed, because it is the 
intellectual underpinning for any decision.
    I'm extremely proud of the contributions that Livermore has 
made to bringing the Stockpile Stewardship Program to this 
point. The W87 life extension program was the first life 
extension program certified without nuclear testing.
    Through the Livermore, IBM, NNSA partnership, we have 
successively produced the world's largest computers, currently 
BlueGene/L at Livermore is 500 teraflops, half a petaflop.
    Weapons simulations using these computers have shown us 
that there's much about the inner workings of a nuclear weapon 
that we do not yet understand, and they've pointed the way to 
the scientific capability that's necessary to continue to be 
able to certify the stockpile.
    The national ignition facility is already the world's 
largest and most powerful laser, and it will be completed 
within a year. It will shortly bring fusion experiments, and 
the science of the cosmos to the laboratory. It's critical to 
enabling us to answer some of the most fundamental questions 
that we have about nuclear weapons performance.
    Since the project was re-baselined about a decade ago, the 
NIF has been on-budget, on-schedule, and met all of its 
milestones. I thank the committee for its role in allowing NIF 
to move forward. I think you can take great pride in its 
accomplishments.
    But the job of Stockpile Stewardship is not complete. The 
weapons are continuing to age, and the experienced weapons 
scientists are continuing to age. Some of the tools are just 
now coming online, they have yet to be applied to the full 
spectrum of problems that need to be resolved. As Mike said, 
DARHT has just recently been completed, it needs to be applied 
to the stockpile.
    The simulations done on the BlueGene/L have pointed out 
that we need tens of petaflops sustained to be able to 
accurately understand what's going on in a nuclear weapon. NIF 
is not yet complete.
    To ensure better confidence as we move forward, I believe 
it's important that we implement a more comprehensive peer 
review, whereby Livermore and Los Alamos more fully evaluate 
the entire stockpile each year, and it's essential that we 
complete this job.
    I think we understand what the laboratories----
    Senator Domenici. Would you repeat that again, please?
    Dr. Miller. Yes, sir.
    I believe that we should implement a more comprehensive 
peer review, whereby Livermore and Los Alamos each year would 
more fully evaluate all of the stockpile, rather than just the 
systems for which they own have responsibility.
    I think our job as laboratory directors is to provide 
technical options that can inform policy goals of the United 
States. To provide a weapons complex that's sustainable into 
the future, that has the smallest number of weapons consistent 
with policy goals, has the least costly weapons complex, and 
minimizes any need to return to testing.
    As I look into the future, I'm concerned that the 
investments that have brought us to this point are not 
sustained. If they are not sustained, I believe a crisis in 
confidence will result.
    Without a fully developed science and technology program, 
we will lose confidence in the stockpile, whether we have a 
life extension program, or some other. I believe we are seeing 
the signs of this concern borne out already, the critical 
investments in the accelerated super-computing initiative have 
already begun to decline. We are not able to fully utilize the 
experimental facilities that we have built.
    The effects are already being felt at Livermore, with the 
reductions associated with last year's Federal budget, and the 
costs associated with the contract. By the end of this fiscal 
year, Livermore will have reduced its population by more than 
2,000 people from the beginning of fiscal year 2007.
    I believe that the Stockpile Stewardship Program is at a 
cusp of being able to ensure confidence in the stockpile 
without nuclear testing. I believe we can be successful if we 
push forward, I believe we can fail if we stop.
    The weapons labs are centers of big science in this 
country. The resident expertise is being applied to the 
pressing problems of this country, of securing the Nation's 
defense and energy, and environmental and economic security.
    Nuclear weapons expertise is critical to intelligence and 
understanding the problems of proliferation and terrorism. 
Nuclear weapons expertise is critical to the issue of 
understanding nuclear forensics. As a result of the scientific 
investments made by the Department of Energy and this 
subcommittee, these labs provide value to the country, well 
beyond nuclear weapons, in areas that I believe are the 
defining issues of this century.

                           PREPARED STATEMENT

    We're doing a lot, but we can do more. All that we do is 
dependent upon the vital core of the nuclear weapons program. 
As you forward through the difficult decisions ahead of you, I 
ask that you think in terms of sustainment--sustaining and 
protecting what is most critical, and applying these critical 
resources to our country's, and the globe's, most defining and 
important problems.
    [The statement follows:]

               Prepared Statement of Dr. George H. Miller

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide my perspectives on the fiscal year 2009 budget 
request as well as the health of the country's nuclear weapons 
stockpile and nonproliferation programs. I am the Director of the 
Lawrence Livermore National Laboratory (LLNL), a multidisciplinary 
national security laboratory with major responsibilities in nuclear 
weapons. My responsibility--and today's critical challenge--is to help 
enable a nuclear weapons program that is sustainable into the future 
with the smallest number of weapons and the least costly weapons 
complex consistent with policy goals and that minimizes the risk of 
needing to return to nuclear testing.
    Because this is a time of significant change for the National 
Nuclear Security Administration's (NNSA's) nuclear weapons complex and 
our Laboratory, I open my statement with my perspective of the broad 
challenges we face. I then briefly highlight Livermore's 
accomplishments in NNSA programs and specific issues related to our 
activities. I conclude with summary remarks about my future vision for 
the Laboratory.
    But first, I want to thank the Congress and especially this 
subcommittee for your continuing strong support of the Stockpile 
Stewardship Program and our important and technically demanding 
programs to reduce the dangers of proliferation of nuclear weapons. The 
Stockpile Stewardship Program continues to make excellent technical 
progress, but it is not yet complete and faces challenges in the years 
ahead. Critical decisions have to be made about the future of the U.S. 
nuclear stockpile and the weapons complex. Independent of specific 
choices made, it is clear that a strongly supported and sustained 
Stockpile Stewardship Program is necessary to ensure that this Nation 
can maintain the safety, security, and reliability of its nuclear 
deterrent over the long term. I support NNSA's goal of transforming the 
nuclear weapons complex to make it smaller, safer, more secure, and 
more cost effective. I recognize the realities that constrain the 
overall budget as we attempt to create a nuclear enterprise appropriate 
to the post-cold war era.

          CHALLENGES FACING THE NNSA WEAPONS COMPLEX AND LLNL

    Lawrence Livermore National Laboratory serves NNSA and the Nation 
by applying multidisciplinary science, engineering, and technology to 
meet urgent challenges to national security and global stability. Since 
the Laboratory's inception in 1952, a special national security 
responsibility has been ensuring that the Nation has a safe, secure, 
and reliable nuclear weapons stockpile. In addition, Livermore provides 
advanced technologies, integrated analyses, and operational 
capabilities to prevent the spread and use of weapons of mass 
destruction and strengthen homeland security.
    Our special multidisciplinary capabilities are also applied to 
strengthen global security through research and development for 
advanced defense systems, abundant energy and environmental quality, 
biotechnology to improve human health, U.S. industrial competitiveness, 
and basic science. These activities--many directed toward finding 
innovative solutions to the great challenges of the 21st century--both 
derive from and depend on the core nuclear weapons science and 
technology and also contribute to supporting the science and technology 
required for our nuclear weapons mission.
    Livermore is an integral part of NNSA's Stockpile Stewardship 
Program and committed to helping the Nation transform the U.S. nuclear 
weapons complex and stockpile to meet 21st century deterrence needs. We 
need an affordable nuclear weapons complex; the smallest nuclear 
deterrent force consistent with policy goals; and a sustainable nuclear 
weapons program that provides confidence in the safety, security, and 
reliability of stockpile and minimizes the risk of the need for nuclear 
testing.
    The Stockpile Stewardship Program was a very ambitious undertaking 
when launched a little over a decade ago. To date it has been highly 
successful in its two major goals. First, we had to develop and use 
vastly improved tools to much better understand nuclear weapons 
performance. I am proud of our tremendous accomplishments in this area. 
Great progress has been made and even more will come with quadrillion-
operations-per-second (petascale) computers and high-fidelity 
simulations and the capability, beginning in 2009, to conduct 
thermonuclear weapons physics experiments at the National Ignition 
Facility (NIF). These tools are critically important to maintain 
confidence in our deterrent without nuclear testing. Second, we have to 
sustain the expertise--people--to ensure that the U.S. nuclear 
stockpile remains healthy by applying our improved understanding of 
weapons performance to deal with issues that arise in aging weapon 
systems without resorting to nuclear tests. So far, we have been able 
to do that. The first weapon system to successfully complete a life-
extension program under the Stockpile Stewardship Program without 
nuclear testing was Lawrence Livermore's and Sandia's W87 ICBM warhead. 
Although the job is not over, I remain confident that science-based 
stockpile stewardship will continue to be a technical success provided 
that the Nation continues its investments in the science-based 
programmatic activities.
    Budgets for NNSA nuclear weapons activities are tight and likely to 
remain so. As I look to the future, I am very concerned that the 
investments that have brought success to science-based stockpile 
stewardship might not be sustained. Over the longer term, failure to 
sustain investments in stockpile stewardship will result in loss of the 
expertise, capabilities, and activities that underpin the Annual 
Stockpile Assessment and certification of weapon modifications. That 
would lead to a loss in confidence in the stockpile. In some respects, 
the future is now at Livermore. The National Ignition Campaign, work 
needed to carry out the initial ignition experiments in 2010 and 
continuing research the following years, did not receive the full 
funding requested by NNSA in fiscal year 2007, fiscal year 2008, or 
fiscal year 2009, putting timely achievement of program goals at higher 
risk than would be the case otherwise. Reduced levels of funding for 
the Accelerated Simulation and Computing (ASC) program are eroding our 
capabilities to improve physics models in weapon simulation codes. Most 
tellingly, in fiscal year 2008 the Laboratory's spending power was 
reduced $280 million (compared to a $1.6 billion budget in fiscal year 
2007)--about $200 million more than anticipated. While our focus is on 
reducing support costs and preserving programmatic capabilities, it is 
noteworthy that the staff will decline from about 8,900 in October of 
2006 to under 7,000 FTEs by the end of fiscal year 2008. More than 500 
of these are highly-trained scientists and engineers.
    In a constrained budget environment, it is important to preserve 
critically needed capabilities and to stay focused on the long-term 
objectives: an affordable nuclear weapons complex supporting a smaller 
nuclear deterrent force sustained by a nuclear weapons program that 
provides confidence in the stockpile. Many details about the end state 
will have to be worked out--and depend on future nuclear weapon policy 
choices and world events--but it is clear that expertise, skills, and 
capabilities currently embodied in the NNSA national laboratories will 
be needed in the long term and can serve as useful technical resources 
to help define the path forward. In broad terms, a prudent path forward 
that would sustain science-based stockpile stewardship capabilities 
would be to:
  --Consolidate selected capabilities and facilities such as those for 
        special nuclear materials to reduce costs, while preserving 
        intellectual independence of key capabilities that are 
        necessary for technical peer review. Fully capable, independent 
        peer review is critical when nuclear testing is not available.
  --Sustain investments in capabilities at the NNSA laboratories that 
        are both critical to the long-term success of stockpile 
        stewardship and because of their technical leadership, provide 
        a basis for expanding work for other Federal agencies and 
        addressing important national priorities (e.g., at Livermore, 
        NIF and ASC).
  --Apply the capabilities at the NNSA laboratories to: continuing to 
        improve their understanding of weapons physics issues to reduce 
        uncertainties in weapon performance; managing issues that arise 
        in stockpiled weapons; and working with the NNSA production 
        plants and Department of Defense to devise an optimal path 
        forward for a certifiably safe, secure, and reliable stockpile 
        at affordable costs.
  --Work to reduce overhead costs at the NNSA laboratories and expand 
        work for other Federal agencies in a way that supports and 
        augments NNSA's investments in the laboratories.
    This approach, which is fully consistent with NNSA's long-term 
objectives for complex transformation, provides an additional valuable 
service to the Nation. It secures a long-term role for the weapons 
laboratories as crown jewels of large-scale science supporting our 
Nation's defense, energy, environmental, and economic security. These 
laboratories are the largest multidisciplinary concentration of PhDs in 
the country--there are no other institutions like them. As a result of 
this investment in the scientific and technical infrastructure by DOE 
and this committee, the laboratories provide value to the country well 
beyond nuclear weapons work--in areas that are the defining problems of 
this century. And we can do even more.

         NEW STOCKPILE STEWARDSHIP TOOLS AND THEIR APPLICATION

    One of the greatest accomplishments of the Stockpile Stewardship 
Program to date is our tremendous progress in acquiring new tools and 
using them to better understand weapons performance. When nuclear 
testing was halted, there were significant gaps in our knowledge. Some 
nuclear test results remained unexplained and for some processes in the 
detonation of a nuclear device, our simulation codes were simply not 
adequate. Either the computers were not large and fast enough or we did 
not understand the physics--or both. For those processes, we depended 
on nuclear test data to adjust the codes.
    A key focus of stockpile stewardship has been to fill the gaps in 
our knowledge to reduce our uncertainties about nuclear weapons safety, 
security, and performance as the stockpile ages. There are four major 
areas of investment in improved capabilities: more powerful computers, 
enhanced hydrodynamic testing capabilities to experimentally study the 
performance of (mock) primaries prior to nuclear explosion, an 
experimental facility to study the high-energy-density and 
thermonuclear processes in weapons (the National Ignition Facility), 
and tools to better understand the properties of plutonium. With these 
tools, we are striving to develop a better understanding of the 
physics, improve our simulation models, and use non-nuclear experiments 
and past nuclear test data to validate those model improvements. To 
date, some of the unknowns about nuclear weapons performance have been 
resolved, others we are close to resolving, and still others will 
require more time and effort. Greater knowledge increases the 
likelihood that we can resolve with confidence a problem that arises in 
stockpiled weapons without having to resort to a nuclear test.
Advanced Simulation and Computing (ASC)
    The ASC program continues to be a remarkable success. The goal set 
when the Stockpile Stewardship Program began was a million-fold 
increase in computing power in a decade. It was estimated at the time 
that a computer capable of 100 trillion floating point operations per 
second (100 teraflops) would provide a minimum level capability to 
model the full performance of a nuclear weapon in three dimensions with 
sufficient resolution to illuminate the physics issues where we need to 
make significant improvement. The goal was attained with the delivery 
to Livermore from IBM of the 100-teraflop ASC Purple supercomputer, 
with over 12,000 processors and 2 million gigabytes of storage.
    In April 2006, the NNSA laboratories began using ASC Purple for 
classified production runs. Soon after the machine began operating, a 
joint team of scientists from Livermore and Los Alamos performed a 
series of weapon simulations at unprecedented resolution using the most 
advanced ASC simulation software. The results gave dramatic new 
insights into weapons physics by pointing to phenomena not seen at 
lower resolution.
    ASC Purple is now running a series of 6 month campaigns as a 
national user facility--managed in a manner similar to a unique, large 
experimental facility. Each of the NNSA laboratories propose computing 
work packages to be run as campaigns. These packages, which need ASC 
Purple's size and capability, aim at achieving major stockpile-
stewardship milestones. The proposals are reviewed and prioritized for 
relevance, importance, and technical rationale; and machine time is 
allocated accordingly. ASC Purple is the first ASC system to be managed 
in this way.
    A remarkable feature of the ASC program is its strong partnerships 
with the U.S. computer industry and major research universities to 
accelerate the development of supercomputer platforms, storage and 
operating systems, and software capable of running efficiently on 
machines with tens to hundreds of thousands of processors. An example 
of this is Livermore's partnership with IBM to develop and bring into 
operation BlueGene/L, the world's fastest computer. With its system-on-
a-chip technology, BlueGene/L is a world apart from its predecessors. 
Compared with the previous record holder, it was 8 times faster and 
one-fourth the cost, and it required one-tenth the floor space and one-
sixth the power consumption. In 2007, the machine was expanded from 
131,000 to 208,000 processors and now benchmarks at 478 teraflops (with 
a peak speed of 596 teraflops).
    BlueGene/L was acquired through the ASC program as a computational 
research machine for evaluating advanced architectures to help define 
an affordable path to petaflop computing (quadrillion operations per 
second). It has been remarkably successful, efficiently running 
simulation codes capable of addressing a broader range of weapons 
issues than originally envisioned. For 3 years running, simulations 
performed by researchers using BlueGene/L won the prestigious Gordon 
Bell Prize, which is awarded to innovators who advance high-performance 
computing.
    It is vital that the laboratories build on the ASC program's 
outstanding successes and sustain the momentum toward petaflop 
computing and beyond by staying on schedule for the next planned ASC 
investments, the Roadrunner machine for Los Alamos and the Sequoia 
machine for Livermore, and continuing to maintain and develop the 
extraordinary simulations code systems. These next two machines take 
different approaches to the integrated problem of the computer 
architecture and simulations that must run on them. Sequoia is an 
extension of the successful BlueGene/L approach while Roadrunner takes 
a different approach. Both entail risks. The continuing advances in 
simulation required to resolve the remaining weapons performance issues 
are too important to pursue only one approach. One needs to succeed and 
hopefully both will. The generation of machines beyond them can combine 
the two different approaches.
    Through the highly successful ASC program, we are turning 
simulation into a tool of predictive science--a full partner with 
theory and experiments. In particular, we are making key discoveries 
about physical processes in the functioning of a nuclear weapon that 
help us to improve models in codes and reduce sources of uncertainty in 
weapon performance. The more powerful Roadrunner and Sequoia computers 
are essential for implementing better physics models and as discussed 
below, the methodology we have been developing to quantify 
uncertainties in weapon assessments and certification. It is critically 
important to sustain the investments that have led to such remarkable 
successes in the ASC program.

Hydrodynamic Testing
    Hydrodynamics testing is the most valuable experimental tool we 
have for diagnosing device performance issues for primaries in weapons 
before they enter the nuclear phase of operation. Hydrodynamics 
experiments are conducted at Livermore's Contained Firing Facility 
(CFF) at Site 300, our remote testing location, and the newly 
commissioned Dual-Axis Radiographic Hydrodynamic Test Facility (DARHT) 
at Los Alamos. Experiments are executed in accordance with a National 
Hydrotest Program, which NNSA coordinates with the laboratories. The 
plans include both Integrated Weapons Experiments--large-scale tests of 
mock weapon primaries--and smaller-scale focused experiments, performed 
to study specific physics or engineering issues. Over the last 3 years, 
Livermore researchers performed nearly 20 Integrated Weapons 
Experiments at CFF for both Livermore and Los Alamos. The Laboratory 
has also conducted a long series of Focused Experiments to study 
radiation case dynamics after high-explosive detonation. Important 
information was learned from these experiments that led to major 
improvements to weapons code physics and new insights into nuclear 
weapons performance.
    In the NNSA's preferred alternative for complex transformation, 
long-term plans call for closure of CFF when its use for hydrodynamic 
testing is no longer programmatically necessary and reduced NNSA 
support for Site 300. As these changes occur, Livermore scientists and 
engineers will carry out aspects of their important hydrodynamic 
experiments at other sites. It is critically important that sufficient 
funding be made available to fully utilize the new capabilities 
available at DARHT.

The National Ignition Facility (NIF)
    NIF is critical to the success of the Stockpile Stewardship 
Program. It is the only facility capable of creating in a laboratory 
the conditions necessary to experimentally access all of the nuclear 
phase operations important to modern nuclear weapons. A wide range of 
precisely diagnosed experiments can be fielded at NIF. These 
experiments offer the promise of uncovering important physics details 
about the functioning of a nuclear weapon that were inaccessible or not 
examined in underground nuclear tests. NNSA scientists will gather 
necessary data to improve and validate physics models in simulation 
codes. Ignition experiments at NIF are critical to understanding fusion 
burn, a key phenomena in the performance of weapons in the stockpile. 
The design and execution of complex NIF experiments will also test the 
expertise of NNSA scientists and sustain their critical skills and 
knowledge about nuclear design.
    Major progress continues to be made on NIF and preparations for 
fusion ignition experiments with the 192-beam laser. As has been the 
case since being rebaselined in 2000, the NIF project is meeting all of 
its technical performance, cost, and schedule milestones. Current plans 
are to complete the construction project and laser commissioning in 
March 2009, and begin the first ignition experiments in fiscal year 
2010. In July 2007, Laboratory scientists, engineers, and technicians 
commissioned the first of two 96-beam laser bays, assuring that each 
beam met NIF's operational and performance qualification requirements. 
In early 2008, all 192 main laser beams were precisely aligned. As of 
the end of March 2008, testing has been completed on 144 of the 192 
beams, and installation has begun of the final optical modules that 
convert the laser light from infrared to ultraviolet. More than 3.1 
megajoules of infrared-light energy have been fired, making NIF by far 
the world's most energetic laser. The extraordinary laser energy (more 
than 1.8 megajoules of energy in ultraviolet light), the remarkable 
beam quality, and the ability to shape the pulse to meet the specific 
needs of experiments provide NIF unique and unprecedented experimental 
capabilities.
    The National Ignition Campaign (NIC), which is being managed for 
NNSA by our Laboratory, involves multiple laboratories and encompasses 
all work needed to carry out the initial ignition experiments in 2010 
and continuing research the following years. Currently, the main thrust 
of NIC is to prepare for experiments in 2009 to validate the ignition 
target's design. Using 96 beams, these experiments will help select the 
optimum radiation temperature conditions for the ignition experiments. 
Computer simulations, which have been validated by their close match 
with data gathered from the 4-beam NIF Early Light experiments 
conducted in 2003-2004, indicate that NIF's laser beams will propagate 
effectively through the hot plasma generated in fusion experiments to 
achieve ignition.
    NIC is following a well-defined technical path toward ignition on 
NIF and the transition of NIF to routine operations in 2012 as a highly 
flexible high-energy-density user facility for research for stockpile 
stewardship as well as energy security and the basic science of matter 
at extreme conditions. However, NIC did not receive the funding 
requested by NNSA in fiscal year 2007 and fiscal year 2008, putting 
timely achievement of program goals at higher risk than would be the 
case otherwise. We remain confident that ignition will be achieved soon 
after the experimental program begins in 2010. We have larger concerns 
about a shortfall in the future funding needed to sustain the 
experimental effort and achieve the full benefits of NIF's unique 
capabilities. NIF is the only source of the data about the ``nuclear 
phase'' of operation that are necessary for the long-term success of 
stockpile stewardship.
    A number of key uncertainties about nuclear weapons physics relate 
to weapons performance near the time the device ``goes nuclear'' and 
thereafter. The process of boosting the fission yield of primaries, in 
particular, is key to weapons performance and is not well understood. 
NNSA has launched a science campaign to investigate the physics of 
boost and improve the modeling of it in simulations with the goal of 
reducing uncertainties in weapon performance. Data and insights from 
NIF experiments are required to develop and validate the models. 
Ignition and thermonuclear burn is another area where NIF experiments 
will enable scientists to better understand the underlying physics and 
reduce weapon performance uncertainties.
    In addition, NIF experiments will provide critically needed 
equation-of-state, opacity, and material dynamics data to improve and 
validate weapon simulation models. NIF is unique in its capabilities 
for these types of experiments because of its ability to produce very 
high temperatures in a sufficiently large volume for a sufficiently 
long period of time and because of its excellent diagnostics. These 
same attributes make possible scaled experiments of hydrodynamic and 
radiation transport phenomena, with results that can be directly 
compared to simulation model predictions of nuclear-phase weapon 
performance. As it nears completion, it is extremely important that the 
NIF project be fully funded so that it can be completed on time and 
that NIF be fully utilized to demonstrate ignition and resolve the 
weapons physics issues critical to continuing to certify the stockpile 
without nuclear testing. At this point in the project, there is little 
flexibility to accommodate funding shortfalls without impact on 
completion.

Plutonium Research Capabilities and Facilities
    Plutonium is an extremely complex material and understanding its 
detailed properties is a major scientific challenge. Completed in 2006, 
a concerted long-term study by Livermore and Los Alamos researchers 
concluded that the performance of plutonium pits in U.S. nuclear 
weapons will not sharply decline due to aging effects over decades. 
Because plutonium is highly radioactive, over time it damages materials 
in weapons including the pits themselves. However, the study concluded 
that the plutonium pits for most, but not all, nuclear weapons have 
minimum lifetimes of at least 85 years. These results have important 
implications in planning for the weapons production complex of the 
future.
    Still, there is much we do not know about the material and its 
properties at extreme conditions, which is important for weapon 
performance. In 2007, Livermore researchers met an important stockpile 
stewardship milestone by completing the development of a new 
description of plutonium under a variety of physical conditions--an 
``equation of state.'' This equation of state is based on advanced 
theory and simulation, including simulations only now possible with the 
ASC Purple and BlueGene/L supercomputers, together with very accurate 
data from diamond-anvil-cell measurements at high static pressures and 
dynamic experiments using the Joint Actinide Shock Physics Experimental 
Research (JASPER) gas gun at the Nevada Test Site. Work with this 
equation of state tells us that the technical research into this 
complex material must continue if we are to meet all the needs of the 
stewardship program.
    Large-scale work with plutonium at Livermore's plutonium facility 
(Superblock), which has provided vital support to the Stockpile 
Stewardship Program, will be phased out. NNSA's plans for complex 
transformation include the consolidation of weapons-useable special 
nuclear materials to fewer sites. All Category I/II quantities of 
special nuclear materials are to be removed from Livermore by the end 
of 2012--2 years earlier than planned when the first shipment of 
plutonium left the Laboratory for Los Alamos in late 2006. Since then, 
two more shipments of material have been made to the Savannah River 
Site in South Carolina, where surplus nuclear materials are being 
consolidated.
    Livermore researchers will continue research and development 
activities to better understand plutonium, improve plutonium part 
manufacturing processes, and provide surveillance of stockpiled 
weapons. Our plutonium research breakthroughs have proved important 
over the years, and the two-laboratory approach is a vital part of 
effective peer review processes. Category III amounts of nuclear 
materials will remain on the Livermore site for small-scale 
experiments. For other activities, Laboratory scientists and engineers 
will begin using facilities elsewhere to conduct their work. To this 
end, modern plutonium-capable facilities are necessary for stockpile 
stewardship and sustaining the Nation's nuclear stockpile. It is 
essential that the Nation proceed with the Chemistry and Metallurgy 
Research (CMR) Building Replacement Project at Los Alamos.

                  MANAGING THE HEALTH OF THE STOCKPILE

    Lawrence Livermore is responsible for the nuclear explosive 
packages in five nuclear weapons systems--four that were designed by 
Livermore: the W62 ICBM warhead, the W84 cruise missile warhead 
(inactive), the B83 strategic bomb, and the W87 ICBM warhead; and one 
designed by Los Alamos: the W80 cruise missile warhead. The Laboratory 
monitors the health of the weapons for which it is responsible, 
conducts stockpile stewardship activities to better understand aging 
effects on weapons materials and components, develops advanced 
technologies for weapon surveillance, evaluates issues as they arise in 
stockpiled weapons, and pursues programs to extend the stockpile life 
of weapons. In addition, Livermore scientists and engineers develop 
advanced technologies for weapons surveillance and manufacture of 
weapons parts, and the Laboratory participated in the Reliable 
Replacement Warhead Feasibility Study.
    Livermore also assists others in the nuclear weapons complex on 
production issues. Laboratory engineers are working closely with the 
Pantex and Y-12 Throughput Improvement Project teams to improve plant 
efficiencies, expedite completion of joint projects, and introduce new 
capabilities. In addition, Livermore helped with the resumption of 
weapon pit manufacturing at Los Alamos, where a team succeeded in 
fabricating and certifying new pits for the W88 submarine-launched 
ballistic missile warheads. The Laboratory supplied radiographic 
inspection capabilities, produced small-scale plutonium samples for 
testing, and provided engineering evaluations and peer reviews based on 
a wide range of independently conducted experiments and simulations.
Comprehensive Peer Review and Advanced Certification
    Livermore is a key participant in formal review processes and 
assessments of weapon safety, security, and reliability. As part of the 
Annual Stockpile Assessment Process, Lawrence Livermore and Sandia 
prepare Annual Assessment Reports for each of the nuclear weapons 
systems for which the two laboratories are jointly responsible. As 
input to the reports, Laboratory scientists and engineers collect, 
review, and integrate all available information about each weapon 
system, including physics, engineering, chemistry, and materials 
science data. These Annual Assessments use the advanced tools developed 
by the stockpile stewardship program--such as ASC, DARHT, and soon 
NIF--as an integral part of the assessments. This work is subjected to 
rigorous, in-depth intralaboratory review and to expert external 
review, including formal use of red teams.
    With the aging of U.S. nuclear weapons, risks are growing that 
reliability issues will arise, and modifications to extend the 
stockpile lifetime of weapons are likely to become more complex and 
challenging to certify. In recognition of these issues, the JASON 
Defense Advisory Group recommended to NNSA that the weapon 
certification process be improved through expanded peer review 
mechanisms and refinement of the computational tools and methods for 
certification. To address these recommendations, NNSA was directed by 
Congress to implement a new Science Campaign called Advanced 
Certification to significantly increase the scientific rigor of 
certifying the Nation's nuclear deterrent. The campaign is focused on 
expanding and applying the Stockpile Stewardship Program methodology 
called the quantification of margins and uncertainties (QMU). By 
enhancing the scientific rigor and transparency of QMU, the Advanced 
Certification Science Campaign will improve the quality of the 
assessments and enable better peer review by external panels of 
experts. These efforts will expand the applicability and validity of 
the process, initially developed for the existing stockpile, to complex 
Life Extension Programs and reuse of previously produced components 
such as pits, and they will answer questions raised by the JASONs in 
their consideration of the Reliable Replacement Warhead.
    In conjunction with the Annual Assessment process, the laboratories 
have recommended that a more Comprehensive Peer Review process be 
implemented. In this process, responsibility for assessing a nuclear 
package in a weapon system will remain with the current responsible 
design laboratory. However, surveillance and underground test data for 
all stockpile systems will be accessible to both design laboratories, 
and each laboratory will annually carry out comprehensive independent 
analyses of all stockpile systems, thereby enabling in-depth, intensive 
laboratory technical peer review. This effort will provide the 
responsible laboratory and NNSA with more comprehensive evaluations of 
the stockpile and more efficiently apply complex-wide resources to 
address time urgent stockpile issues, such as significant finding 
investigation (SFI) resolution. I believe that adding the Comprehensive 
Peer Review process is the single most important action to take to 
improve confidence in the nuclear deterrent in the absence of nuclear 
testing.

Life-Extension Programs (LEPs)
    The LEP that refurbished the W87 ICBM warhead was a successful 
example of stockpile stewardship. Congress authorized the W87 LEP in 
1994, the first rebuilt W87 was delivered back to the Department of 
Defense (DOD) on schedule in 1999, and Lawrence Livermore and Sandia 
completed formal certification in 2001. NNSA and DOD established an 
extensive technical review process to certify the design changes and 
production procedures. The process entailed thorough internal reviews 
at Livermore, technical reviews by NNSA (including peer review by Los 
Alamos), and reviews by DOD. Throughout the program, the Laboratory 
collaborated with the production plants, working to ensure the quality 
of the W87 refurbishment work.
    Subsequent LEPs are proving to be challenging, and future ones can 
be expected to be even more difficult because there are going to be 
more things that need to be fixed--that happens with age. Nuclear 
weapons include a variety of reactive and organic materials sealed in 
close proximity in a hostile radiation environment. In some weapon 
systems, we are beginning to see aging signs that concern us. Cold-War-
era weapons were designed to meet stringent military characteristics 
(MCs). The limits of what was possible were often pushed in the design 
of currently-deployed weapons. Ease of manufacture or long shelf-life 
were lower design priorities. Exotic and/or environmentally unfriendly 
materials are used in a number of instances to improve performance, and 
manufacture of the weapons entailed numerous steps that are difficult 
to exactly reproduce. Furthermore, while there is a basis for high 
confidence in the performance of the stockpiled weapons as they were 
produced, some designs do not have large performance margins, which 
makes their performance less resilient to change. These factors 
increase the difficulty of certification of any modifications in 
refurbishments and the expense of rebuilding the weapons.

Reliable Replacement Warhead Feasibility
    After authorization by Congress, the Nuclear Weapons Council 
launched the Reliable Replacement Warhead (RRW) Feasibility Study in 
2005. The goal of the RRW is to replace existing aging warhead systems 
with designs that more closely meet the requirements of the post-cold 
war era. The RRW would include advanced safety and security 
technologies, and it would be designed to have much larger performance 
margins than the system being replaced. Large performance margins make 
it easier to certify reliable performance without underground nuclear 
testing. These designs would be based on devices that were well tested 
previously, further obviating the need for nuclear testing. They would 
be manufactured from materials that are more readily available and more 
environmentally benign that those used in current designs. The 
objective is for these modified warheads to be much less costly to 
manufacture by a smaller, modernized production complex. The RRW is to 
maintain the current military capability--not to improve it.
    In early 2007, NNSA announced its decision that Livermore and 
Sandia national laboratories would provide design leadership for the 
RRW for the U.S. Navy. After the decision, NNSA and the Navy began work 
to further define and develop detailed cost estimates for the RRW 
program. This work was intended to support a future decision to seek 
congressional authorization and funding in order to proceed into system 
development and potentially subsequent production. The effort has since 
been halted. Seeking clarification on a number of related policy and 
technical issues, Congress stopped funding for RRW work in fiscal year 
2008. The Nation would benefit from a clearer view of the costs of RRWs 
versus programs to extend the life of existing warheads or a blending 
of the RRW and LEP approaches--together with the technical challenges 
and risks of the various options. Considerable technical work is needed 
to support an informed decision about the preferred options for the 
Nation's enduring nuclear deterrent and nuclear weapons complex. It is 
important that we expeditiously start to develop the needed 
information.

          SUPPORT OF DEFENSE NUCLEAR NONPROLIFERATION PROGRAMS

    Livermore engages in a wide range of activities for NNSA's Defense 
Nuclear Nonproliferation Program, whose important mission is to address 
the threat that hostile nations or terrorist groups may acquire 
weapons-useable material, equipment or technology, or weapons of mass 
destruction (WMD) capabilities. We contribute to almost all program 
areas because the Laboratory takes an integrated, end-to-end approach 
to its WMD nonproliferation work--from preventing proliferation at its 
sources, to detecting proliferant activities and identifying ways to 
counter those efforts, to responding to the threatened or actual use of 
WMD.
    Another feature of the Laboratory's work is that we work closely 
with end-users of our technologies and systems so that our research and 
development efforts are informed by real-world operational needs. 
Livermore, in fact, supports several sponsors with unique operational 
capabilities. For Defense Nuclear Nonproliferation these include the 
National Atmospheric Release Advisory Center (NARAC), the Nuclear 
Incident Response Program, and the Forensic Science Center, which 
supports multiple sponsors. NARAC is the source of technical 
capabilities that also support the Department of Homeland Security's 
(DHS's) Interagency Modeling and Atmospheric Assessment Center. As a 
result of our special capabilities, the Laboratory is also responsible 
for DHS's Biodefense Knowledge Center and DOD's Counterproliferation 
Analysis and Planning System and the Homeland Defense Operational 
Planning System. The uniqueness of Livermore's capabilities is borne 
out by the fact that we are one of only 12 world-wide laboratories, and 
currently the only one in the United States, certified to analyze 
samples pertaining to the Chemical Weapons Convention and the only 
certified forensics laboratory able to receive all types of forensics 
evidence--nuclear, biological, explosive, and hazardous chemicals.
    Selected examples of the Laboratory's activities in support of 
Defense Nuclear Nonproliferation include:
  --In support of the Global Threat Reduction Initiative, Livermore is 
        leading the effort to secure more than 1,000 radioisotopic 
        thermonuclear generators deployed across Russia. Installed in 
        the 1970s as remote power sources, these devices are highly 
        radioactive and largely unsecured, thus posing proliferation 
        and terrorism risks.
  --In support of the Material Protection Control and Accounting 
        (MPC&A) program, Livermore completed MPC&A upgrades for the 
        last two Russian navy sites in the Kamchatka region in 2007. 
        The Laboratory also leads the Federal Information System effort 
        to establish a comprehensive national nuclear material 
        accounting system for Russia.
  --In a significant breakthrough to strengthen international nuclear 
        safeguards, a team of researchers from Lawrence Livermore and 
        Sandia recently demonstrated that the operational status and 
        thermal power of reactors can be precisely monitored over hour- 
        to month-timescales using a cubic-meter-size antineutrino 
        detector. The detectors could be used to ensure that nuclear 
        fuel in civilian power reactors is not diverted for weapons 
        purposes.
  --In support of efforts to monitor for underground nuclear 
        explosions, Livermore develops tools and methodologies for 
        detecting seismic events in regions of proliferation concern. 
        In 2007, Laboratory scientists produced regional seismic 
        calibrations for the Persian Gulf and surrounding regions, and 
        they developed improved methods for distinguishing the waveform 
        for earthquakes and nuclear explosions in North Korea.
  --The Laboratory works on a variety of advanced detection 
        capabilities. One example is major success in 2007 in 
        developing a passive technique to detect shielded highly-
        enriched uranium, an important breakthrough for homeland 
        protection.
    All of these capabilities are built upon the science and technology 
infrastructure required to meet our nuclear weapons responsibilities.

                            SUMMARY REMARKS

    On October 1, 2007, a newly formed public-private partnership, 
Lawrence Livermore National Security, LLC (LLNS), began its contract 
with the Department of Energy to manage and operate the Laboratory. 
LLNS is honored to take on the responsibility. We see a future with 
great opportunities to apply our exceptional science and technology to 
important national problems. To this end, we have identified four top-
level goals.
    First, we will work with NNSA to provide leadership in transforming 
the Nation's nuclear weapons complex and stockpile to meet 21st-century 
national security needs. As in NNSA's preferred alternative for complex 
transformation, we envision Livermore as a center of excellence for 
nuclear design with centers of excellence for supercomputing with 
petascale machines, high-energy-density physics with the National 
Ignition Facility (NIF), and energetic materials research and 
development with the High Explosives Applications Facility (HEAF). We 
are vigorously supporting the goal of consolidation and working toward 
eliminating Category I/II quantities of special nuclear material from 
the site by 2012.
    Second, we will carry forward Livermore's tradition of exceptional 
science and technology that anticipates, innovates, and delivers. This 
is the science and technology that brought into operation currently the 
world's most powerful computer and used it the last 3 years in a row to 
win the Gordon Bell Prize with amazing scientific simulations; that is 
finishing commissioning of NIF and preparing for experiments to achieve 
the power of the sun in a laboratory setting for national security, 
long-term energy security, and scientific exploration; that is 
developing advanced radiation detection systems as well as analysis-on-
a-chip technologies and DNA signatures for rapid detection of pathogens 
for health and security applications; and that has provided critical 
technical support since 1990 to the Intergovernmental Panel on Climate 
Change, which was a co-winner of the Nobel Peace Prize in 2007 for its 
work.
    Third, we will aggressively make available the core scientific and 
technical capabilities of the Laboratory to meet pressing national 
needs in areas that build on and contribute to the core missions and 
strengths of the Laboratory. As I highlighted in this testimony, the 
Nation and the world face many complex challenges in the 21st century 
that require the exceptional science and technology and sustained 
multidisciplinary efforts that the Laboratory can offer.
    Four, we will enhance business and operational performance, paying 
particular attention to safe and secure operations and improving our 
operational efficiency and cost effectiveness. Public trust in our 
Laboratory depends on meeting mission goals through safe, secure, 
disciplined, and cost-efficient operations.
    LLNS' start as managing contractor at the beginning of fiscal year 
2008 coincided with the reduction of $280 million in spending power at 
the Laboratory. We have been working to dramatically reduce support 
costs and the staff will decline from about 8,900 in October 2006 to 
under 7,000 FTEs by the end of fiscal year 2008. More than 500 of these 
are highly-trained scientists and engineers. The change is painful, but 
it is my responsibility to ``right size'' the Laboratory to budget 
realities.
    It is the Nation's responsibility to ``right size'' the NNSA 
laboratories to their important, continuing missions and their broader 
responsibility to ``think ahead'' and pursue multidisciplinary science 
and technology in anticipation of emerging national needs. I urge your 
continuing support for a strong Stockpile Stewardship Program and for 
sustaining the NNSA laboratories' work on the science-based stockpile 
stewardship and NNSA nonproliferation programs as well as other 
activities to meet vital national needs.

    Senator Dorgan. Dr. Miller, thank you very much.
    Finally, Director Hunter, from Sandia.

STATEMENT OF DR. THOMAS O. HUNTER, PRESIDENT AND 
            DIRECTOR, SANDIA NATIONAL LABORATORY, 
            ALBUQUERQUE, NEW MEXICO
    Dr. Hunter. Thank you, Chairman Dorgan, and Senator 
Domenici, and Senator Feinstein. It's a pleasure to be before 
you today.
    I'm Tom Hunter, President of Sandia National Laboratories. 
And our principal mission, as you know, is to provide and 
support the non-nuclear subsystems for all of the nuclear 
weapons in the stockpile. We also support a wide range of 
research and development, in other areas of national security.
    I've presented written testimony, as you've noted, I'd like 
to summarize a few points, perhaps some of the same points the 
other directors mentioned, but I'll focus on them in a little 
different way, and then be glad to answer questions.
    Let me first talk about Stockpile Stewardship. In my view, 
Science-based Stockpile Stewardship has made exceptional 
progress since its inception, over a decade ago. The Nation 
asked us to stop testing, to stop development of new weapons 
systems, and to invest in key scientific and engineering 
capabilities that would allow the continued certification of 
the stockpile. We've done that.
    Along the way, we've been leaders in the development of 
many key areas of science, in particular, advanced modern 
super-computing, high-energy density physics, advanced 
microsystems, and many areas of material science.
    One of the areas I'm most proud of, to have been associated 
with, at our laboratory is the Mesa facility, which was 
mentioned earlier by Director D'Agostino, when he said that we 
have completed on-schedule, and ahead of budget. In that 
facility, we build the small, little devices that can be put in 
nuclear weapons and I usually like to say, there we build 
little things you can't see, that do things you can't imagine.
    Today I, Dr. Anastasio, and Dr. Miller--Mike and George--
continue to support the annual assessment of the safety and 
reliability of the stockpile. We independently provide a 
personal statement of the condition of each of the systems in 
our stockpile. I don't think I can describe in words how 
significantly we take that responsibility--it means a lot to us 
professionally and personally, we do it each year, and are in 
the process of doing it this year, as well.
    This annual assessment is a matter of both legislative 
requirement, and personal accountability. Behind it stands the 
investment of the Government, the work of many dedicated 
scientists and engineers, and our personal credibility and 
reputation, and that of our institutions. The stockpile needs, 
and will continue to need, attention. The stockpile will age. 
Issues will have to be resolved. As time progresses, we must 
maintain confidence that our deterrent is effective. As we move 
forward, it is essential to recognize the need for a vital, 
scientific foundation to support this confidence, and to make 
wise choices about the composition of the stockpile and the 
nuclear weapons complex that it supports.
    I believe it is important to continue the investigation of 
a replacement strategy for legacy, cold war era warheads. A 
right-size stockpile that is safer, more secure, has more 
inherent performance margins, and can be maintained more 
effectively, should be our mutual goal.
    The nuclear weapons complex must be transformed to be more 
effective. It must work better, operate more safely, be better 
integrated, and cost less. The NNSA's program for complex 
transformation is very important. We've already begun at our 
lab, we've already completed removal of all discrete category 
two and category three nuclear materials from our site. We've 
already achieved a reduction of 18 percent of our workforce 
since 2004, that supports nuclear weapons.
    We're working to change our work mix at our California 
site. We're re-looking at our approach to super-computing. All 
of these transitions must be managed effectively so that our 
ability to effectively support the stockpile is maintained. We 
must use the insight from our Stockpile Stewardship Program to 
chose which infrastructure investments are made, and decide 
when they will be made.
    The capabilities we have developed to support our nuclear 
tern have allowed us to make many, many contributions in other 
areas of national security--from combustion science for energy 
efficiency, to nuclear waste disposal, specialized radars for 
defense applications and many more. These applications provide 
great synergy and great vitality for our ability to support the 
stockpile. The nuclear weapons path forward is actually just 
one piece, though, of a much broader nuclear future for the 
country, and for the world.
    It is important to enhance our efforts in non-
proliferation, and help realize the full potential of nuclear 
power as a safe, and environmentally friendly source of energy. 
The budget legislation you see before you will allow that to be 
addressed.
    Finally, I think I'd be remiss if I did not note that few 
threats to this country's future loom as large as our chronic 
lack of investment in science and engineering, and the 
education systems that support it. History will not judge our 
generation very favorably if we do not speak out, if we do not 
act, to significantly change our lack of attention and lack of 
investment in one of the clear elements that made this country 
great.

                           PREPARED STATEMENT

    You have the full commitment of my--my personal commitment, 
and that of my organization--to support you in addressing these 
important problems in the future, and I'll be glad to address 
any questions.
    [The statement follows:]

               Prepared Statement of Dr. Thomas O. Hunter

    Mr. Chairman and distinguished members of the subcommittee, thank 
you for the opportunity to testify. I am Tom Hunter, president and 
director of Sandia National Laboratories. Sandia is a multiprogram 
national security laboratory owned by the United States Government and 
operated by Sandia Corporation \1\ for the National Nuclear Security 
Administration (NNSA).
---------------------------------------------------------------------------
    \1\ Sandia Corporation is a subsidiary of the Lockheed Martin 
Corporation under Department of Energy prime contract no. DE-AC04-
94AL85000.
---------------------------------------------------------------------------
    Sandia's core role in the Nation's nuclear weapon program is the 
design, development, qualification, and certification of non-nuclear 
subsystems of nuclear warheads. As a multiprogram national security 
laboratory, Sandia also conducts research and development in nuclear 
nonproliferation, energy security, intelligence, defense, and homeland 
security.
    My statement today addresses the appropriation request for the 
Department of Energy (DOE) programs that fund activities at DOE 
national laboratories and specifically at Sandia National Laboratories. 
I will discuss the stockpile stewardship program and the laboratory 
capabilities at Sandia that are essential to sustain it. I will suggest 
how the NNSA laboratories can help respond to the challenges of the 
emerging global nuclear future, including nonproliferation issues. I 
will comment on programs in energy security and for the Office of 
Science. Finally, I will also bring to your attention my concern that a 
larger role for these laboratories in a broader national security 
context will be important, so that the best solutions for critical 
national needs may be achieved. My written statement includes an 
addendum of specific issues of concern that I offer for the attention 
of the subcommittee.

                       THE U.S. NUCLEAR DETERRENT

    The U.S. nuclear deterrent remains an essential element of the 
Nation's security. Sandia serves NNSA's long-standing mission to 
maintain and enhance the safety, security, and reliability of the U.S. 
nuclear deterrent.
Development of Stockpile Stewardship in the Post-Cold War Era
    The end of the cold war was a pivotal moment in the history of the 
U.S. nuclear weapon program. By 1992, all in-progress and planned 
nuclear weapon programs for new systems were either canceled or 
suspended, and arms reduction initiatives signaled a smaller nuclear 
weapon program in years to come. Also in that year, the United States 
committed itself to a moratorium on nuclear testing, which had been 
fundamental to the nuclear weapon development program since its 
inception.
    It was clear that a different framework for maintaining the 
stockpile would be required. The Department of Energy implemented a new 
approach called ``science-based stockpile stewardship'' and invested in 
a comprehensive suite of capabilities and programs, which included 
experimental facilities and high-performance computers. By 2002, the 
NNSA Administrator and laboratory directors were able to report to 
Congress that science-based stockpile stewardship was meeting 
expectations.\2\
---------------------------------------------------------------------------
    \2\ House Armed Services Committee, Subcommittee on Military 
Procurement, Hearing on the Safety, Security, Reliability and 
Performance of the Nuclear Stockpile, 107th Cong., 2nd sess., June 12, 
2002.
---------------------------------------------------------------------------
    Today, ``science-based'' stockpile stewardship could be considered 
a redundant phrase. Stockpile stewardship assumes and requires the 
scientific competencies and resources that have been developed over the 
last decade.
    Since 1996 the stockpile stewardship program has performed 12 
successful annual assessments of the safety and reliability of each 
weapon type in the stockpile. The assessments include peer reviews and 
red team challenges, and they provide the basis for each of the 
laboratory directors' annual reports to the Secretaries of Energy and 
Defense as well as the Secretaries' subsequent annual report to the 
President on the condition of the stockpile. As I have reported in my 
recent assessments, numerous aging issues in nuclear weapon components 
have been discovered; to date, we have been able to provide sufficient 
confidence in the safety and reliability of our stockpile to support 
national policy requirements.
    The advanced facilities and capabilities developed in the stockpile 
stewardship program enable our successful execution of the life 
extension program for the W76 warhead. In May 2007 Sandia completed the 
design--and NNSA's Kansas City Plant initiated production of--the new 
integrated arming, fuzing, and firing subsystem for this warhead. The 
radar fuze development costs were approximately 30 percent of the cost 
of the fuze we designed and produced for the W88 warhead in the late 
1980s, while meeting similar requirements for survivability in the 
severe radiation environments of a nuclear detonation.
    Sandia's Microsystems and Engineering Sciences Applications (MESA) 
facility was essential for the design, qualification, and fabrication 
of the radiation-hardened integrated circuits used in the W76 arming, 
fuzing, and firing subsystem. Advanced computational and physical 
simulation tools were used extensively in the design and qualification 
of key components, which will enable us to confidently place this life-
extended warhead in the stockpile without underground nuclear testing.
    In today's stockpile stewardship program, radiation tests using 
aboveground simulators provide adequate radiation effects testing for 
most spectra of concern to Sandia. We take the parameters derived from 
such tests and incorporate them into computational models that 
calculate system performance over a broader and more intense range of 
conditions. This achievement is possible using the capabilities and 
tools developed in the stockpile stewardship program.
    In my view, the stockpile stewardship program today has advanced to 
the point where the preferred approach would be to rely on numerical 
simulation and test facilities for certification of non-nuclear 
subsystems in the stockpile. This approach will, however, include some 
risk. We must maintain facilities, qualified people, and modeling and 
simulation capabilities that allow us to assess with confidence. We 
will continue to be concerned with certain issues in the stockpile for 
the indefinite future. However, I am confident that we will be able to 
perform our assessment and design responsibilities successfully if the 
national investment in a robust stockpile stewardship program is 
sustained in years ahead.

The Stockpile Today and Future
    The Nation's nuclear weapon policy has changed significantly since 
the end of the cold war. The stockpile is smaller in total numbers and 
comprises fewer weapon types. It is natural that nuclear weapon policy 
in the post-cold war era should undergo revision to address the threats 
of the 21st century. I understand and support the need for stockpile 
transition.
    But the fact is, the legacy stockpile is composed of weapons 
tailored for the threats and strategies of the cold war. Whether the 
designs of the legacy stockpile are appropriate for the 21st century, 
and can be maintained indefinitely, is problematic. It is important 
that Congress and the Executive agree on how the nuclear deterrent 
should be sized and shaped for the future and what role it should play 
in the larger context of national security. We need to establish the 
path forward for the deterrent, recognizing the reality of a changed 
global situation and fiscal constraints. We need a commitment to a 
robust stockpile stewardship program and an infrastructure 
appropriately configured to support it.
    In looking at future options for the stockpile, I believe it is 
important to continue to investigate a replacement strategy for legacy 
cold war era warheads. Aging issues in the stockpile will require a 
measure of stockpile refurbishment as long as those systems remain in 
stockpile. In the long term, a revived Reliable Replacement Warhead 
(RRW) program would offer advantages for ease of manufacture, 
maintenance, and assessment, and especially enhanced safety and 
security. I support the NNSA's request to fund the RRW Program so that 
the laboratories can complete their feasibility studies, including cost 
estimates.
    Simply put, the current stockpile will require continued 
maintenance and a laboratory/production complex configured around the 
past, with all its cost, complexity, and inherent risk. We must balance 
modernizing the stockpile with providing assurance to the world that we 
stand for an enhanced nonproliferation regime. The desired result would 
be a right-sized stockpile that maintains a balanced deterrent but is 
smaller, safer, more secure, and can be maintained more effectively.

Complex Transformation
    In January NNSA released its draft Supplemental Programmatic 
Environmental Impact Statement (SPEIS) for transforming the nuclear 
weapon complex. Complex Transformation is a vision for a smaller, 
safer, more secure, and less expensive nuclear weapon complex. The 
SPEIS outlines a Preferred Alternative utilizing distributed centers of 
excellence, and it would consolidate missions and facilities within the 
existing NNSA sites.
    Under the Preferred Alternative, Sandia would continue to be the 
center of excellence for science and engineering for warhead non-
nuclear systems and components and for major non-nuclear environmental 
testing. Sandia would also cease operations at the Tonopah Test Range 
and would have a different role in NNSA's high-performance computing 
program. Sandia's California laboratory would continue to support the 
Lawrence Livermore National Laboratory with non-nuclear systems 
engineering, but would transition to a multi-agency resource. We are 
developing a plan to guide that transition.
    We have long supported and see great benefit in the Preferred 
Alternative's proposal to consolidate Category I and II special nuclear 
materials (SNM). We are so committed to that concept, and to the 
improvements in security posture and the complex-wide cost savings 
associated with it, that we recently completed the removal of all 
discrete Category I and II SNM from Sandia sites. As of the end of 
February 2008, Sandia no longer possesses SNM in quantities that 
require a Category I or II security posture. This has made it possible 
for us to implement cost savings in our security protective force, 
which we have achieved through normal attrition and a thoughtful 
program of job transitioning and retraining.
    A problem of worker displacement may arise in many job 
classifications as the Preferred Alternative is implemented. NNSA has 
set a goal of reducing the nuclear weapon complex workforce by 20 to 30 
percent over 10 years. At Sandia we have sought to do our part by 
responsibly managing our workforce size. We have reduced our direct 
nuclear weapon workforce by 18 percent since 2004, largely through 
retirements and by redirecting engineers, scientists, and technicians 
to other national security programs. It is important to recognize and 
account for the fact that those organizations that have already made 
progress toward achieving their goals should not be subject to even 
further reductions.
    We at Sandia recognize the need for changes in the nuclear weapon 
complex. We support NNSA in its effort to transform the complex into an 
efficient enterprise for stewardship of the nuclear deterrent. 
Implementation of the Preferred Alternative must be carefully managed 
so that essential capabilities remain robust and workforce impacts are 
mitigated.

                       THE GLOBAL NUCLEAR FUTURE

    As the demand for energy increases in the United States and 
worldwide, nuclear energy must be part of the solution. New nuclear 
power plants are now being proposed in the United States and worldwide. 
New reactor designs are likely to be part of the expansion of nuclear 
power. There will be technical issues, safety issues, and waste 
disposal issues associated with the expansion of nuclear energy, and 
the Department of Energy national laboratories can play a useful role 
in assisting with their solution.
    The global nuclear landscape is changing significantly. The 
expansion of nuclear power generation internationally raises the 
potential for growing stockpiles of separated plutonium and spent 
nuclear fuel; and the spread of nuclear technology and material 
augments concern over smuggling and the threat of nuclear terrorism. 
Policy development and technology development have not kept pace with 
the accelerating changes in the global nuclear security landscape. The 
nonproliferation regime established by the Treaty on the Non-
Proliferation of Nuclear Weapons has been challenged. Sandia and other 
laboratories have been very active in programs for nonproliferation, 
verification, and cooperative threat reduction for many years.

Reclaiming U.S. Leadership
    It is in the security interests of the United States to assert 
leadership in the development of a safe and secure global nuclear 
future. We need an integrated policy framework that will provide for 
safe, secure expansion of nuclear energy while minimizing proliferation 
risks.
    The United States must reclaim the technical leadership to support 
the development of proliferation-resistant nuclear energy expansion, 
control of nuclear materials, and verification regimes for future 
international agreements. The NNSA laboratories are unique in that they 
possess competence in both military and civilian uses of nuclear 
energy. I believe an opportunity exists to engage these laboratories in 
the development and implementation of solutions that deal with the 
larger nuclear context. To address gaps that have emerged as a result 
of both changing threat conditions and lagging investment, it will be 
important to strengthen the NNSA laboratories' capabilities to address 
the security challenges related to malicious or clandestine use of 
nuclear material or facilities.

Global Nuclear Energy Partnership (GNEP)
    Part of the approach of the United States to support safe and 
proliferation-resistant nuclear power throughout the world is the 
Global Nuclear Energy Partnership (GNEP), which is contained in the 
budget for the Department of Energy's Office of Nuclear Energy. This 
program focuses on research and development to reduce the volume and 
toxicity of high-level waste, reduce the proliferation threat posed by 
civilian inventories of plutonium in spent fuel, and provide 
proliferation-resistant technologies to recover the energy content in 
spent nuclear fuel. Sandia leads the safety, security, and regulatory 
elements of the GNEP program. We are focusing our efforts on defining 
the regulatory framework and the data requirements to support licensing 
of fast reactors and recycling facilities. We at Sandia stand ready to 
support the Department of Energy and the Congress in deployment of this 
important program.

Nuclear Waste
    An acceptable solution for radioactive waste management is critical 
to the expansion of safe nuclear power in the United States. Yucca 
Mountain was intended to be the Nation's long-term repository for spent 
nuclear fuel and high-level radioactive waste. These materials are 
currently stored at numerous sites around the country.
    Sandia completed its portion of the Yucca Mountain license 
application early and provided it to the Department of Energy's Office 
of Civilian Radioactive Waste Management (OCRWM). As the lead 
laboratory for repository systems, Sandia managed the technical effort 
to develop much of the license application safety analysis. This work 
was accomplished despite a severely reduced budget in fiscal year 2008 
and the consequent loss of some staff. We brought together the best 
talent available from among the Department of Energy national 
laboratories, research universities, and technical contractors. We 
endeavored to produce a license application that will be credible among 
technical peers, defensible before the Nuclear Regulatory Commission, 
and respected for the integrity of its science.
    We have already begun to prepare for the license application's 
defense, which will enable the Department of Energy to respond to 
technical questions from the Nuclear Regulatory Commission and requests 
for additional information throughout 2009. Public hearings and 
evidentiary hearings before the Atomic Safety Licensing Board are 
expected to last 2 to 3 more years.
    Looking ahead, the Nation should establish a path forward that 
enables an environment where nuclear energy can realize its full 
potential as a safe, environmentally friendly source of energy. 
Confidence in a nuclear waste management solution remains a critical 
element of the nuclear fuel cycle and is critical to the expansion of 
nuclear power in the near term. Yucca Mountain could be made consistent 
with an approach that includes recycling and interim storage in a 
phased approach to nuclear waste disposal. In my view, we should seek 
ways to get the most from the investment in Yucca Mountain.
    There are many options for managing the waste from current and 
future nuclear reactors, but all options ultimately rely on geologic 
disposal. The high-level waste from defense reprocessing will also need 
such a disposal method. The policy and resulting program for waste 
disposal need to be addressed now. My organization and I stand ready to 
support the administration and the Congress in the development of a 
revitalized approach to this important national issue.

                        LABORATORY CAPABILITIES

    Sandia National Laboratories maintains an array of 
multidisciplinary capabilities at world-class levels to support its 
mission work for the Department of Energy and synergistic programs for 
other agencies. The research and development disciplines we require 
cover most of the physical sciences and engineering specialties 
recognized today, as well as the computational and supporting 
technologies needed for modern scientific investigation.
Essential Capabilities for the Stockpile
    Sandia's essential capabilities for stockpile stewardship support 
our program's core products, which include engineered and integrated 
warhead systems; arming, fuzing, and firing systems; neutron 
generators; gas transfer systems; and surety systems.
    The capabilities that we recognize as essential for this program 
include systems integration, major environmental testing, radiation 
effects science, computational simulation, microsystem technologies, 
materials science, and the engineering sciences. Many of these 
capabilities are synergistic with those in industry and at research 
universities but do not exist in those sectors in the specialized or 
unique forms required for stockpile stewardship, and rarely as an 
integrated enterprise. Our essential capabilities are integrated with 
the core products that we design and support for the nuclear weapon 
stockpile.
            Microsystems and Engineering Sciences Applications (MESA) 
                    Complex
    The MESA complex at Sandia's New Mexico site is the cornerstone of 
NNSA's initiative to address the need for microelectronics and 
integrated microsystems to support a certifiable stockpile for the 
future. Further, it is a unique, world-class capability for the 
integration of modeling and simulation into design and product 
realization of specialized components for national security 
applications. It is a major investment on the part of the agency to 
retain the mission capability for designing and fabricating radiation-
hardened microsystems. MESA will meet that requirement for future 
decades.
    We have established in MESA the ability to develop, design, and 
produce if necessary, unique integrated microsystems for weapon safety 
and security. This capability includes a national ``trusted foundry'' 
for radiation-hardened microelectronics. We have applied approximately 
40,000 such products to the stockpile and nonproliferation missions of 
NNSA and for other national security customers. MESA is developing many 
new nano-enabled microsystem technologies for broad national security 
applications
    The MESA facility is a landmark achievement for our laboratory. It 
is especially noteworthy as an example of project management 
excellence. MESA construction is effectively complete, 3 years ahead of 
schedule and $40 million below the original baseline. A dedication 
ceremony was held in August to celebrate the opening of MESA's Weapons 
Integration Facility, the final building of the MESA complex.
            High-Performance Computing
    Sandia's high-performance computing capabilities are vital tools 
for NNSA mission responsibilities in stockpile surveillance, 
certification, and qualification, and they have proved to be 
indispensable in our work for other agencies, especially elements of 
the Department of Defense. NNSA's decades-long investment in high-
performance computing at Sandia revolutionized modern supercomputing 
and its application to science and engineering.
    Since 1992, Sandia has been a pioneer in massively parallel 
processing (MPP), which employs special software to control thousands 
of low-cost processors configured as a single machine. Sandia was the 
first to shatter the world computational speed record by exceeding one 
trillion floating-point operations per second (one teraflop) with MPP. 
We achieved this milestone on the ``Red'' supercomputer that we 
developed with Intel under the Department of Energy's Accelerated 
Strategic Computing Initiative in 1996.
    Sandia's current supercomputer, ``Red Storm,'' also has been highly 
successful in terms of performance, effective cost for computing 
capability, and improvements achieved after initial operation. Sandia 
led the development of the architecture and associated applications of 
this machine. Our partner, Cray, Inc., developed its XT family of 
supercomputers based on the Red Storm design and now has 36 
installations at 20 sites worldwide. Based on this significant 
heritage, Sandia claims the most cost-effective approach to 
supercomputing.
    Application of these computing capabilities has allowed Sandia to 
address technical problems--previously thought to be impossible--in 
support of nuclear weapon qualification activities. Further, in several 
cases other Federal agencies have asked us to address computational 
problems that could not be addressed by any other institution. The 
impact of these calculations is hard to overstate; they have allowed 
resolution of formidable science and engineering challenges in support 
of national security.
    Under the Preferred Alternative for complex transformation, NNSA 
plans to consolidate its high-performance computing platforms at the 
Lawrence Livermore and Los Alamos sites, principally due to the NNSA 
investments in computing facilities at those institutions. In order to 
remain a key participant in NNSA's high-performance computing program, 
Sandia has negotiated a memorandum of understanding with Los Alamos 
that will bring together the two laboratories' computer science and 
operational capabilities for high-performance computing. Under this 
agreement, Sandia will lead in providing the architecture and 
engineering expertise for capability platforms, and Los Alamos will 
lead in deployment and operations. Teams will be formed from both 
laboratories to provide an unparalleled computational resource for 
future NNSA capability platforms.
    This partnership is not without risk to both institutions. It is 
essential for NNSA to execute a platform strategy that supports the 
Sandia/Los Alamos partnership with a platform procurement in fiscal 
year 2010 and meets the established requirements for maintaining and 
refurbishing the nuclear weapon stockpile. These requirements clearly 
identify the need for replacing the existing NNSA Purple and Red Storm 
platforms by fiscal year 2010.
            Support for the Weapons Activities Engineering Campaign
    I am concerned about erosion in the Weapons Activities Engineering 
Campaign. This campaign contains much of the science and technology 
foundations supporting Sandia's ability to assess and sustain the 
stockpile. This science-based campaign advances the engineering 
competencies that are the basis for assessing components and subsystems 
and improving weapon safety and reliability. This program suffered a 40 
percent reduction between fiscal year 2004 and 2007; the fiscal year 
2008 appropriation was still 35 percent below the 2004 mark, and the 
2009 request is about the same. Chronic under-funding of this campaign 
may diminish the advanced engineering capabilities at the laboratories 
over the long term. These capabilities are essential for maintaining 
confidence in the assurance stewardship activities for the stockpile.
Attracting and Retaining Technical Talent
    We are very deliberate about preserving critical skills in our 
workforce. Through strategic hiring and mentoring of top graduates, 
especially from key universities throughout the country, and through a 
formal knowledge preservation program, we believe we can ensure that 
the smaller workforce of tomorrow will have access to the technical 
knowledge and lessons learned that will be needed for the future.
    We have been able to attract new talent largely because of the 
diversity of missions and professional challenges at the laboratories. 
System engineering programs, technology development, and advanced 
scientific and engineering research are essential for sustaining career 
interest and commitment. The opportunity to support national security 
needs beyond the nuclear weapon program is motivating to prospective 
staff.

NNSA Capabilities Going Forward
    My biggest concern with the long-term future of NNSA is that 
science and engineering capabilities may be relegated to a subordinate 
role as we strive to right-size the nuclear weapon complex and 
necessarily confront the fiscal realities of today. In my view, an 
essential characteristic of the cold war's resolution and a fundamental 
element of deterrence going forward is the strength and resiliency of 
the NNSA laboratories. Their scientific capabilities have deterred our 
adversaries, contributed mightily to the Nation's technological 
leadership, and seen many unparalleled applications in support of 
national security.

                            ENERGY SECURITY

    By 2030, world energy demand and carbon emissions are expected to 
increase by 60 percent. The Nation needs a credible plan for 
transitioning from today's carbon-based energy and transportation 
infrastructure to a system that is less dependent on fossil fuels. 
Nuclear energy will be a major part of that solution, but other 
approaches to low-carbon energy generation and conversion will also be 
important.
    The Department of Energy and its national laboratories are 
exploring bold new ways of translating research into deployable 
solutions to have more impact, sooner, particularly to achieve goals 
related to reducing oil and gas imports and lowering emissions. We are 
working on a plan to leverage several key Sandia capabilities with 
academia, a few other laboratories, and industry, to dramatically 
increase the effectiveness of transformative energy research in 
transportation systems.
    Consistent with the Preferred Alternative for complex 
transformation, we are exploring a research thrust in energy security 
to be centered at Sandia's California site. The initiative would focus 
on low-net-carbon alternative fuels, accelerated electrification of 
transportation infrastructures, and combustion efficiency, which is a 
long-standing competency of the successful Combustion Research Facility 
in California. I believe a unique opportunity exists to apply existing 
facilities at Sandia's California laboratory to basic and applied 
research in support of our energy needs. This will serve to bring 
together the fundamental research efforts of the Department of Energy 
Office of Science with the applied energy programs of DOE. This will 
include university and industrial participation and draw on the 
entrepreneurial capabilities that are so strong in the San Francisco 
Bay area.
    More intensive use of modeling and simulation through high-
performance computing can accelerate the contributions of renewable 
energy technologies. Sandia is currently working toward an agreement 
with the National Renewable Energy Laboratory (NREL) to establish a 
partnership in which Sandia would provide capacity computing for NREL 
programs. NREL and Sandia bring extensive capabilities to the 
renewables mission and are focused on meeting this challenge--from 
understanding renewable resources for energy, to the conversion of 
these resources to electricity and fuels.

                   PROGRAMS FOR THE OFFICE OF SCIENCE

    I am increasingly concerned that the Nation's investment in science 
and engineering is not receiving the attention the Nation requires. 
This is one of the most significant challenges that will define the 
Nation's future. While legislation like the America COMPETES Act \3\ 
provides a statement of good intent, in my view it is essential for the 
Federal Government to make real investments in people, education, and 
programs across a broad spectrum of science and engineering.
---------------------------------------------------------------------------
    \3\ American COMPETES Act, Public Law 110-69, U.S. Statutes at 
Large 121 (2007): 572.
---------------------------------------------------------------------------
    The Office of Science is the steward for a significant fraction of 
the fundamental physical science research in the United States, both at 
the Department of Energy laboratories and in universities around the 
country. Its portfolio and those of a number of other agencies are 
central to American competitiveness, as argued in the ``Gathering 
Storm'' report of the National Academies.\4\ In addition, many of the 
Office of Science research directions promise revolutionary advances in 
scientific areas vital to our national security. Despite the importance 
of a strong physical science foundation for future U.S. 
competitiveness, the history of investment in the Office of Science is 
not consistent with the Department of Energy's prominent role and 
potential for the future.
---------------------------------------------------------------------------
    \4\ Committee on Prospering in the Global Economy of the 21st 
Century, Rising Above the Gathering Storm: Energizing and Employing 
America for a Brighter Economic Future (National Academy of Sciences, 
National Academy of Engineering, Institute of Medicine, 2007, http://
www.nap.edu/catalog.php?record_id=11463.
---------------------------------------------------------------------------
    Sandia has a presence in four of the Office of Science's programs: 
Basic Energy Sciences (BES), Fusion Energy Sciences, Advanced 
Scientific Computing Research, and Biological and Environmental 
Research. BES represents the lion's share of our work and includes 
research in materials, chemical sciences, combustion, geosciences, and 
nanotechnology.
    The Office of Science's Center for Integrated Nanotechnologies 
(CINT) core facility was completed in 2006 and is jointly operated by 
Sandia and Los Alamos National Laboratories as a Department of Energy 
user facility available to university and industrial researchers. CINT 
is devoted to establishing the principles that govern the design, 
performance, and integration of nanoscale materials. Leadership in the 
science and engineering of nanotechnology will be important for U.S. 
competitiveness in the decades ahead.
    Sandia is a major partner in the Joint BioEnergy Institute (JBEI), 
a research center funded by the Biological and Environmental Research 
Program. The research focus will be on understanding how to reengineer 
biological processes to develop efficient methods for converting plant 
materials into ethanol or other biofuels. This 5-year effort may help 
make biofuels production truly cost-effective on a national scale.
    The synergy between programs in the Office of Science and other 
parts of the Department of Energy is very important. The investment 
across all of these programs must be balanced in order to assure a 
steady stream of scientific advances that can be translated into 
technologies of benefit to the American people. NNSA programs and all 
aspects of energy research and development gain from the fundamental 
science available in Office of Science programs. It would be beneficial 
for the Congress to support the funding levels contained in the fiscal 
year 2009 budget submission. This support would stimulate the kind of 
productive collaborations across programs that are so helpful. In 
addition, I am aware of efforts to strengthen the fiscal year 2008 
budget by considering a supplemental appropriation for the Office of 
Science. I would encourage your consideration of that matter.

          FUTURE OF THE NNSA LABORATORIES IN NATIONAL SECURITY

    During the cold war, the nuclear weapon laboratories benefited from 
a designated core mission that for 50 years had furnished the rationale 
for their exceptional technical foundations. The unambiguous importance 
of that mission assured sufficient funding to sustain an effective 
technology base.
    Today, the national security challenges are more complex than they 
were during the cold war. The NNSA laboratories are uniquely positioned 
to contribute to the solutions of these complex national security 
challenges. However, the NNSA Administrator and the laboratory 
directors face a formidable problem of how to maintain technical 
competencies--especially in nuclear weapons--in an era of limited 
resources, a smaller program, fierce competition for talent, and 
widespread public and political uncertainty toward the program. In this 
new and difficult operating environment, synergistic work supporting 
other national security missions is crucial. We depend on other 
national security activities to support and stabilize our critical 
capabilities and science base. It makes sense, therefore, to encourage 
more extensive use of the NNSA laboratories by multiple agencies and 
sponsors, thereby exercising and enhancing the competencies we require 
for stockpile stewardship.
    We are working with DOE and NNSA to establish a strategy and 
approach that provides enhanced access to the unique facilities at 
these laboratories that will significantly benefit the Nation's 
responsiveness to broader national security problems.
An Example of Multiprogram Synergy: Radar
    Sandia's capabilities for the nuclear weapon program benefit from 
synergy with other national security programs. An excellent example of 
this synergy is our work in radars.
    Competency in specialized radar applications is a required 
capability for the nuclear weapon program. As a result of initial 
investments in radar fuze capability for nuclear weapons, we began 
working on miniature radars based on synthetic aperture concepts in 
1983 for other national security applications. In 1985 we became 
involved in a special-access program for the Department of Defense to 
develop a 1-foot-resolution, real-time synthetic aperture radar (SAR) 
suitable for use in unmanned aircraft. Sandia flew the first real-time, 
1-foot-resolution, SAR prototype in 1990. Follow-on work sponsored by 
the Department of Defense reduced the size and cost of SAR systems, 
improved resolution, and significantly expanded the applications and 
military benefits of radar. Partnerships with industry have 
transitioned each generation of the technology into field-deployable 
systems. Sandia-designed airborne SAR systems have now been used for 
real-time surveillance by every U.S. military command.
    In this example, the original radar competency of the nuclear 
weapon program was improved by this work for the Department of Defense. 
The resulting advanced radar competency made it possible to apply new 
technology to the updated fuzing system for the W76-1 in the nuclear 
weapon program. This updated fuzing system would not have been possible 
without the competency that was maintained by work for the Department 
of Defense.

Broad National Security Engagement
    Today, nuclear weapon activities constitute about 42 percent of 
Sandia's funding. Department of Energy programs in nonproliferation, 
energy security, and science provide another 20 percent, while agencies 
other than the Department of Energy furnish 38 percent of our total 
operating funds.
    The work-for-others (WFO) process that has been in place for many 
years for accepting non-DOE work into the NNSA laboratories should be 
streamlined for the future. Many agencies could benefit from a 
reimbursable system that would give them direct access to the 
Department of Energy laboratories, and DOE would benefit from the 
additional programmatic activity and institutional support. In order to 
enhance our ability to serve the Nation, it may also be useful to 
explore innovative governance options to promote shared agency 
investment.
    There are questions that naturally arise as the laboratories take 
on important national security assignments from agencies other than the 
Department of Energy. It is important to recognize that other agencies 
do contribute more than the direct program costs of their activities. 
In fact, they pay the overhead rates that all programs pay, and those 
payments help provide support for operational and infrastructure costs 
and for the Laboratory-Directed Research and Development Program. A 
portion of our overhead rates is utilized for capital improvements, and 
in some cases other agencies have paid directly for the construction of 
buildings and the purchase of capital equipment. It is important to 
recognize that while operational costs and some capital improvements 
are currently being addressed, there is still a need for more 
substantive investment in the science and engineering fabric of the 
laboratory.
    The laboratories and NNSA should be encouraged to develop a 
realistic approach for maintaining the excellence of our scientific and 
engineering foundations well into the future. I believe we can succeed 
only as national security laboratories in a broad sense, serving the 
needs of multiple agencies for mutual benefit and shared excellence in 
national service.
    Thank you, Mr. Chairman.

                      ADDENDUM--ISSUES OF CONCERN

    The following specific issues of concern to Sandia National 
Laboratories--some of which were addressed in my statement--are 
summarized for the attention of the Committee.
Implementation of Complex Transformation
    We support NNSA in its effort to transform the complex into an 
efficient enterprise for stewardship of the nuclear deterrent. 
Implementation of the Preferred Alternative must be carefully managed 
so that essential capabilities remain robust and workforce impacts are 
mitigated.
    High-performance computing will remain an essential competency for 
Sandia. There is significant risk that the skills acquired by Sandia's 
system computing team will be lost over time without a high-performance 
computing platform on site. Sandia is committed to cooperating with the 
implementation of complex transformation and will monitor the 
implementation process to assure that capabilities are fairly 
integrated.
    A problem of worker displacement may arise in many job 
classifications as the Preferred Alternative is implemented. NNSA has 
set a goal of reducing the nuclear weapon complex workforce by 20 to 30 
percent over 10 years. At Sandia we have sought to do our part by 
responsibly managing our workforce size. We have reduced our direct 
nuclear weapon workforce by 18 percent since 2004, largely through 
retirements and by redirecting engineers, scientists, and technicians 
to other national security programs. It is important to recognize and 
account for the fact that those organizations that have already made 
progress toward achieving their goals should not be subject to even 
further reductions. Normal attrition should allow for appropriate 
workforce restructuring, but we may need a thoughtful program for job 
transitioning and retraining for those instances in which workforce 
dislocations are acute.

Support for the Weapons Activities Engineering Campaign
    The Weapons Activities Engineering Campaign advances the 
competencies that are the basis for assessing engineered components and 
subsystems and improving weapon safety and reliability. This program 
suffered a 40 percent reduction between fiscal year 2004 and 2007; the 
fiscal year 2008 appropriation was still 35 percent below the 2004 
mark, and the 2009 request is about the same. Chronic under-funding of 
this campaign may erode the advanced engineering capabilities at the 
laboratories over the long term. These capabilities are essential for 
maintaining confidence in the assurance stewardship activities for the 
stockpile.

Cyber Security
    The United States relies extensively on information technology in 
the form of computers, chips embedded in all forms of products, 
communication systems, and military capabilities. There are growing 
indications that the security of our society is increasingly vulnerable 
to attacks on these systems. A national initiative in cyber security 
deserves increased attention, and that is beginning to happen. The 
Department of Energy and the NNSA laboratories have much to offer in 
assisting with solutions in this area.
    During the past several years, the NNSA laboratories have 
experienced an increase in the level, intensity, and sophistication of 
network attacks directed against computer resources. Offensive 
capabilities for cyber warfare and cyber espionage have advanced by 
leaps and bounds worldwide. Other nations have been working assiduously 
to neutralize the cyber advantages that the United States has enjoyed 
for 2 decades and to exploit weaknesses in our cyber architecture as an 
asymmetric vulnerability for U.S. national security. These developments 
cause us to worry that the sophistication of the threats is growing at 
a faster rate than we are able to respond in hardening our systems 
against intrusions.
    NNSA's request for cyber security in fiscal year 2009 is $122.5 
million, an increase of 22 percent over 2008. This increase is 
essential to help us continue to harden our infrastructures against 
cyber attacks. But it should be recognized that this is a first step 
toward the kind of comprehensive effort needed to deal with this 
growing threat. Additionally, there is a need to bring in other parts 
of the Department of Energy in a more significant way, particularly the 
Office of Science.

Safeguards and Security Funding Offset for Reimbursable Programs
    The fiscal year 2001 appropriation for Weapons Activities created a 
direct-funded budget for safeguards and security at NNSA sites. The 
conference report directed the Department of Energy to obtain funds 
from non-DOE customers in 2002 and beyond to offset a portion of the 
security appropriation. The laboratories have been collecting that 
offset via an overhead charge applied to work-for-others (WFO) 
projects. This practice has been called into question. Accordingly, the 
fiscal year 2009 budget execution guidance provides for direct funding 
only. Thus the funds formerly collected via the WFO offset will be 
lost, which at Sandia will cause a shortfall of several million dollars 
in funds available for safeguards and security.

Program Enhancements That Would Be Possible With Additional Funding
            Full Utilization of the Refurbished Z Pulsed Power 
                    Accelerator
    The Z pulsed-power facility provides data for nuclear weapon 
primaries, secondaries, and non-nuclear components essential for 
stockpile stewardship. Experiments on Z also explore advanced concepts 
and study alternative approaches to fusion energy. Full single-shift 
utilization is the most efficient way to maximize the return on the 
value of the recent refurbishment of Z. Operations are currently funded 
jointly by NNSA's Science and Inertial Confinement Fusion (ICF) 
Campaigns.
    A new approach to creating high-current pulsed-power devices, known 
as a Linear Transformer Driver (LTD), has recently been demonstrated at 
Sandia. LTD is more than twice as efficient as traditional pulsed-power 
devices. This advance is likely to be the future of large-scale sub-
microsecond pulsed-power devices. It is also the simplest technological 
approach to fusion energy. Additional funding would enable Sandia to 
accelerate the maturation of this game-changing technology.
            B61 Life Extension
    The B61 bomb has several versions and is one of the oldest weapon 
systems in the legacy stockpile. Many of the technologies used in the 
B61 are old, several components are reaching end-of-life, and the 
system would require upgrades to be compatible with new digital-
interfaces for future delivery systems. Modern technologies and 
redesigned architectures would permit upgrades to this weapon without 
providing a new military capability. B61 refurbishment should be 
implemented as soon as possible to sustain the Nation's gravity-
delivered nuclear weapon capability.
            Discovery Science and Engineering Innovation Institutes
    The America COMPETES Act passed last year authorized the 
establishment of Discovery Science and Engineering Innovation 
Institutes at Department of Energy national laboratories. Discovery 
Institutes would be catalysts for transformation by helping to develop 
the next generation of science and engineering leaders to address 
national challenges and meet industrial needs to compete globally. An 
appropriation for the Discovery Science and Engineering Innovation 
Institutes at national laboratories would enable this initiative to 
proceed.

Nuclear Waste
    An acceptable solution for radioactive waste management is critical 
to the expansion of safe nuclear power in the United States. Sandia 
National Laboratories has developed significant waste-repository 
expertise through its work with both the Waste Isolation Pilot Plant 
and the Yucca Mountain Project. There are many options for managing the 
waste from current and future nuclear reactors, but all options 
ultimately rely on geologic disposal. The high-level waste from defense 
reprocessing will also need such a disposal method. The policy and 
resulting program for waste disposal need to be addressed now. My 
organization and I stand ready to support the administration and 
Congress in the development of a revitalized approach to this vital 
national issue.

    Senator Dorgan. Dr. Hunter, thank you very much.
    This is--as you might expect for those of us who don't work 
in this area--this is enormously complicated, complex, and 
difficult to understand.
    Dr. Hunter, when I visited Sandia, you told me something 
about a teraflop, so let me ask you to share that again. I 
think what you said is a teraflop is one trillion computer 
functions in a second.
    Dr. Hunter. That's correct.
    Senator Dorgan. Is that correct?
    Dr. Hunter. Yes.
    Senator Dorgan. You told me that we achieved the first 
teraflop in 1997.
    Dr. Hunter. That's correct, in the mid-1990s, yes.
    Senator Dorgan. And you told me the amount of space it 
required for the computers to achieve that teraflop--how large 
was that?
    Dr. Hunter. It basically required a full room, a complete 
room full of computers, and it required many thousands 
kilowatts of electricity to support it.
    Senator Dorgan. And you said 10 years later we achieve a 
teraflop with what size application?
    Dr. Hunter. Actually, today there are chips being produced 
that were one single chip--about the size of a dime--does a 
teraflop on a chip.
    Senator Dorgan. And it requires the energy of a 60-watt 
light bulb?
    Dr. Hunter. Sixty-five.
    Senator Dorgan. Sixty-five. All right. So, that's a 
teraflop--1 trillion computer functions in a second.
    Dr. Hunter. That's correct, yes.
    Senator Dorgan. You are saying that you have achieved, or 
are about to achieve next year a petaflop.
    Dr. Anastasio. We're about to achieve this summer, a 
petaflop.
    Senator Dorgan. Which is not a trillion functions per 
second, but a thousand trillion functions per second?
    Dr. Anastasio. That's correct, sir.
    Senator Dorgan. And Mr. Miller, you said that's not enough?
    Dr. Miller. Yes, sir.
    Senator Dorgan. Yes, well, okay, so----
    Senator Dorgan. I'm not sure I understand anything about 
this. I mean, I don't understand a trillion, I understand now 
what a teraflop and a petaflop is, I understand the dramatic 
advancements, I understand that weapons physics, perhaps, allow 
you to use these unbelievable, muscular, computer capabilities 
to understand things you didn't previously understand, but I 
think I speak for this subcommittee that, we don't understand 
how a scientist might use this capability. I think you tell us 
it's important, I believe that. I think that that is important.
    Let me ask a couple of questions, and Dr. Hunter, thank you 
for allowing us all to understand what these are.
    Director Miller, you said that you've lost 2,000 people--is 
that correct?

                         FUNDING AND PERSONNEL

    Dr. Miller. Yes, sir, it is.
    Senator Dorgan. Let me try to understand how that happens, 
because the nuclear weapons program has not decreased--we 
increased it, not very much--we increased it by about $50 
million last year, so it was relatively stable, just up, just a 
little bit.
    Science, we increased last year, so we increase--in this 
subcommittee--the funding for nuclear weapons and science, and 
yet you end up losing 2,000 people. Tell us how that happened, 
does it have something, perhaps, at least in small part, to do 
with the contract that Senator Feinstein talked about?
    Dr. Miller. Yes, sir. There are three fundamental elements 
that are associated with that loss of 2,000 people. The first 
is that the Federal funding for the Laboratory mostly coming 
from NNSA, went down $100 million, so the money that you 
appropriated went elsewhere.
    Senator Dorgan. That's an NNSA decision, not the decision 
of this subcommittee, is that correct?
    Dr. Miller. It is associated with the budget that was 
approved and where money was in the budget, so again, as an 
example, the money that goes into super-computing has steadily 
gone down. At its peak in 2004, it was $750 million a year, it 
is currently $545 million.
    Senator Dorgan. Where did it go? If we're increasing the 
appropriation, does it go to facilities? The only point I'm 
making is----
    Dr. Miller. Right.
    Senator Dorgan [continuing]. That doesn't--that 
responsibility doesn't necessarily rest at this table, if we're 
actually approving more money--slightly more money--for science 
and nuclear weapons. That's a decision made somewhere else in 
the bowels of NNSA. So, I'm just trying to understand it.
    Dr. Miller. So, yes, I mean, again, in a very, very 
simplistic fashion, you know, there are three elements to 
NNSA's budget. There is the science and technology, there is 
the physical infrastructure, and there is taking care of the 
stockpile that we currently have.
    Senator Dorgan. That's correct.
    Dr. Miller. And so the increases in the budgets, in fact, 
more than the increase in the budgets, are going to maintain 
the cold war stockpile that we have, and take care of the 
infrastructure that is aging and needs replacing. And where 
does that money come from? It comes out of science.
    Senator Dorgan. All right, and----
    Dr. Miller. And the rest of your question--so we lost $180 
million, I'm sorry--we lost $100 million in Federal funding. 
The cost of the contract, as a result of principally, the 
public to private sector changes, increased the costs at the 
laboratory $130 million. Of that $130 million, $40 million was 
the increase that Senator Feinstein asked about, in terms of 
the fees that go to the companies that are the management.
    The reason for those fees was the NNSA and congressional 
decision to attract industrial partners, if you want to attract 
industrial partners, it will cost. That's what it cost in the 
case of Livermore, about $40 million extra.
    Senator Dorgan. That's a pretty substantial cost. It cost 
you some, apparently, very attractive workers.
    Dr. Miller. Right. And then the other, then the third part 
is just inflation. The sum of all of that is about $280 
million, that's what drove the decrease in people.
    Senator Dorgan. Dr. Hunter, and Anastasio, tell me--since 
the implementation of the annual certification process that's 
gone back to 1997, tell me about your confidence in the 
reliability of the nuclear weapons that are currently 
deployed--you make certifications, you now come to us and say, 
``We're doing teraflops and petaflops and 80 this, and 
quadrillion that,'' and so we're obviously muscling up in 
technology and capability. Has your confidence decreased at all 
in your certification?
    Dr. Anastasio. Well, I would say first, I am confident in 
the stockpile today. The concerns I have, the risks going 
forward to the future. It is true that as we do our annual 
assessment process, and we do our continuous work during the 
year that we find issues with the stockpile that need to get 
addressed.
    Some of those turn out to be small issues that are not 
consequential--some are very significant. And, the way we deal 
with those, that are significant, have caused us to restrict 
the scope of certification for some of the weapons systems that 
we have in the stockpile. And I can't say too much more, in 
this forum.
    And so, we're still confident in the systems, but there are 
some restrictions that are a consequence with that. And my 
biggest concern is the trend of maintaining balance across the 
three elements that George Miller talked about in the program, 
and keeping those in balance, in light of the constrained 
funding that we have, and all of the challenges the program has 
to face.
    Senator Dorgan. Director Hunter.
    Dr. Hunter. Yes, I'd break the confidence into a couple of 
pieces. The first piece is our confidence--and my personal 
confidence in being able to find and detect issues--that is up. 
That is, I feel like we can do a better job today than we did 
10 years ago, to assess and understand issues.
    We then, of course, have the question of the confidence in 
the stockpile, and we still report the stockpile as safe and 
reliable, and our confidence in that statement is quite high.
    The question, though, is are there ever cases, as Mike just 
said, where we have to put restrictions on what we say about 
the nuclear weapons, and the answer is, we see those, and 
they're well-supported by our observations and our ability to 
detect them.
    Senator Dorgan. I want to just--I'm going to call on 
Senator Domenici, but I want to say that we asked you to come 
today to talk about the weapons issues, so these are very 
important issues and your three laboratories play an important 
role. You do more than that in each of your laboratories. My 
interest is, no matter what we are doing on some of these 
programs, we're always going to have a Stockpile Stewardship 
Program as long as there are nuclear weapons, and we'll need 
that work to be done.
    My interest at the end of the day is to maintain a robust 
workforce in our national laboratories to pursue aggressive new 
science, because I think that's a significant investment in the 
future of this country--in dozens of areas, not just the issue 
of certification of nuclear weapons.
    So, I think that you should know, there's a lot of support 
on this subcommittee for the advancement of science, and for 
the work that you do in your laboratories. I think the national 
laboratories are jewels, and produce significant opportunities 
for this country's future.
    I see this--you know, we do a lot of spending. We spend 
money. Some of it we invest. And a portion of what you do is a 
significant investment into the future of this country. We have 
to continue to lead the world in science, and that's part of 
the decision of this committee, as well.
    Senator Domenici.
    Senator Domenici. Mr. Chairman, I'm so pleased to hear your 
comments so early in your chairmanship, that it makes me feel 
very happy and, about having to leave here. I'll get back to 
the worry about the future.
    But first I would like to make a deal with you, Mr. George 
Miller.
    And I want to ask Senator Feinstein--have you ever visited 
the laboratories in New Mexico, Senator?
    Senator Feinstein. No, not in New Mexico. I've visited 
Lawrence Livermore, not----
    Senator Domenici. Well, I want to make a deal with you. I 
have never been to Livermore to see the great big machine that 
costs $4.5 billion, and that I wasn't for, and that gave him 
and his predecessor gray hair, because we're all--big shot 
Domenici was going to kill that machine, and frankly I didn't, 
in the end, I gave into my most natural tendency to be a sucker 
for big science. And I have been that, for my whole career. I 
am a sucker for big science. I've missed on a couple, but on a 
couple that are very important, I've not missed.
    And the theory that permeates me, my bones, because of 
that, has caused me to continue to be worried about our 
country, in terms of its greatness having been built around 
science and technology and we were the best. And I'm very 
worried about the fact that we're losing out, because that 
seems to be too hard for a lot of our young people--math, 
science, physics and engineering.
    But George, I haven't been there, and if you will promise 
to appropriately welcome me, and to be happy about my visit, 
and to be----
    Dr. Miller. We would be honored to have you visit, anytime, 
Senator. And we will make sure that it is a joyous occasion.
    Senator Feinstein. Yes, I'll bet.
    Senator Domenici. We want him to be joyous, too.
    I'll try to do it before I leave, okay? And I was just 
going to suggest that maybe the--in return, maybe I could take 
the distinguished California Senator to New Mexico, we could 
make a swap, she could come and see our labs, and I go to see 
your big lab.
    Senator Feinstein. I would be delighted, thank you.

                       NATIONAL IGNITION FACILITY

    Senator Domenici. I think you should know--I do think you 
should know, Senator, that I was fully aware when we funded the 
NIF, the National Ignition Facility, as part of Stockpile 
Stewardship, and it hasn't been functioning yet, in that 
capacity, unless it is in the last few months, because it 
wasn't ready. So a big addition to our Stockpile Stewardship 
awaits implementation when we open NIF, if it works. And it'll 
work in some respects, for sure, but will it work in all 
respects, in all the ways or not? We don't know.
    But, I knew fully that Lawrence Livermore, without that 
machine, might be a Lawrence Livermore with a short life. The 
people of California should know that--it might have died on 
the vine. That's given it a new breath of scientific prowess 
that will bring many thousands of people there to use that 
machine, and they won't be part of Science-based Stockpile 
Stewardship, they'll be part of a pushing America yet further 
to the cutting edges of science, as they use the machine.
    Los Alamos got a machine out of it, and it's finished and 
it's finished and it's doing a great job, and they also got 
great computers out of it, and other things. And Sandia got a 
number of things, the last, clearly, is a fantastic Mesa 
facility which we've both seen, which specializes in small 
things--when you go there you will thoroughly amazed at--and 
not so worried about--whether our country's going to lose out 
in nano and technology, and the manufacture of small things.
    Small machines--so small that you can put all kinds of 
machines on little--machines, literally--on a little piece of 
metal. And those machines worked, in there pumping their little 
brains out, and we can't even see them, and we're wondering 
what to do with them, and that's what they're doing there, so--
we've got those done.
    So, a lot of things have been accomplished. I worry about 
our country on science and technology training, physics, 
engineering, math and whether we have good teachers, and 
whether we're producing students. One way I could find out 
would be to ask the three of you who are--you are a demand 
source for the best scientists that we can produce, you want 
them, right? You're out there hiring them. So, let's ask you--
are you noticing a substantial decrease in the number of 
talented Americans that seek complicated science jobs at your 
laboratory?
    Dr. Anastasio. Senator, and by the way, Senator Feinstein, 
we'd be honored to have you come visit any time you were able.
    Senator Feinstein. Thank you.
    Dr. Anastasio. And I'd love to see you again, in that 
context.
    Senator Feinstein. Thank you very much, thank you.
    Dr. Anastasio. Senator Domenici--I do see a drop off in the 
number of U.S. citizens who are at the top of their field in a 
number of key areas that are important to the laboratory. But I 
am encouraged that we're still able, at these laboratories, to 
attract some of the best and brightest people that are still 
available--whether they be U.S. citizens, or not. And I think 
that's important, that we can still attract very high-quality 
staff, but the ability or the success of this country in 
generating all of those folks, we are seeing a drop-off.
    Senator Domenici. George? Excuse me, Mr. Miller?
    Dr. Miller. Yes, sir. I would agree with what Mike said, we 
have a very prestigious post-doc called a Lawrence Fellow, 
that's basically at the top of the line in terms of post-docs. 
Generally, 60 percent of the people who win those post-docs are 
not U.S. citizens.
    So, it is a concern. The good news is we still get the very 
best and the very brightest at the laboratories, because of the 
science investments that we've talked about, because the 
science is so exciting, because the mission is so compelling. 
And quite frankly, even though our core mission is nuclear 
weapons, about 80 percent of what we do is actually publishable 
in peer-reviewed scientific journals, and so all of that is 
essential.
    Senator Domenici. Dr. Hunter.
    Dr. Hunter. Yes, Senator Domenici--I'd like to add my 
welcome to Senator Feinstein, please come.
    Nationally, we have a problem. We are not seeing enough 
students going into the fields of science and engineering and 
we're not seeing enough people coming out, the way we'd like to 
see them.
    One thing we find about these laboratories is, they not 
only have places of excitement because of the work, but they're 
also places of values and character, and they support the 
national interests, and that brings a lot of the right people 
to our laboratories. So I can report, basically, that we're 
able to get the people we generally need, but the national 
problem is one of--very significant--and one I think all of us 
can do more to try to help.
    Senator Domenici. I'm going to submit some questions for 
you to answer in writing, but we were--we've kind of gone over 
our stay here, today. And we still, perhaps, will want to go 
another round, I don't know.
    But, I want to suggest to--here, and for all of you to hear 
it and the subcommittee to hear it--we cannot continue to want 
so much of these laboratories, as we're here today describing, 
expect them to do so much, if we don't spend more money on the 
science part of the laboratories. No question in my mind that 
we are getting squeezed out, science is getting squeezed out, 
especially math, science--math, physics, engineering, and the 
like--in our national picture, too, in terms of what's going on 
in our schools. And I'm very worried about it, and hope you 
will keep your laboratories exciting, because that's what young 
people are looking for, and I think we're giving you enough 
equipment to do that.
    One question--while we have praised NIF, we should talk a 
minute about the little brother, or little sister to NIF, the 
one you have at your place that's got a funny name, called the 
Z Machine, ZA Machine or something.
    Would you tell the chairman and Senator Feinstein what that 
is, and----
    Dr. Hunter. Sure.
    The Z Machine is a very complementary facility to the NIF 
facility, it is working now, we have just refurbished it.
    It is another approach to providing very high-density, 
high-energy density environments which uses what we call pulse 
power--lots of big transformers dumped into a very small space. 
And so we've just finished refurbishing that, we're doing 
experiments today looking at implosion of fusion capsules, and 
experiments today looking at materials under very high 
pressures, and very high temperatures. And it's operating--it 
can operate as often as once a day, and we use it routinely and 
we work day in and day out with the other two laboratories to 
support experiments that they do.
    Senator Domenici. Okay. Now, will you please tell us about 
why you're worried about your laboratories--availability of 
appropriate computers?
    Dr. Hunter. Sure, I think it's the same general issue that 
Mike and George commented, because as we look at the balance of 
the investment, or the resources that go into the stockpile 
itself, or the other parts of the complex infrastructure, and 
ask them, what is the remaining amount that's spent on science? 
We find a normal and natural competition there, and that 
science piece, and the application on G, on Z, has been reduced 
over time to where we're barely able to operate at the one 
shift a day level.
    Senator Domenici. Thank you.
    Thank you, Mr. Chairman.
    Senator Dorgan. Senator Domenici, thank you very much.
    I'm going to call on Senator Feinstein, but I want to 
observe, relative to this question of funding, I just came down 
the hall--as I think did Senator Domenici--from another hearing 
today, Senator Feinstein was at the hearing--in which the 
administration's requesting $196 billion as an emergency piece 
this year for Iraq and Afghanistan.
    So, the result is, because we have that war going on, it's 
very expensive--that's $16 billion a month, $4 billion a week, 
just for that emergency piece, in this year. And the result is, 
we get a domestic discretionary request in the budget in this 
subcommittee that says, ``Okay, we need to fund the nuclear 
weapons programs, the laboratories, science, and by the way we 
want you to cut $1 billion our of water projects,'' the Corps 
of Engineers, lost $800 million, the Bureau of Reclamation cut 
$200 million, roughly. The fact is, it doesn't add up.
    And so, this subcommittee, you know, unless we find some 
additional funding, is left with a Hobbesian choice. And so, 
last year we found some additional funding to try to fix some 
of these problems in the President's budget, but it is--it's a 
difficult problem, and no one here wants to short science. 
Nobody on this panel wants to do that. It's just that the 
President has given us a budget that, we've got to fix it, 
because it doesn't work.
    Senator Feinstein.

                      NATIONAL LABORATORY FUNDING

    Senator Feinstein. Thank you very much, Mr. Chairman.
    First of all, it's very fine to see the three of you here, 
thank you very much--I have great respect for each of you. I 
have respect for what you do, I don't have respect for the 
product. I'm not a friend of nuclear weapons, and you have to 
know that up front.
    I am a product of Nagasaki and Hiroshima, I grew up, I saw 
what 14 kilotons can do. I saw what 7 kilotons can do. I have 
not seen what 100 kilotons can do, and I've not seen what 400 
kilotons can do, but I know they're out there, and I am very 
concerned.
    I am not for a nuclear bunker-buster of 100 kilotons. To 
me, it was immoral. I am not for an Advanced Weapons Concept 
Program of building under 5 kiloton tactical battlefield 
nuclear weapons. I am not for 450 new plutonium pits.
    So, I'm at a very different position. And I want to see the 
United States move away from nuclear weapons. I want to see us 
do it in a way that protects our national security. I want to 
see us take a real leadership role in non-proliferation. I want 
us to work with nations so they don't become nuclear weapons 
nations, and that's my heart, and that's my vision, and that's 
why I'm here today.
    With respect to the budget in 2008, it was $1.091 billion, 
as passed. The President's budget is $1.036 billion--that's $55 
million less than last year. So, it's the President's budget 
that we are essentially working from, in this subcommittee.
    I am concerned about putting 500 highly trained scientists 
and engineers into the job market at this stage--I must tell 
you that right up. I'm concerned about it from a national 
security perspective.
    And Dr. Miller, I don't know if there's anything we can do 
about that, I don't know if they can be employed at Sandia, or 
at Los Alamos, but I worry about it. Do you have any comments?
    Dr. Miller. Thank you, Senator Feinstein. I worry about it 
a lot. These are my colleagues, many of them I've known for 35 
years, which is how long I've been at the laboratory, so this 
is an extraordinarily difficult time for the laboratory, and 
for the entire complex.
    The fact of the matter is as Director of the laboratory, I 
have a fiscal responsibility to deal with the realities that 
the Federal Government gives me. And that's the reality of this 
particular situation. As you know very well, it's occurring at 
laboratories across the Nation. Mike has also lost 2,000 people 
over the last 18 months. There are layoffs anticipated at the 
Stanford Linear Accelerator, at Argon, at Oak Ridge. The fact 
of the matter is, as we have all said, in different ways, and 
from different origins, the investment in science and 
technology for the Nation's benefit is under siege.
    So, I worry a lot about it, I do have responsibilities to 
maintain fiscal responsibility, and that's what has to happen.
    Senator Feinstein. Well, let me ask you something 
precisely, it's my understanding that the lab had expected 
about $80 million in increased costs, but the actual number 
spiraled to $280 million? What was the difference? What took up 
that difference?
    Dr. Miller. The $80 million went to $130 million, the extra 
$50 million is just inflation, which we knew about all along. 
The principal changes were--as I said before--the change from a 
public sector to a private sector.
    Senator Feinstein. How much is that?
    Dr. Miller. That's about $100 million.
    Senator Feinstein. In----
    Dr. Miller. Of the $130 million.
    Senator Feinstein. In what?
    Dr. Miller. Okay, so it is the fact that we are no longer 
tax-exempt, so we have certain taxes we have to pay. The 
healthcare, as a University of California employee, the 
healthcare benefits that the University offers are amortized 
over the entire State. Livermore has to deal with the 
healthcare in Northern California. The healthcare costs for the 
same benefits went up 47 percent.
    Senator Feinstein. How much in dollars?
    Dr. Miller. Sixty-five million.
    Senator Feinstein. So, in other words----
    Dr. Miller. We chose, we chose not use----
    Senator Feinstein [continuing]. Healthcare costs, equal to 
UC's increase cost $47 million, wow.
    Dr. Miller. Right. And the third was that, in the decisions 
that individual employees took about what kind of a retirement 
system to choose, they were given two options--one, a defined 
benefit plan like, identical to the University of California, 
one is a defined contribution plan. The defined contribution 
plan requires that the laboratory put money up front. We used 
an assumption that the same fraction of employees as took the 
defined benefit at Los Alamos, would take it at Livermore. That 
was not the case. More people picked the defined contribution 
plan, which again, increased the up-front costs for the 
laboratory.
    Senator Dorgan. Senator Feinstein, might I interrupt for a 
moment?
    Senator Feinstein. Certainly.
    Senator Dorgan. I'm--would you submit a report to this 
subcommittee on that $200 million--you said that it was a $200 
million difference?
    Dr. Miller. Yes, it's about $280 million total, including 
Federal funding. But yes, I'll be happy to.
    Senator Dorgan. Could you submit a report that outlines 
those costs, those added costs, so that we understand it?
    Dr. Miller. Yes, sir.
    Senator Dorgan. And let me ask one other question, if I 
might. What--is any of this applied overhead that is----
    Dr. Miller. Let's see--those costs are collected through 
overhead so that it makes it look like the laboratory is more 
expensive in an overhead, even though we actually haven't added 
in the overhead people, and the fact of the 2,000 people, 
roughly two-thirds, are being reduced out of the overhead, or 
support side of the laboratory. So, we're actually reducing the 
number of people in the overhead, but the overhead costs are 
going up.
    Senator Dorgan. The reason I ask the question is there's a 
lot of overhead expenditures applied--or overhead charges 
applied--to various Federal money that moves out, and so----
    Senator Feinstein. Well, but I think there were a lot of 
unintended consequences of this. And that's what concerns me. I 
don't think the people that made these decisions really 
understood that if they did this, there would be $47 million in 
additional costs for healthcare, that there would be fees that 
would go up, and the way these fees went up, and that the tax-
exempt status of the University was going to change, so that it 
is a very hefty tax burden that's put in there now.
    Dr. Miller. And Mike could give you a similar story for Los 
Alamos.
    Senator Feinstein. See, this concerns me. And the problem 
was, as I understood it, from what I overhear, is the concerns 
over security at Los Alamos, in order to compete for the 
contract, you had to provide a different management structure 
from what had existed in the past--stop me if anybody thinks 
I'm wrong.
    Senator Domenici. You're right.
    Senator Feinstein. Therefore, you took on all of these 
added costs by bringing in the private sector in a joint 
venture, which may or may not have been a good idea, I can't 
pass judgment on it. But one thing we know is there certainly 
are greater costs.
    Senator Dorgan. Senator Feinstein, I'm going to ask Los 
Alamos to submit the same report that I've asked of Lawrence 
Livermore, with respect to----
    Dr. Anastasio. Yes, sir, we'll be happy to do that, Mr. 
Chairman.
    Senator Feinstein. So, that when the President actually 
gave us a budget that was $55 million less--less than last 
year--just for, that's just for Lawrence Livermore, right?
    Senator Domenici. Yes.
    Senator Feinstein. Just for Lawrence Livermore, that really 
put them behind the 8-ball with these other costs. Is that a 
correct interpretation?
    Dr. Miller. Yes, ma'am, that's exactly right.
    Senator Feinstein. And it seems to me that the 
administration has to take into consideration that when we go 
this way, it's going to cost more, and those costs have to be 
met. And that we also have to know that it's going to cost 
more.
    So, the result is, I don't know whether these are senior 
scientists, whether they're junior people--but to quote you, 
they are highly trained scientists and engineers, that are now 
thrown into a job market--so let me ask you, between the three 
institutions, how many highly trained scientists and engineers 
are now being thrown into the job market? Being involuntarily--
    Senator Domenici. Over what period of time? Three years?
    Senator Feinstein. Well, this--no, this last year.
    Senator Domenici. Oh.
    Dr. Anastasio. Yes, at Los Alamos, we've reduced the 
workforce by a little over 2,000 people over the last 18 
months, and I would say, a little less than half of that number 
are technical people.
    We were able to do that through an involuntary--a voluntary 
program. We did not have to do an involuntary, as George is 
doing, and in other, other turnover--managing the turnover, the 
normal turnover, without replacing people that leave, but 
year--I would say close to 1,000 people----
    Senator Feinstein. Okay.
    Dr. Anastasio [continuing]. With a technical background, 
over the last 18 months.
    Senator Feinstein. And, Mr. Miller, could you comment--
answer that same question?
    Dr. Miller. Yes, again, we have lost--by the end of this 
fiscal year, relative to the beginning of 2007, so again, 
roughly 2-year period, we will have lost 2,000, of whom about 
500 are highly skilled engineers and scientists.
    Senator Feinstein. Mr. Hunter.
    Dr. Hunter. Thank you, Senator.
    In the weapons program, we've actually reduced the 
workforce by about 500 or 600 people. The net number that 
exited the laboratory was more like 200 or 300, and of that, 
about half were scientists and engineers. The reason our 
numbers are smaller is because we added a lot of other work 
from other agencies to make up for some of the downfall in 
nuclear weapons.
    Senator Feinstein. All right, so now we have thousands of 
people floating around, when we know there's cyber warfare 
going on, there are all kinds of intrusions, there are all 
kinds of efforts to capture these scientific secrets. And I 
think it's really problematic.
    Senator Dorgan. Dr. Hunter.
    Dr. Hunter. I may have been--I should clarify. In our case, 
we handled that reduction by normal attrition and limited 
hiring, as opposed to laying people off.
    Senator Feinstein. So, you didn't lay anybody off?
    Dr. Hunter. We did not lay anybody----
    Senator Feinstein. Okay.
    Dr. Hunter. This year we've laid off a few tens. I wanted 
to clarify that, thank you.
    Senator Feinstein. Thank you.
    Senator Dorgan. Senator Domenici.
    Senator Domenici. Yes.
    Senator Dorgan. Thank you.
    Senator Domenici. I wondered if Tom D'Agostino--I know 
you're not at the witness stand, but do you have any 
observations about this last 10 minutes of testimony?
    Mr. D'Agostino. Absolutely.
    Senator Domenici. That might be helpful to us?

                 SCIENCE AND TECHNOLOGY FUNDING TRENDS

    Mr. D'Agostino. I think there's at least a sense after this 
discussion that the administration is not interested in science 
and technology--I want to clarify that right off the bat. Going 
back----
    Senator Feinstein. Who said that?
    Mr. D'Agostino. Well----
    Senator Feinstein. We didn't say that.
    Mr. D'Agostino. We do have a problem in science and 
technology, there's no question about it. I think it has to do 
with the levels of resources that ultimately end up at the 
institutions. And what we're seeing here, and I think maybe Tom 
Hunter alluded to it, it's the natural tension between 
maintaining a 50-year-old nuclear weapons infrastructure and 
dealing with flat budgets. This year is an exception--we 
requested about $9.1 billion or so for the NNSA. In prior 
years, we were fairly consistent asking for money at about the 
$9.3 billion range.
    And this subcommittee's been very supportive of, there's no 
question about it, the science and technology program. But when 
things get through, we've had a year-long continuing resolution 
in fiscal year 2007, we had an Omnibus last year, and the $9.3 
billion typically gets reduced to the $9.1 billion range. 
That's been the trend over the last 2 years.
    And so now we have a flat budget over the last few years. 
And as our facilities get more expensive to maintain, there is 
going to be reductions elsewhere.
    What we're trying to do is aggressively reduce our fixed 
costs--those costs that are kind of below the radar, and George 
alluded to it when he talked about a two-thirds reduction in 
the workforce.
    Since it's typically unpopular to ask for more money in 
nuclear areas--and we've seen 3 years worth of relatively flat 
budgets--we're trying to aggressively go after and reduce those 
fixed costs, so we can reinvest our resources into this 
infrastructure. And it's a hard management problem, there's no 
question about it.
    I think we all agree that we want to reduce the costs of 
this program, without dropping the ball on the science and 
technology side. And what you're hearing, I believe, are those 
challenges we face.
    Senator Dorgan. Yes, well, but let me just also say, as I 
said before, this subcommittee doesn't just deal with you, this 
subcommittee deals with a range of other things, and we have a 
budget that is sent to us without a lot of forethought, in my 
judgment, on another large area, and that is water. It's not 
nearly as large as nuclear. But the implication that this 
subcommittee should take a look at this country's water needs, 
and cut $1 billion out of water investment is preposterous.
    Mr. D'Agostino. Right.
    Senator Dorgan. We're not going to do that. So, we also 
have a balancing problem, and it's because we've gotten a 
budget submitted to us that does not meet this country's needs.
    And so, I think this subcommittee is very strongly in 
support of science.
    Mr. D'Agostino. Absolutely.
    Senator Dorgan. And will be. But, we are also confronted 
with a budget that, in many ways, I think, is playing a game. 
We know what the water projects are, we know which ones have 
been started, we know which ones have to be invested in to be 
completed. And yet there's a bit of game being played, I think, 
in budget--Senator Domenici was chairman of the Budget 
Committee for many years, so he will recognize these issues.
    This is not our only responsibility, but it's a very 
important one. And I just want to make a point, that we're put 
in a bad position by extraneous events, when the President 
sends us a budget and says, ``Let's cut water projects by $1 
billion,'' and that will not happen. This subcommittee's not 
going to do that.
    So, we're going to try to do everything we can to make sure 
that we provide sound funding for science, and I've already 
made a statement on how I feel about the national laboratories. 
Senator Domenici, do you want to make final comment?
    Senator Domenici. Yes, I just want to say, it does bother 
me that we end up testimony, seemingly, on a low note. But I 
don't think things are really on a low note. I think the 
laboratories have done quite well, considering that we really 
are going from a cold war to a non-cold war situation, you 
know, looking back at history, when America had giant projects 
that were good for war, and then the war ended, we just got rid 
of them, we didn't have anything left over. We've done that 
before with giant science projects that helped the government--
the war ended, and we dismantled everything.
    I think we've done quite well, building this down, and only 
in the last few years has it caught up with us.
    But, I do want to say that I think you're telling us 
something, and just my interpretation--you know, if we're going 
to alter, change, or change the nuclear stockpile 
substantially--and I think you all are suggesting that we're 
probably going to--it's not going to look like it is today, in 
15 years. It's going to look considerably different. It's going 
to be much smaller--smaller numbers, smaller weapons--we're 
hoping that that also will mean that we can--it'll cost less to 
maintain them and keep them, and make sure they're reliable.
    But we're not moving head on that yet, we've solved the 
problem of not doing underground testing, and then we started 
Stockpile Stewardship out on a limb--nobody knew anything about 
it. When it was presented to me, I couldn't remember the three 
words, Science-based Stockpile Stewardship. I had to write them 
down, because they were so funny.
    Now, they've just--it's pretty obvious, what we've done, 
we've accomplished a great deal. In the meantime, we need these 
laboratories living laboratories for the future, as I see it. 
And we spent a lot of money doing that.
    But there are better laboratories for Science-based 
Stockpile Stewardship, wouldn't you think, Mr. Miller? They're 
better for it, than without it?
    Dr. Miller. Absolutely, sir. You said it very well.
    Senator Domenici. I think that's right, and I think that's 
good for the country. And we'll try our best, and we hope the 
new management teams--which were the decision of the 
administration--and I don't blame them, that was their 
prerogative, that we were going to go with the new system--I 
hope it works.
    Director Anastasio, I hope you all dedicated yourself to 
better management at Los Alamos, and I think it's gotten a 
little better. I don't have to say that about Director Hunter, 
you've always had the best management, you didn't even have to 
lay off any people--that comes with good management, 
incidentally.
    And Director Miller, I'll find out more about you when I 
come to see you, okay?
    Thank you all, very much.
    Senator Dorgan. The interesting thing, Senator Domenici, is 
that we have a lot of nuclear weapons, we talk a lot about 
them, we can't possibly use one, ever, without catastrophic 
results for our planet.
    Senator Domenici. Right.
    Senator Dorgan. We've signed up, as a country, to go to 
zero nuclear weapons at some point in the future. We will not 
do that, of course, until it is--if ever--it is determined to 
be safe and secure for our country to do that.
    But, I think the other side of this subcommittee is nuclear 
non-proliferation, which is very important, and we will be 
talking more about that at a later time, as well.

                     ADDITIONAL COMMITTEE QUESTIONS

    At this time I would ask the subcommittee members to please 
submit any questions they have for the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted to Hon. Thomas P. D'Agostino
                Questions Submitted by Senator Domenici

    Question. Two months ago you named Dr. David Crandall as NNSA's 
Chief Scientist. In your announcement of his promotion, you stated that 
you ``outlined your expectations for Dave in this new challenging 
assignment.''
    What are your expectations and can you please tell me how you 
intend to measure his success in implementing a comprehensive science 
strategy for the labs?
    Answer. Dr. Crandall will advise me and represent the NNSA on 
science and technology issues for national security. He will work with 
NNSA program managers and with our national laboratories to define the 
nature of science and technology that NNSA can advance for national 
security and how to do that in collaboration with other parts of DOE 
and other agencies that have synergistic mission needs to those of 
NNSA. Measures of success will include defining strategic documents 
with more specifics on science and technology and agreements with other 
agencies on how to share resources to advance our respective mission 
needs.

                           ADVANCED COMPUTING

    Question. When we faced the decision to proceed with the science-
based Stockpile Stewardship program, it was decided that the labs would 
need to develop advanced computing capabilities that didn't exist at 
that time. I recall there was significant discussion regarding the 
potential to develop this capacity.
    Fifteen years after we initiated this effort can you tell me if we 
have met or exceeded our computing goals at the time? What has this 
meant to Stockpile Stewardship?
    Answer. NNSA has exceeded its computing goals in terms of both the 
platforms and the codes. In 1996, the Accelerated Strategic Computing 
Initiative, or ASCI, originally planned for a 100 Tera-Flop (TF) entry 
level system to support a high-resolution, end-to-end, 3D simulations. 
The original goal of 100TF was achieved in fiscal year 2005 with 
delivery of the ASC Purple machine. We also acquired the BlueGene/L 
machine clocked at 360TF for science applications.
    Additionally, in 1996, the 100TF goal centered around performing a 
single calculation that was highly resolved enough to distinguish 
physical error from numerical error. The realization of Purple was 
accompanied by detailed simulations that revealed physics not 
previously seen in the 50-plus years of computational science. Today, 
we not only have the capability increase the physics basis in our 
simulations for annual assessments and other production work, but also 
have begun to adopt the codes for broader national security 
applications (i.e. threat reduction, secure transportation).
    Question. What has this meant to U.S. leadership in computing?
    Answer. To illustrate the program's impact on computing at the 
high-end: on the latest (Nov., 2007) Top 500 list of supercomputers 
around the world, the top 12 platforms shown have directly benefited 
from ASC-funded architectures. Of those 12, 9 are located in the United 
States. The United States has the top slot, with BlueGene/L at 478.2 
teraflops (as measured on the Top500 benchmark), almost three times 
faster than the second-place machine. Of the entire top 500, fully 38 
percent have major components that derived from ASC investments, and 25 
percent employ internal networks developed through ASC collaborations 
and projects.
    Your Advanced Computing and Simulation budget fails to provide any 
specifics regarding the proposed computer acquisition budget, including 
any mention of the Roadrunner platform and the status of the Sequoia 
platforms.
    Question. Can you provide the specific details as to how much you 
have budgeted for each system and the status of each platform? What are 
the out year acquisition needs and how will this budget support the 
preferred alternative you have proposed?
    Answer. The program has budgeted $25.9 million in fiscal year 2009 
to cover the final payments for Roadrunner. Since the Sequoia 
procurement is about to release a Request for Proposals, a final 
payment schedule has not been negotiated. However, the funding profile 
for fiscal year 2009-fiscal year 2012 totals about $220.0 million. In 
addition, the program has a need to replace the Purple platform that 
supports the current National User Facility and has directed the LANL-
SNL Alliance for Computing at Extreme Scales (ACES) team to begin the 
procurement process that will result in a platform, currently referred 
to as Zia, to be delivered in fiscal year 2010. While the program set 
an initial funding target of about $66.0 million for Zia, we are 
reevaluating the ability for that budget level to meet mission needs.
    It is my understanding that the NNSA intends to acquire a third 
computer known as ``Sequoia'' for Livermore to support the Blue Gene/L 
and Purple platforms. Your budget is silent on this point as far as I 
can tell.
    Question. Did the NNSA ever conduct a competitive solicitation for 
this new acquisition for Livermore?
    Answer. The program documented a mission need in March 2008 for a 
petascale platform to address uncertainty quantification. That led to a 
decision to procure a system, code-named Sequoia, to be hosted at LLNL. 
While being housed at LLNL, it is not a follow-on to BlueGene/L or 
Purple. Sequoia is being acquired via a competitive process where the 
selection will be based on best value, determined by a combination of 
price and technical features related to NNSA workload. The release of 
the Request for Proposals is imminent and five major vendors have 
expressed interest in bidding.
    Question. Did the laboratory or the NNSA consider any other 
vendors, other than IBM, regarding other technology or cost scenarios 
for this acquisition?
    Answer. LLNL will evaluate all proposals received in response to 
the Request for Proposals and negotiate a contract with the winning 
bidder based on best value to the government.
    Question. All of the most recent computing platform acquisitions 
are IBM products. What is your plan to consider alternative vendors or 
platforms to ensure we are considering the best alternatives in the 
business?
    Answer. NNSA has directed LLNL to conduct a competitive 
solicitation for Sequoia, and to employ the traditional process of 
commissioning a tri-lab committee to advise the source selection 
authority on technical responsiveness of the bids.
    Question. In the fiscal year 2008 Omnibus, language was included 
directing both the NNSA and the Office of Science to establish a joint 
advanced computing and algorithm R&D program. The objective of this 
language was to restore a world leading R&D capability in high 
performance computing architectures. The United States won't maintain 
its world leading role, if we don't continue to support research.
    What is the Department doing to establish this capability and what 
goals have been set? Also, what is the strategy for achieving these 
goals?
    Answer. The Department has established the Institute for Advanced 
Architectures and Algorithms (IAA). The goals of IAA have been set to:
  --Undertake focused research and development in partnership with 
        industry and academia on key impediments to high-performance 
        computing;
  --Promote the integrated co-design of architectures and algorithms;
  --Develop and simulate prototypes to demonstrate advantages that 
        allow application developers and algorithm researchers to 
        explore advanced architectures; and
  --Train future generations of computer engineers, computer scientists 
        and computational scientists.
    Both the DOE Advanced Scientific Computing Research (ASCR) and the 
NNSA Advanced Simulation and Computing (ASC) offices have approved the 
goals, structure and management of the IAA, including the requirement 
for every proposed IAA project to be submitted to ASCR and ASC for 
joint peer review and approval. Currently there are two technical 
workshops on memory and interconnect technologies being planned for the 
summer and the third on algorithms in the fall.
    Question. As you know, I have had great concern about NNSA's high 
performance computing strategy. In your effort to reduce the computing 
investment at our national labs, you have directed that Sandia and Los 
Alamos form a partnership in computing. The Labs have completed the 
negotiations and codified this deal in a Memorandum of Agreement.
    Since your budget request for computing is extraordinarily vague 
can you explain what your plans are for this joint computing effort, 
how the NNSA will utilize it, what type of investments will be made and 
how this is an improvement over the existing three lab strategy?
    Answer. The joint LANL-SNL MOU, formally establishing the Alliance 
for Computing at Extreme Scales (ACES), was undertaken to capitalize on 
each labs strengths as the preferred alternative was implemented and 
present an icon and entry point into the labs for academia and industry 
working with the ASC program at the New Mexico labs. The most immediate 
and visible impact will be that ACES will host the next National User 
Facility for ASC capability computing with the design team being 
directed by SNL and the operations team being led by LANL. The program 
expects a similar division of labor as future systems are acquired by 
ACES. As the program works to identify efficiencies we look to preserve 
and accentuate our strengths. ACES emphasizes the strengths resident in 
the New Mexico labs for current and future national security 
applications.
    Question. As you are well aware I believe the NNSA has made a 
serious mistake in not pursuing a trilab advanced computing strategy to 
ensure that each lab works to develop cutting edge architectures as 
well as to support the world's best computer simulation capabilities.
    Despite the fact that the NNSA has proposed to reduce computing 
investment as part of the preferred alternative, are you willing to 
keep an open mind to alternative approaches recognizing that computing 
has opened up significant modeling capabilities for the labs?
    Answer. The NNSA labs are world leaders in designing, acquiring and 
operating supercomputers. Our approach for ensuring cost-effective, 
efficient, and sustainable operations that still met the needs of the 
Stockpile Stewardship program has led us to make some tough decisions. 
We have sought, and will continue to seek, technical advice from 
outside the headquarters as we develop strategic guidance and direct 
laboratory investments.

                  BUSH ADMINISTRATION--WEAPONS POLICY

    Question. Mr. D'Agostino in your statement, you said that in 2004 
the Bush administration ordered the nuclear weapons stockpile to be cut 
in half and then ordered an additional 15 percent cut just this past 
December. I believe critics of the President forget these facts. Many 
also have forgotten, or were never aware of the fact that this 
President recommended a shift in the role of the deterrent in the 2001 
Nuclear Posture Review.
    Can you explain to the subcommittee what this shift has been and 
the significance of this policy?
    Answer. The 2001 Nuclear Posture Review addressed ``strategic 
capabilities'' not just nuclear forces. Its basic findings were:
  --Russia is no longer an immediate threat--this fact itself has led 
        to dramatically reduced U.S. reliance on nuclear weapons, and 
        enabled very substantial reductions both in deployed forces and 
        the overall nuclear stockpile.
  --Precision conventional strike and missile defenses will further 
        reduce reliance on nuclear forces.
  --But nuclear weapons are still an important element of national 
        security strategy.
  --Substantial nuclear arsenals remain, and proliferation concerns 
        grow--we can no longer predict when and where major new threats 
        will emerge.
  --Nuclear force planning is thus no longer threat-based (i.e., on 
        cold war nuclear targeting model) but on broader concerns of 
        defense policy.
  --The defense R&D and manufacturing base, including the nuclear 
        weapons infrastructure represented by NNSA's national 
        laboratories and production facilities must be able to respond 
        on needed timescale to emerging threats.
    The ideas reflected in the 2001 NPR reflect a major 
reconceptualization of how strategic capabilities including nuclear and 
conventional strike forces, the supporting defense infrastructure and 
missile defenses interrelate in advancing the security interests of the 
United States and its allies.
    Question. Consistent with the fiscal year 2008 Omnibus, the NNSA 
has adopted the congressionally directed level of 50-80 pits per year 
production capacity as the preferred alternative. Can you please 
explain the significance of this shift and the budgetary impact that 
will result?
    Answer. The significance of the shift to 50 to 80 pits per year 
production capacity is acknowledgement by NNSA and the Department of 
Defense that any future requirements, to include transformation of the 
nuclear weapons stockpile or life extensions of warheads, can be 
managed within the production levels that the capacity can support over 
a specific time period. The reduced capacity requirement also opens up 
the potential for upgrading/modifying the plutonium facility at the Los 
Alamos National Laboratory instead of building a completely new 
facility. The cost difference (savings) between building a new 
plutonium facility for pit production and upgrading/modifying the 
existing plutonium facility (PF-4) at LANL is estimated to be more than 
$1 billion. Either option requires a new capability for chemical and 
metallurgical activities to support pit manufacturing and other 
plutonium operations. The shift, however, comes with additional risk of 
both making the required improvements within an operating nuclear 
facility and meeting any future unknown stockpile requirements where 
time may be critical in sustaining the nuclear deterrent due to 
capacity constraints.

     CHEMISTRY AND METALLURGY RESEARCH REPLACEMENT (CMR-R) PROJECT

    Question. The NNSA's preferred alternative has proposed to build 
all three phases of the CMR-R facility at Los Alamos. There is a lot of 
misinformation being spread about this facility and its role as a 
production facility.
    Can you tell me whether or not the CMR-Replacement facility will be 
used to manufacture pits? If not, where will pits be manufactured?
    Answer. The CMR-R Nuclear facility will not be used to manufacture 
pits, but will support pit production through the availability of a 
vault to hold material and pits and through the required analytical 
chemistry and metallurgical analysis that ensures specification of 
material during production is being met. Pits will be manufactured 
within the Technical Area 55 (TA-55) plutonium facility (PF-4).
    Question. What is the proposed role of the CMR-R and why can't the 
existing facility be used? Also, why is it important that CMR-R include 
a Category II nuclear facility behind the security fence?
    Answer. The proposed role of the CMR-R is to provide analytical 
chemistry support currently conducted in CMR and add a vault for 
storage of material to support pit manufacturing and consolidation of 
plutonium missions. The existing CMR facility was built over 50 years 
ago and has significant facility infrastructure issues that impact 
personnel and safety. In addition, since its construction, further 
seismic analysis has revealed a seismic fault running under the 
building which has caused significant reduction in activities to 
maintain the safety basis. Upgrading the facility to meet modern 
seismic standards for nuclear facilities has been assessed as not being 
cost effective.
    A Category II security facility is required due to the security 
requirements for a facility operating with the amount of special 
nuclear material required to accomplish the NNSA mission. The amount of 
activities using and handling special nuclear material and the required 
load of material within the vault necessitate this security. The 
Radiological Laboratory and Utility Office Building (RLUOB), the other 
facility within the CMR-R project, is only capable by design of 
handling very small gram quantities of special nuclear material.
    Question. The budget request states that the CMR-R project total 
cost is estimated to be $2 billion, which is an increase from the 
initial estimates of $1 billion. The budget doesn't provide a specific 
justification for this increase.
    Can you please explain why this estimate has increased?
    Answer. The basis for the cost the CMR-R is being developed 
presently; NNSA does not envision having a validated cost baseline 
until fiscal year 2010. Specific quantification of the overall costs 
escalation cannot be performed now, but the factors that drive the 
increasing cost of CMR-R, especially for the Nuclear Facility, can be 
identified. These factors include: building commodity and construction 
support cost escalation in the marketplace (e.g., rapid increasing 
costs for steel, concrete, glass, formed shapes, like equipment and 
pipe, and fuel); facility structural design changes to accommodate 
higher seismic loads and enhanced security threats (``the design basis 
threat'') recognized since Critical Decision-1 in May 2005; additional 
analysis of the detailed, specific quality assurance, safety, and 
security requirements for building nuclear facilities (e.g., the 
interactions associated with fire protection and ventilation systems, 
subject to severe seismic criteria); and continued schedule delays, 
which add carrying costs and future escalation.

           ECONOMICS OF THE PROPOSED URANIUM PROCESS FACILITY

    Question. Administrator D'Agostino, as you are well aware the CMR-R 
facility has come under intense scrutiny with Congress even prescribing 
the range of production in the fiscal year 2008 bill, which was 
included in your preferred alternative. I am quite confident that at 
the end of the day, the project will be better served by the intense 
scrutiny and review.
    I am concerned, however, that the Uranium Process Facility and the 
new Kansas City Plant has not received the same level of review as the 
CMR-R Facility.
    It is my understanding that the UPF Facility will cost between $1.4 
billion and $3.5 billion and will support uranium mission of the 
complex. Also, I understand the Cost Analysis Improvement Group 
suggested that an alternative site other than Y-12 might improve the 
economics of this project.
    Has the Department considered the precise throughput that will be 
required for the UPF to support the LEP or RRW mission and has this 
been vetted within other relevant Federal agencies.
    Answer. The UPF is being designed with a throughput to support the 
most likely range of stockpile alternatives being considered jointly by 
the NNSA and DOD at this time. This throughput capacity supports future 
nuclear weapons stockpile requirements for either an LEP or an RRW 
strategy. The NNSA has worked closely with appropriate offices in the 
Department of Defense to properly define stockpile requirements 
affecting UPF throughput.
    Question. What other sites are being considered and how will this 
impact the mission?
    Answer. Uranium operations are currently accomplished at the Y-12 
National Security Complex (Y-12) in Oak Ridge, TN. While Y-12 is 
designated as the preferred uranium center alternative in the Draft 
Complex Transformation Supplemental Programmatic Environmental Impact 
Statement, NNSA continues to evaluate two alternative sites as the 
potential locations for the uranium mission. These alternative sites 
are the Pantex Plant (PX) in Amarillo, Texas, and the Savannah River 
Site (SRS) in Aiken, South Carolina. If uranium operations were moved 
from Y-12 to either PX or SRS, the primary impacts on the NNSA mission 
are the potential risks and added costs of relying on aging Y-12 
facilities during an extended transition period, and the loss of 
workforce expertise that occurs when experienced staff choose not to 
relocate. Current planning schedules show that moving the uranium 
mission from Y-12 to either SRS or PX requires an additional 5 to 7 
years of transition operations of existing Y-12 facilities while 
replacement facilities are completed. After the transition, regardless 
of which site is chosen, the uranium processes required to support the 
NNSA mission would be qualified and fully functional.

                            ENHANCED SURETY

    Question. For the past several years, Congress has provided 
additional funding in the Engineering Campaign to support advanced 
surety research in an effort to encourage the Department to pursue 
state of the art use control technology to prevent the unauthorized use 
of our weapons.
    This is the first year that the administration has included funding 
to support advanced surety research in its request. How will this 
funding be spent and what is your goal and timetable for developing and 
deploying this state-of-the-art technology?
    Answer. The administration has developed advanced surety 
technologies for several years through the Engineering Campaign. The 
W76-1 life extension program (LEP) incorporates improved safety 
features, modern weak-links and strong-links, that were developed in 
the Campaign. Currently funded advanced surety activities include a 
laser-based advanced initiation system that, when fielded, will 
eliminate a safety concern for certain weapons in the existing 
stockpile. Additionally supported work includes security-related 
technologies that will improve the Department's response to current 
terrorist threat scenarios. The surety technologies included in the 
reliable replacement design would have provided greater performance 
margin against these postulated threats. All of these advanced surety 
technologies are fielded based on their technological maturity, and 
while some require an LEP to implement, others can be fielded without 
the need of a major refurbishment of a weapon platform.
    Question. Are you aware of any statutory prohibitions to prevent 
the NNSA from integrating use control technology into our existing LEP 
program?
    Answer. The current statutory definition of a Life Extension 
Program implies use of, or modification of, an existing pit or 
secondary (50 U.S.C. sec. 2529). Therefore, if a potential use control 
technology would require the manufacture of a new pit or secondary, 
that technology would not be allowed in a Life Extension Program. Any 
other use control technologies that can be used in concert with an 
existing pit or secondary would be allowed under the Life Extension 
Programs.
    Question. Knowing that our present warheads are going to be in the 
stockpile for many years, maybe decades more, and with the growing 
threat of terrorist extremists, are we doing enough to implement modern 
surety technologies to keep these warheads secure?
    Answer. Weapon security will always be met through a combination of 
engineered features within the weapons and the appropriate physical 
security measures, and, therefore, future surety improvements must 
balance the tradeoffs between long-term and short-term costs, time to 
implement and overall effectiveness. In addition, before any surety 
improvements can be implemented, the nuclear weapons laboratories must 
ensure that the weapon can be certified without the need of future 
underground nuclear testing. External technologies can provide surety 
improvements in a relatively short time and at a low cost compared to 
either an LEP or replacement weapons but may have significant 
operational impacts and limited effectiveness. An LEP or replacement 
designs provide the opportunity for the greatest surety improvement but 
with a longer development time and additional work required to certify 
the nuclear package without underground nuclear testing. While we have 
made progress in fielding technologies to enhance the surety of the 
stockpile, some of the opportunities for greatest improvement have not 
made it into the stockpile to include the W80 LEP and the Reliable 
Replacement Warhead. The surety of the stockpile is only as good as the 
weakest link. Therefore, to ensure the security of the enduring 
stockpile, we maintain a program to evaluate the stockpile, system-by-
system, and implement the appropriate level of surety for each system, 
accounting for all other aspects of weapon security for the system 
being evaluated.

                  LANL PERFORMANCE--ON THE RIGHT TRACK

    Question. Administrator D'Agostino, we are approaching the 2 year 
anniversary of the new management team's take over of Los Alamos. It 
appears to me that things are on the right track with several 
deliverables met in pit manufacturing, supercomputing, and improved 
site security.
    What is your impression of the operations at LANL?
    Answer. I agree that there has been progress in meeting goals at 
Los Alamos in the areas that you cite. LANL has continued to meet 
mission deliverables and, in particular, is up-to-date in meeting their 
deliverables in pit manufacturing. The supercomputing deliverables for 
the Roadrunner computer system are being met, and LANL is working with 
us to understand the upgraded power and cooling needs of their 
computing facility. Their site security objectives have been largely 
met, including a balanced inventory of special nuclear material and the 
reduction of the amount of CREM (Classified Removable Electronic Media) 
as well as its improved management. LANL, by all measures, continues 
its tradition of outstanding science and technology. Recent positive 
progress has been made in the management of their LDRD (Laboratory 
Directed Research and Development) program to ensure that it is better 
aligned with strategic directions. There are some areas that still need 
improvement. Management costs have gone up since the new team has taken 
over and have added to the cost of doing business. Hiring is a crucial 
area to ensure future scientific success but has been slow because of 
budget difficulties. Overall, there has been steady improvement in most 
operational areas since the management transition.

               LOS ALAMOS NEUTRON SCIENCE CENTER (LANSCE)

    Question. Administrator D'Agostino, as you are aware, I have sent 
you a letter encouraging you to better define the long term science 
strategy and investment in the our national labs as part of the Complex 
Transformation effort. I believe strongly that the NNSA must identify a 
long term science strategy for the NNSA labs. More specifically, I also 
suggested you develop a refurbishment strategy for LANSCE.
    Do you agree that the NNSA must have a long term science 
infrastructure investment plan?
    Answer. Yes, we agree that a long term science infrastructure plan 
is required. The success of the stockpile stewardship program is a 
testament to the execution of the science investment strategies that 
were crafted in the 1990s. These strategies brought us the modern 
computational systems and experimental facilities that can be 
integrated to allow us to maintain the stockpile without underground 
testing. We are also seeing the closure of Significant Finding 
Investigations that had been open for many years because the tools were 
not available or capable. Now they are. In the immediate future we see 
the fruition of many more of the investments such as DARHT second axis, 
ZR, Omega EP, and NIF. Along with LANSCE and smaller facilities, these 
science tools will significantly advance our capability to certify and 
assess the stockpile. Presently, we are engaged in developing science, 
technology and engineering roadmaps. Many of these have pointed to the 
need for LANSCE during the next 10 years or so to address key nuclear 
physics, hydrodynamic and material issues. Science facility needs 
beyond the next 10 years is being studied but will require more results 
from the planned work in the next 5 years that may identify gaps. Other 
national missions may also be weighed in defining new science 
facilities at laboratories.
    Question. Do you believe LANL needs a new science facility to 
continue supporting the ongoing stockpile stewardship mission as well 
as support non-weapons scientific research?
    Answer. The NNNA needs LANSCE for the future to support critical 
stockpile stewardship missions; however, we have not yet determined a 
driving need within NNSA for a new science facility at LANL. LANL has 
discussed ideas that could provide benefit to other science missions 
and also to NNSA. LANL plan some major technical workshops to refine 
their ideas, and they will continue to bring these forward to the 
Department of Energy and NNSA. NNSA believes that LANL will continue to 
have exciting science missions within NNSA either with or without a new 
facility.
    Question. When will NNSA pursue a CD-0 for the LANSCE project?
    Answer. NNSA granted CD-0 for the LANSCE refurbishment project in 
December 2006, and is working to complete CD-1 by the first quarter of 
2009.

                      MATERIALS CONSOLIDATION--MOX

    Question. Can you please summarize for the subcommittee where the 
NNSA is in terms of consolidating special nuclear material and what the 
Department will gain as a result?
    I strongly believe that if the NNSA is going to consolidate the 
special nuclear material, it must also develop a final disposition 
strategy for the excess plutonium. Today, the current disposition 
pathway is the MOX plant at Savannah River.
    Question. The MOX plant serves as our only plutonium disposition 
path forward. Is the Department considering any other alternatives? 
Alternative paths were considered, both by the Department of Energy and 
outside experts, and ultimately rejected as not the most cost effective 
approaches.
    Answer. No, the Department is not considering any other alternative 
plutonium disposition paths for the approximately 43 metric tons (MT) 
of surplus weapon-grade plutonium planned to be processed at the MOX 
facility. While the Department is planning to use the Savannah River 
Site's H-Canyon Complex to dispose of up to 5 MT of impure, non-pit 
plutonium, the H-Canyon Complex is not suitable to dispose of large 
quantities of pure plutonium.
    Question. If Congress were to cancel the MOX project, how much 
longer would it take to develop and implement another disposition 
pathway?
    Answer. If the MOX project were cancelled, the Department would 
have to reevaluate viable alternatives for the disposition of surplus 
weapon-grade plutonium. The Department has previously considered 
immobilization to be a possible alternative and would likely reconsider 
it as a disposition path for the approximately 43 MT of weapon-grade 
plutonium currently planned for the MOX facility. Research and 
development of a ceramic immobilization process was halted 7 years ago 
and restarting such a program now would require at least 10-12 years to 
complete the necessary R&D, repository licensing, design and 
construction before such a facility were able to become operational in 
the 2018-2020 timeframe, assuming essentially unconstrained funding 
were available to support such an aggressive schedule. (Total project 
costs for MOX immobilization were estimated to be roughly equal, there 
is much more technical and financial risk associated with 
immobilization because the technology is less mature.) The amount of 
time necessary to immobilize this large quantity of weapon-grade 
plutonium would extend beyond the planned operating life of the Defense 
Waste Processing Facility (DWPF) at the Savannah River Site and an 
insufficient quantity of high-activity waste remains at DWPF to 
immobilize this quantity of plutonium. This would force consideration 
of shipping surplus plutonium to the State of Washington and performing 
some, if not all, of the can-in-canister immobilization operations at 
the Waste Treatment Plant (WTP) at Hanford.
    Question. What is the earliest you believe it could be operational? 
How much more would it cost?
    Answer. As I mentioned, it would take a minimum of 10-12 years to 
complete the necessary R&D, repository licensing, design and 
construction before an immobilization facility could become 
operational.
    Cost estimates for immobilization are highly uncertain since the 
technology supporting the immobilization of plutonium is still in the 
R&D stage and the immobilized waste form has yet to be qualified for 
acceptance in the planned geologic repository. It is likewise 
impossible to estimate, with any reasonable accuracy, the cost of 
shipping surplus plutonium to the State of Washington and performing 
some, if not all, of the immobilization operations at the Waste 
Treatment Plant at Hanford. Moreover, if the Department were to change 
its disposition program midstream and cancel the MOX project, the cost 
implications would be significant. With construction already 
significantly underway, there would be some physical stabilization of 
the construction site to bring an orderly close to the ongoing work at 
the site. An immobilization facility would still require some form of 
pit disassembly capability. Canceling the MOX program would also 
complicate the Department's proposed nuclear materials consolidation 
strategy, potentially forcing the Department to complete expensive 
security upgrades at the Hanford Site (about $200 million) and Pantex 
(about $27 million), and requiring the Department to continue to pay 
storage costs for plutonium estimated to be hundreds of millions of 
dollars per year, in addition to the possible payment of economic and 
impact assistance of up to $100 million per year to the State of South 
Carolina for failure to meet the MOX production objective as defined by 
section 4306 of the Atomic Energy Defense Act.

                         NNSA SCIENCE STRATEGY

    Question. Administrator D'Agostino, your testimony makes a thorough 
case for the consolidation of materials, mission and manpower. However, 
in the 13 pages of written testimony, I only find the reference to 
science in a handful of examples, primarily focused on past scientific 
achievements. There is absolutely no mention of a scientific path 
forward or a strategy to sustain the scientific excellence at the labs.
    Could you please explain to the subcommittee, what this budget 
provides in terms of long term planning to sustain the science 
capabilities at the laboratory?
    Answer. With respect to Science and Technology at the NNSA 
Laboratories, my most important new initiative is Special Focus Area 4: 
Future Vision and Mission for the NNSA and its Laboratories. I believe 
that the NNSA laboratories can play a central role in national security 
R&D, and complimentary to the transformation of the weapons complex, I 
would like to transform the science and technology base from one 
primarily focused on nuclear weapons, to one which also meets the 
broader national security needs of the Nation. I expect a more detailed 
discussion of this vision in the budget formulation we are currently 
preparing. We expect that this exciting new direction will attract new 
talent to the laboratories, thus allowing us to execute our core 
mission at the same time bring scientific innovation to solving 
emerging national security issues.

                      RELIABLE REPLACEMENT WARHEAD

    Question. Administrator D'Agostino, this budget provides $10 
million to advance the feasibility work on the RRW study, but not 
enough to complete the research. It is my understanding that an 
additional $55 million is needed to complete this phase of study.
    Can you tell me what will be gained if Congress provides the full 
$65 million needed to complete the feasibility study? What would then 
be the next steps?
    Answer. The purpose of the joint Department of Defense and National 
Nuclear Security Administration Reliable Replacement Warhead Phase 2A 
study is to develop the detailed cost, scope and schedule baseline for 
a Navy Submarine Launched Ballistic Missile warhead application. This 
information is needed by the National Nuclear Security Administration, 
the Department of Defense, and the Congress in order to make informed 
decisions on whether and how to proceed with development and 
production.
    Question. Please clarify for the subcommittee whether or not you 
have the authority to expend funds to support the engineering phase of 
the RRW. Under existing authorities can the NNSA build a RRW system if 
it desired at this point?
    Answer. For refurbishments which use the Phase 6.X process, the 
Nuclear Weapons Council approves entry into the development engineering 
phase and the NNSA informs Congress. However for a new weapon 
development project, there are explicitly identified Congressional 
approval points. In the case of the Reliable Replacement Warhead, the 
National Nuclear Security Administration does not have authority to 
expend funds to support the engineering development phase, nor to build 
a Reliable Replacement Warhead.
    Question. Mr. D'Agostino it is my understanding that the existing 
nuclear nations are all making modifications to their nuclear weapons 
programs and we know that both Iran and North Korea have pursued a 
clandestine nuclear program for years.
    Do you believe that the completion of the RRW feasibility study 
would encourage any other nation to change their nuclear weapons 
policy?
    Answer. No, there is not one shred of evidence that U.S. nuclear 
weapons activities including our contemplation of replacement warheads 
has had any impact on either horizontal or vertical proliferation. With 
the end of the cold war came the cessation of the nuclear arms 
competition between the United States and Soviet Union in which one 
side's weapons modernization cycle generated a reaction in the other. 
Today, there is no coupling between Russian and U.S. nuclear weapons 
programs--indeed, the Russians are modernizing their nuclear arsenal 
and we are not.
    U.S. nuclear programs will not increase incentives for terrorists 
to acquire WMD--those incentives are already high and are unrelated to 
U.S. nuclear (or conventional) defense capabilities. Nor are such 
programs likely to have any impact on rogue state proliferation, which 
marches forward independently of the U.S. nuclear program. Indeed, 
there is no indication at all that very significant reductions in the 
numbers of U.S. (and Russian) nuclear weapons, and in the alert levels 
of nuclear forces, over the past two decades, coupled with no U.S. 
nuclear testing and very little U.S. nuclear modernization, has caused 
North Korea or Iran to slow down covert programs to acquire 
capabilities to produce nuclear weapons. On the contrary, these 
programs have accelerated during this period. Nor did such U.S. 
restraint convince India and Pakistan not to test in 1998, or North 
Korea in 2005. Rather, North Korea and Iran appear to seek WMD in 
response to their own perceived security needs, in part, to deter the 
United States from taking steps to protect itself and allies in each of 
these regions.
    But even more importantly, the credibility of the U.S. extended 
nuclear umbrella is a significant restraint on proliferation. Continued 
U.S. engagement in security cooperation with allies including a 
military presence, modern and flexible U.S. military forces, and the 
extension of a smaller but safe, reliable and capable nuclear deterrent 
to allies are key elements in assuring allies that they can count on 
the United States, and do not need their own nuclear forces.
    Question. Last year, Congress directed the Department to answer 
several critical questions posed by the JASON report regarding the RRW 
program and the subcommittee provided $20 million to provide answers to 
their questions.
    Does this work have application to warheads other than the RRW?
    Answer. Many of the issues raised during the JASON review of RRW 
are directly applicable to Life Extension Programs of existing systems 
and annual assessments of existing systems. The advanced certification 
sub-program as outlined in the two reports to Congress is focusing on 
those issues that are relevant to all systems that may be changed from 
the tested designs by the use of new materials, enhanced surety 
features, and component modifications.
    Question. Has the NNSA used these funds to secretly fund or 
subsidize the RRW feasibility study?
    Answer. No. The advanced certification sub-program will look at the 
certification issues raised by the JASON regarding RRW but it will 
address a sub-set of those issues that are common to legacy systems as 
well. The RRW funding line that is in the fiscal year 2009 budget is 
intended to address specific JASON issues that pertain specifically to 
the WR1 design.

                      UNIVERSITY ROBOTICS PROGRAM

    Question. What is your out year budget plan for the University 
Robotics Program.
    Answer. The University Research Program in Robotics (URPR) was 
placed in the Enhanced Surveillance sub-program of the Engineering 
Campaign. Based on funding priorities within this sub-program, it is 
the intent of NNSA to fund the URPR at about $1.8 million for the out-
years.
    Question. Do you believe this research initiative adds value to 
this program or would it be better suited with another office?
    Answer. Although the URPR has produced some worthwhile ideas and 
concepts for sensors and control systems, the weapon program does not 
consider this work to be priority.

                               Z MACHINE

    Question. Administrator D'Agostino, you have recently completed the 
$90 million refurbishment of the Z machine making it more efficient and 
with a greater research potential. I have heard that the out year 
budget requests could reduce the budget for this facility by 50 
percent.
    Is this NNSA planning to shut this facility down in the near future 
and how can you justify spending all this funding, but not operating 
the facilities?
    Answer. The Z machine at Sandia National Laboratories is an 
important part of the Stockpile Stewardship Program and has made 
important contributions to the program in materials properties, weapons 
effects, pulsed power fusion, and other areas. In the 2008 President's 
budget request, NNSA asked for $63.9 million for the Z machine, and in 
the 2009 President's budget request, NNSA asked for $64.0 million. In 
both of these years, there were additional funds requested for targets. 
In future years, the NNSA intends to request adequate funding to make 
effective use of the Z machine and meet Stockpile Stewardship Program 
requirements. There are no plans to shut down this unique, world-
leading facility.

                Z MACHINE AND NATIONAL IGNITION FACILITY

    Question. NNSA has made a major investment in the construction of 
laboratory facilities to support the Stockpile Stewardship Program 
including the NIF at LLNL, the OMEGA at the University of Rochester and 
the refurbishment of the Z facility at Sandia. However, NNSA budget 
requests are below what is needed to fully utilize these facilities.
    Does this year's request and the out year budgets support the full 
utilization of these facilities? If not, what process has the 
Department used to prioritize the value and funding for these 
facilities?
    Answer. The NNSA is requesting adequate funding to meet Stockpile 
Stewardship Program goals in accordance with a balanced, technically-
based prioritization. Our responsibility is to adjust our budgets to 
meet the needs of the program according to our assessment of national 
priorities that Defense Programs must satisfy.
    The level of facility funding is determined through a rigorous 
process involving the weapons laboratories, the Science Campaigns, and 
the Directed Stockpile Work program. Weapons science priorities are set 
by a process that considers where the advancement of scientific 
knowledge can make the most impact on weapons confidence synchronized 
with the development of experimental and computing capabilities. 
Funding for experimental facilities follows from the weapons science 
priorities and consideration of costs, benefits, and customer 
commitments.
    Question. Given the progress and the opportunities provided by 
pulse power, the subcommittee also expressed their expectation that the 
Department will provide adequate funding for the full utilization of 
the Z machine in the out-year budgets.
    What has the Department done to follow these directions?
    Answer. NNSA recognizes the promise and progress of pulsed power 
and the important contributions to stockpile stewardship that the Z 
facility has been making and will make in the future. In fiscal year 
2009, NNSA is requesting $64.0 million for operation and use of the Z 
facility. This amount will enable a strong program of over 180 shots 
which will meet all 2009 requirements for stockpile stewardship. 
Additional funding is requested for targets for the Z facility. In 
future years, the NNSA intends to request adequate funding to make 
effective use of the Z machine and meet Stockpile Stewardship Program 
requirements.
    Question. The baseline ignition approach on the NIF is x-ray or 
indirect drive. This approach was chosen after detailed review of its 
maturity and value to the weapons program. Significant challenges 
remain for this approach as independent reviews have concluded and even 
now there appears to be uncertainty in the baseline target, requiring 
several different approaches to be funded. In the 2008 budget process 
this subcommittee expressed this concern and again asks the Department 
to justify why it does not defer the direct drive approach to ignition 
on NIF until after achievement of x-ray driven ignition or after 
experiments have shown that the baseline approach will not succeed.
    Given the present and future budgetary pressures on the Stewardship 
Program, why does the Department continue using significant resources 
on other approaches to ignition such as direct drive?
    Answer. In response to the present and future budgetary pressures 
on the National Ignition Campaign and the Stockpile Stewardship 
Program, resources have been shifted to maintain the indirect drive 
program. Those portions of the direct drive physics program that 
directly support the indirect drive effort are funded, along with a 
small polar direct drive program.
    As confirmed by independent reviews, success in inertial fusion and 
an ignition demonstration depend on a detailed technical understanding 
of the implosion process. Many of the key scientific and technical 
challenges associated with ignition are independent of the drive 
method--direct or indirect drive. The OMEGA laser system is flexible 
and is used to study implosion physics with direct and indirect drive. 
The choice of direct or indirect drive is a technical decision based on 
experimental capabilities and requirements.
    Studies at OMEGA examine physics and technology issues required for 
the success of indirect drive, including aspects of implosions using 
direct drive that are currently inaccessible with indirect drive. 
Implosion target physics is an integral part of the National Ignition 
Campaign. An important recent example is the achievement of record 
compressed densities in cryogenic deuterium-tritium capsules using 
direct drive on the OMEGA laser. This critically important result 
provided new knowledge regarding capsule physics and the operation of 
cryogenic systems--information directly applicable to indirect drive.
    Since its inception, the National Ignition Campaign has included 
direct drive as a risk mitigation strategy (contained in the approved 
NIC Execution Plan). Polar direct drive remains the only near-term 
back-up strategy for indirect drive ignition on the NIF. The mainline 
strategy remains indirect drive, and the bulk of NIF resources are 
devoted to it. Only if major unforeseen problems arise with indirect 
drive will a change to direct drive be considered.
    Question. Has the Department conducted an external and independent 
review of the direct drive approach on NIF taking into account the non-
ideal geometry on this facility? Has the Department considered any 
other approaches other than direct drive as the back-up to indirect 
drive on NIF? If so, what process was employed in this decision?
    Answer. Yes. The polar direct drive approach for achieving ignition 
on the NIF was reviewed by an external and independent committee as 
part of the larger program review in 2005. It was recommended that 
direct drive research be continued as a risk mitigation strategy for 
achieving ignition. Polar direct drive is optimized for the initial NIF 
geometry. An NNSA Level-1 milestone in fiscal year 2009 provides a 
decision point for moving forward with development of polar direct 
drive for the NIF. The mainline strategy remains indirect drive and 
polar direct drive is the only current back-up. The committee also 
recommended that risk mitigation include planning for the use of green 
(2-v) instead of blue (3-v) light. Other approaches to ignition on the 
NIF, such as fast ignition and shock ignition, are primarily supported 
through multi-institutional grants by the Department of Energy's Office 
of Fusion Energy Sciences and by Laboratory Directed Research and 
Development (LDRD) at the national laboratories.
    Please describe how the additional funding provided in the 2008 
budget was used in accordance with the language of Congress. In 
particular was an additional $13 million provided to Sandia National 
Laboratory to fully fund single shift operation of Z, and how many 
``additional shots to support the goal of an ignition demonstration at 
the National Ignition Facility (NIF) in 2010'' are being performed for 
the $9 million extra that University of Rochester received in fiscal 
year 2008?
    Answer. For the Z facility for fiscal year 2008, the NNSA requested 
a total of $63.9 million for its operation and use. There were 
additional funds requested to fabricate targets for Z. In the Energy 
and Water Appropriations Act of 2008, the Congress added $13.0 million 
to fully fund single shift operations. Of the $13.0 million in 
additional funding, $7.9 million was provided directly to the Z 
facility and $2 million was provided to General Atomics Corporation to 
meet target needs for Z. The remaining $3.1 million was used for the 
Congressional rescission and the program's share of Defense Programs 
site infrastructure charges.
    In addition, the Congress provided $62.0 million for the Laboratory 
for Laser Energetics operations, an increase of $9.0 million over the 
budget request, to provide additional shots to support the goal of an 
ignition demonstration at the National Ignition Facility in 2010. After 
the Congressionally mandated rescission and $1.0 million for the 
program's share of Defense Programs site infrastructure charges, the 
amount of funding provided to the University of Rochester over the 
fiscal year 2008 President's budget was $7.4 million. This funding has 
provided 262 additional shots on the OMEGA laser system and 115 shots 
on the OMEGA Extended Performance laser system in support of achieving 
ignition at the National Ignition Facility.
                                 ______
                                 
                 Questions Submitted to Dr. Tom Hunter
             Questions Submitted by Senator Byron L. Dorgan

                           ADVANCED COMPUTING

    Question. The fiscal year 2008 Omnibus language directed both the 
NNSA and the Office of Science to establish a joint advanced computing 
and algorithm R&D program at Sandia. The objective of this language was 
to restore a world leading R&D capability in high performance computing 
architecture. The United States won't maintain its world leading role 
if we don't continue to support research.
    What has the Department been doing to establish this capability and 
what goals have been set and how will Sandia contribute to this 
research program?
    Answer. The Institute for Advanced Architectures and Algorithms 
(IAA) has been established with centers of excellence at Sandia (SNL) 
and Oak Ridge (ORNL) National Laboratories. A joint SNL-ORNL management 
structure along with strategic directions have been established. These 
strategic directions are aligned to the known technical gaps that must 
be closed for the United States to retain its leadership in high 
performance computing (HPC). However, the pacing elements in closing 
these gaps will be Federal funding and engagement by the both the U.S. 
semiconductor and HPC industry.
    Working with Federal Program Managers in DOE Office of Science 
Advanced Scientific Computing Research (ASCR) and NNSA Advanced 
Simulation and Computing (ASC), a competitive proposal and external 
review process has been developed for deployment of the initial $7.5 
million fiscal year 2008 funding. We expect the selection of winning 
proposals will be completed in Q4 fiscal year 2008 with most of the 
research activity occurring in fiscal year 2009. Although this has 
taken longer than we originally anticipated, we believe having 
concurrence from all parties on the funding process is placing IAA on 
solid footing for the future.
    As you are aware, the appropriations language instructed both DOE 
OS and NNSA to establish the IAA. This language has been interpreted to 
require that ASCR fund ORNL while ASC funds SNL. It our belief that a 
very successful IAA briefing to ASCR and ASC management in January 2008 
lead to Dr. Orbach inserting language at the last moment into the 
fiscal year 2009 President's budget requesting the continuation of IAA. 
However, no funding stream was identified. It is our understanding that 
ASCR plans to ask for additional appropriations in the fiscal year 2010 
Presidents budget request. NNSA is supportive of the creation of IAA at 
SNL but has asked SNL to prioritize their future ASC computer science 
funding to support the NNSA contribution to IAA. Evidence of NNSA's 
support can be found in stability of SNL computer science FYNSP funding 
during a period of significant declines in the ASC budget. However as 
pressures increase in the overall NNSA budget, we are concerned that 
there is significant risk in SNL IAA FYNSP funding.
    Question. The Complex Transformation Preferred Alternative proposes 
to eliminate future investment in a super computing platform at Sandia, 
despite a very strong track record in developing the first massively 
parallel computing architecture, which has become the standard for high 
speed computers.
    How will this impact the laboratory in the future and what will you 
do with the experienced staff without this mission responsibility?
    Answer. Our response to NNSA's decision to reduce capability 
platform sitting to LLNL and LANL has been to develop a strong 
partnership with LANL called the Alliance for Computing at Extreme 
Scales (ACES). On March 7, 2008, Tom Hunter and Mike Anastasio signed a 
Memorandum of Understanding (MOU) creating ACES. In this MOU, SNL has 
the leadership for architecting and engineering platforms to be sited 
at the Metropolis center at LANL while LANL has the leadership for 
deploying and operating the platforms. Although this might appear like 
a handoff, both labs have equal representation on creating and 
operating the next generation of capability computers. Other than NNSA 
reversing its decision, we believe this partnership provides the lowest 
risk path to retaining the SNL experience staff that developed and 
deployed the most successful HPC platform to-date, RedStorm.
    For ACES to be successful, NNSA must assign a near-future tri-lab 
platform to the partnership. The NNSA ASC computing strategy calls for 
a replacement for the Purple platform in fiscal year 2010. SNL and LANL 
were lead to believe that once the MOU was signed, NNSA would announce 
that ACES would provide the ``purple replacement''. SNL remains 
concerned that after almost 3 months, NNSA has not made an 
announcement.
    The MOU does not preclude SNL from developing, procuring and 
operating HPC capability platform for non-DP missions. For example with 
NNSA's support, SNL is developing a strategy for supplying HPC 
computing for the enormous challenges associated in turning information 
into knowledge through computational analysis (informatics). An example 
of informatics for national security would be the discovery of 
terrorist networks. We believe that moving in this direction provides 
new opportunities for SNL staff to make significant impacts in the U.S. 
national security through the development of new HPC architectures and 
state-of-the-art algorithms for informatics.

                        SANDIA FUNDING DIVERSITY

    Question. Dr. Hunter, your lab has been the most successful of the 
three labs in diversifying your budget. However, it is my understanding 
that investment from other Federal agencies in limited and generally 
doesn't provide sufficient resources to make long term investments.
    Can you explain to the subcommittee the challenges in seeking 
outside Federal customers?
    As a result of your funding diversity, do you believe that NNSA 
uses this as an excuse for cutting corners and not making the same 
level of investment as the other?
    Answer. Our Nation is facing a diverse set of emerging threats 
ranging from traditional strategic nuclear threats to threats from 
other nation states, terrorists, natural disasters, and threats from 
technological surprise. As the Nation interacts with a changed world in 
which monolithic threats no longer dominate, the means to disrupt an 
increasingly technology-based society are rapidly multiplying. In my 
role as President and Director of Sandia National Laboratories, I view 
the NNSA's national security laboratories, with their world-class 
scientists and engineers and many one-of-a-kind facilities, as national 
assets and as a unique resource for the Nation in anticipating and 
responding to hostile actors and actions.
    I'd like to address three basic challenges, however, that currently 
limit the NNSA laboratories' ability to fully engage with other Federal 
agencies (OFAs), including: a long-term commitment to funding the 
foundational capabilities and resources of the NNSA Complex; enabling 
easier access to the NNSA's resources by OFAs; and a shared commitment 
through strategic partnerships between the NNSA complex and OFAs to 
ensure the Nation's security.
    At Sandia, our Work for Other's (WFO) program has existed for more 
than 50 years and has expanded significantly over the past two decades. 
There are many examples where the nuclear weapons program has benefited 
from WFO program activities, including radar, safety and risk 
assessment, and improved modeling and simulation capabilities. 
Likewise, various WFO customers have benefited from the long history of 
DOE investment in capabilities at the national laboratories. It is 
becoming increasingly difficult, however, for any one funding source to 
maintain the needed foundational capabilities of the laboratories.
    As we go forward, it will be essential to maintain the science, 
technology and engineering foundation of the Labs and define its vital 
role in responding to the Nation's security. This foundation, 
historically highly leveraged by other agencies with national security 
interests, faces dramatic reductions consistent with the down-sizing of 
the nuclear weapons mission. We must find a way to sustain this 
foundation so that the statutory nuclear weapons mission and the 
broader national security commitments are effectively met.
    In addition, it is imperative that OFAs should be provided easier 
access to the NNSA Complex's science, technology, and engineering 
capabilities. Commensurate with this, the NNSA and it laboratories are 
examining the existing NNSA Work for Others (WFO) program regulatory, 
policy, and procedural framework in order to identify improvements to 
current roles, responsibilities, policies, processes and requirements. 
Collectively, changes in these areas have the potential to provide 
easier access to the NNSA Complex's capabilities and allow NNSA sites 
more responsibility and accountability for meeting national security 
needs while still meeting statutory requirements.
    Overall, the common missions and shared interests of a number of 
Federal agencies with a stake in the Nation's security provide a strong 
basis for collaborative activities, mutual prioritizing of resources, 
and enduring partnerships. Such mutual missions and interests have the 
potential to develop into true strategic partnerships and enhance the 
Nation's approach to meeting national security challenges. Building 
trust among such Federal agencies is difficult, and open and consistent 
communication will be essential. Relationship development among Federal 
organization is time consuming and requires resources. However, I 
believe that we can better leverage these shared missions and interests 
of Federal agencies with the NNSA laboratories.
    Much of Sandia's work is sponsored by DOE's National Nuclear 
Security Administration (NNSA), but we also work for other Federal 
agencies, including the Department of Defense and Department of 
Homeland Security. And we work cooperatively with a number of 
government, U.S. industry, and academic partners to accomplish our 
missions and to help ensure the Nation's security. Many recognize that 
the threats the Nation faces are more diverse than ever. From my 
position at Sandia, I believe that the NNSA national security 
laboratories and my own lab are well positioned to offer the new 
science, technology, and engineering solutions to address these 
threats.

                               Z MACHINE

    Question. Dr. Hunter, we have struggled to keep full funding of the 
Z machine, which has turned out to be a fantastic research facility at 
a fraction of the cost of many of the other facilities. I recall, with 
the recent refurbishment, this facility cost less that $200 million to 
construct.
    Is the Z machine continuing to deliver important scientific data? 
How much more funding will you need above the fiscal year 2009 request 
to restore full operation?
    Answer. First of all, your recollection on the facility cost is 
correct. Over the past 25 years, the capital investment in the 
facility, including the addition of major diagnostic systems such as 
the Z-Beamlet and Z-Petawatt lasers and the recently completed Z 
refurbishment project, is less than $200 million. (Major capital 
investments over the past 25 years have included: Particle Beam Fusion 
Accelerator II (1985) $45 million; Z Conversion (1996) $12 million; 
Beamlet Laser (2001) $13 million; Z Refurbishment (2007) $90 million; 
and Z Petawatt Laser (2007) $30 million; Total $190 million)
    Today the Z machine is the most powerful and energetic laboratory 
x-ray source in the world. Z's strength is its ability to produce 
copious x-rays, large plasma environments, and controlled high 
pressures to evaluate weapons science phenomena. Z provides critical 
data for weapons primaries, secondaries, and non-nuclear components as 
part of NNSA's Stockpile Stewardship program. Achieving high energy 
density conditions is critical to develop and validate advanced 
theoretical models and codes and to characterize weapons component 
performance.
    Z provides essential data on the effects of soft x-rays on weapon 
components that cannot be obtained with any other laboratory source. 
Z's material property capability is unique, produces the most accurate 
weapons material data available in high energy density pressure 
regimes, and is required to validate new physics models of the response 
of weapons materials, such as plutonium. Z is also essential for 
evaluating the feasibility of achieving thermonuclear fusion ignition 
with pulsed power. Pulsed-power-driven fusion has the potential to be a 
very efficient and low cost approach to producing high fusion yields in 
the laboratory for weapon science and over the long term energy.
    At present, Z is funded to operate at 75 percent of full capacity 
to meet the essential requirements of NNSA's stockpile stewardship 
program. This partial capacity permits about 170-180 shots per year 
allocated as: 60 shots for material properties, 50 shots related to 
magnetically-driven Z-pinch implosions for fusion, 25 shots testing 
radiation effects, 25 shots supporting weapon secondary assessment, and 
about 10-20 pulsed power shots associated with facility operations and 
enhancements. An additional $12 million in funding is required to 
restore full single-shift operations, which would enable many other 
important opportunities to be pursued in the areas of weapon science, 
inertial confinement fusion, and fundamental science. Included in these 
additional tests are those in support of weapon primary and secondary 
assessment, nuclear survivability, and university science for the joint 
NNSA/OS High Energy Density Laboratory Plasma program. Allowing 
necessary ramp up time for training of new staff to support the full 
mission, the full single shift operations will support about 240 shots 
annually.
    Question. For several years, I have pressed the Department to 
establish a joint High Energy Density Plasma research program utilizing 
NNSA facilities to support non weapons research. Finally, the fiscal 
year 2008 budget request provided $24 million to support this research.
    Is this joint program utilizing the Z machine and do you believe 
more could be done to expand its use by the DOE Office of Science?
    Answer. The joint High Energy Density Laboratory Plasma research 
program is still being formulated by the Defense Science Division 
within NNSA and the Office of Fusion Energy Science within the DOE 
Office of Science. We believe that the Z facility as well as the Z-
Beamlet and Z-Petawatt laser capabilities should be a significant 
component of this program. These facilities can also provide 
experimental environments for the basic research needs for materials 
under extreme environments.
    At the proposed funding level it is not likely that the new joint 
program will include a large effort in utilizing the Z facility and the 
other excellent high-energy-density science facilities at the NNSA 
laboratories. There are tremendous opportunities for university and 
national laboratory researchers to use NNSA's high-energy-density 
science facilities to access experimental conditions of interest for 
fundamental science in the areas of planetary physics, material 
properties at extreme temperatures and pressures, and laboratory 
astrophysics. A basic science program on high energy density laboratory 
plasmas would be a strong component of full utilization of the Z 
facility.

                          SUBCOMMITTEE RECESS

    Senator Dorgan. We invited the three laboratory Directors, 
and I'm really pleased we did. I'm pleased you've come, and I 
hope we will be able to do this again next year.
    And thank you for your work.
    Director.
    Dr. Anastasio. Thank you very much.
    Senator Dorgan. This subcommittee's recessed.
    [Whereupon, at 4:40 p.m., Wednesday, April 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
